United States Department of Labor
Office of Inspector General




Semiannual Report to the Congress
April 1, 1999-September, 30, 1999
Volume 42
                                                                                           Inspector
                                                                                           Generals
                                                                                            Message




This Semiannual Report of the Office of Inspector General (OIG) details some of our most significant
accomplishments for the period April 1, 1999–September 30, 1999. During this period, the OIG focused its audit
and investigative resources on activities that support accomplishment of our strategic plan goals. The OIG goals
reflect my vision to provide the Department of Labor (DOL) and Congress with quality information,
recommendations, and technical assistance. Our approach has been to augment our traditional independent
audit and investigative roles by working collaboratively and constructively with the Department. We have done
so for a number of major departmental initiatives to identify, early in the process, possible impediments that may
affect the success of DOL in administering its programs and in serving the American public. The following are
illustrative of recent activities to this end:


   •   Conducting 17 Welfare-to-Work Program audits to help the Employment and Training Administration
       (ETA) ensure that the program is effective in assisting welfare recipients to obtain employment and self-
       sufficiency. The audits assessed the grantees’ capability to administer their grant responsibilities by
       identifying vulnerabilities and recommending corrective action before funds are misspent.


   •   Working with ETA to jointly develop information that will assist ETA in finalizing regulations on
       administrative costs under the Workforce Investment Act.


   •   Responding to a request for audit services from the Bureau of Labor Statistics because of the premature
       dissemination of sensitive economic data.


   •   Assisting the Department in its continued efforts to implement cost accounting and viable performance
       measures.


   •   Conducting audits of a number of grants and contracts and identifying over $5 million in costs questioned
       due to mismanagement and lack of compliance with financial management requirements.


   •   Identifying $48 million in administrative overcharges by the U.S. Treasury to the Unemployment
       Insurance Trust Fund.


   •   Uncovering and stopping complex fraud schemes against DOL unemployment and disability
       compensation programs.
Inspector
Generals
 Message




    •   Combating labor racketeering in unions and the workplace through successful indictments
        and convictions in the areas of employee benefit plans, labor-management relations, and
        internal union affairs, as well as utilizing civil RICO actions to establish long-term stability in
        unions.


    •   Calling attention to legislative changes needed to improve aspects of pension, workers’
        compensation, and program evaluation functions of the Department.


 My staff and I are committed to effecting positive change, reducing vulnerabilities, and contributing
 to the achievement of DOL strategic goals. I look forward to continuing to work effectively with the
 Secretary, management, and departmental staff at all levels in our common goal of ensuring the
 effectiveness, efficiency, and integrity of the programs that serve and protect American workers and
 retirees.




 Charles C. Masten
 Inspector General
                                                                                                                                Table of
                                                                                                                                Contents




Significant Concerns ...................................................................................................................................... 1

Selected Statistics ....................................................................................................................................... 12

Goal 1 - A Prepared Workforce

     Employment and Training Audits:

          Welfare-to-Work ............................................................................................................................... 15

          Workforce Investment Act ................................................................................................................ 23

          Adult Training ................................................................................................................................... 26

          Native American Programs .............................................................................................................. 32

          Senior Community Service Employment Program ........................................................................... 35

     Youth Programs Audits:

          School-to-Work ................................................................................................................................ 38

          Job Corps ......................................................................................................................................... 40

     Audit Resolution ..................................................................................................................................... 46

     Investigative Activities ............................................................................................................................ 48

Goal 2 - A Secure Workforce

     Unemployment Insurance Audits ........................................................................................................... 53

     Unemployment Insurance Investigations ............................................................................................... 56

     Worker Benefits Audits .......................................................................................................................... 59

     Worker Benefits Evaluations .................................................................................................................. 62



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                                                                               i
      Table of
      Contents


     Worker Benefits Investigations:

          Medical Provider Fraud .................................................................................................................... 66

          Employer Fraud ................................................................................................................................ 70

          Claimant Fraud ................................................................................................................................. 71

Goal 3 - Quality Workplaces

     Workplace Evaluations .......................................................................................................................... 77

     Workplace Investigations ....................................................................................................................... 78

Goal 4 - Departmental Management Focus

     Bureau of Labor Statistics Audits ........................................................................................................... 83

     DOL Management Issues:

          DOL Management Advisory Comments .......................................................................................... 87

          Longshore and District of Columbia Trust Funds ............................................................................. 89

          Year 2000 (Y2K) ............................................................................................................................... 90

     National Skill Standards Board Audits.................................................................................................... 95

     Investigative Activities ............................................................................................................................ 97

Goal 5 - Labor Racketeering
     Investigative Activities .......................................................................................................................... 103

Legislative Recommendations ................................................................................................................... 113

Appendix         ................................................................................................................................................. 119




                                                                                                                       Semiannual Report to the Congress
ii                                                                                                                      April 1, 1999–September 30, 1999
    Improving
     Program
      Results




Significant
  Concerns
                                                                                      Significant
                                                                                       Concerns




Workforce Investment Act Program
Administrative Cost Limitations May
Impact Delivery of Services and
Accountability

                                    The Workforce Investment Act (WIA) Program, which supersedes the
                                    Job Training Partnership Act (JTPA) Program, becomes effective on
                                    July 1, 2000. WIA reforms Federal job-training programs and will create
                                    a new comprehensive workforce investment system. The reformed
                                    system is intended to be customer focused to help American workers
                                    access high-quality services and tools they need to manage their
                                    careers and help U.S. companies find skilled workers.

                                    WIA requires that local areas operate within a 10 percent administrative
                                    cost limitation. This represents a significant reduction from similar JTPA
                                    programs, which are currently allowed to operate at 20 percent. In a
                                    project conducted jointly with the Employment and Training
                                    Administration (ETA), the OIG evaluated the potential impact of WIA’s
                                    administrative cost provision. Applying the cost classification provisions
                                    of the WIA interim final rule to 13 JTPA grantees revealed that, as
                                    currently operated, most would not meet the 10 percent administrative
                                    cost limitation imposed under WIA. This is of concern not only to the OIG,
                                    but also to ETA, because of unintended consequences that may result.
                                    The first is the risk that the WIA administrative funding and definitions
                                    may affect how local areas deliver services or account for costs. The
                                    second is that ETA may become subjected to an inordinate volume of
                                    requests from local areas for waivers of the statutory cost limitation,
                                    making the exception more common than the rule.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                            3
    Significant
     Concerns




Slow Implementation of the Welfare-
to-Work Program

                          The Department’s ability to provide effective training and employment
                          services to help individuals transition from welfare dependency to self-
                          sufficiency will be key to the success of welfare reform. The Welfare-to-
                          Work (WtW) program is part of the arsenal of services available to help
                          disadvantaged individuals change their lives. This program is intended
                          to be a key element in assisting states and local communities in moving
                          welfare recipients who receive Temporary Assistance to Needy Families
                          (TANF) funds into unsubsidized jobs and economic self-sufficiency. The
                          Balanced Budget Act authorized $3 billion for the program, which is
                          being distributed as both formula grants to states (75 percent) and
                          competitive grants to other eligible entities (25 percent). The success of
                          the program will hinge not only on the effectiveness of the Department’s
                          stewardship and the quality of services provided, but also on its ability to
                          capture and report the results of its efforts on behalf of eligible
                          individuals. It will also be critical for the Department to provide effective
                          monitoring of the substantial dollars awarded to grantees for
                          employment and training services.

                          We are concerned that, in both the formula and competitive grant
                          segments of the program, implementation is proceeding slowly. For
                          example, we audited seven state formula grantees and found that a
                          number of issues slowed the implementation of the program. Issues we
                          identified include:

                              •   the program and administrative requirements mandated by the
                                  authorizing legislation were viewed by some grantees as
                                  restricting their abilities to locate and serve eligible individuals;

                              •   local providers with access to the less restrictive TANF funds
                                  opted to spend those funds first to help serve the same client
                                  population targeted by WtW;

                              •   the challenge of transitioning to WIA and implementing WtW at
                                  the same time; and




                                                                         Semiannual Report to the Congress
4                                                                          April 1, 1999–September 30, 1999
                                                                                       Significant
                                                                                        Concerns




                                       •   the program plans, procurement actions, and coordination
                                           arrangements needed to launch a program of this nature were
                                           sometimes inadequate or incomplete.

                                    If the current pace of implementation is maintained, WtW funds will not
                                    be spent within the mandated three-year period and the number of
                                    individuals who will obtain the assistance needed to move from welfare
                                    to work may potentially be reduced. Based on our audit findings, which
                                    are further detailed in the Prepared Workforce section of this report, we
                                    are concerned that weaknesses in key areas may undermine the
                                    success of the program.

DOL Challenged to Ensure Total
Accountability for GPRA

                                    Important initiatives are underway to improve the results of Federal
                                    programs and operations. With passage of the Government
                                    Performance and Results Act (GPRA), Congress created a
                                    management process whereby Federal agencies develop strategic
                                    plans, articulate program goals, allocate Federal resources to meet
                                    desired performance levels, and measure and report program results.
                                    Similarly, new Federal accounting standards implemented in fiscal year
                                    1998 are aimed at ensuring reliable and timely accounting for the full cost
                                    of Federal programs and activities. It will be very important for DOL to
                                    ensure that the performance and goal accomplishment information be
                                    accurate and auditable in order for DOL’s March 2000 performance
                                    reporting to be credible. The OIG plans to continue to provide oversight
                                    and assistance to this end. Our current activities in this area are detailed
                                    in the Departmental Management section of this report. However, the
                                    Department faces the following challenges in achieving the full
                                    accountability envisioned through the GPRA and the new accounting
                                    standards:

                                       •   Linking Financial and Performance Data:
                                           To determine the success of government programs, financial
                                           and performance information is needed. By linking this type of
                                           information, the Department and Congress can determine the



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                              5
    Significant
     Concerns


                         value and future direction of Federal programs and achieve the
                         accountability demanded by the public. However, most Federal
                         agencies, including DOL, have not yet achieved this linkage.
                         The Department continues with the development of a cost
                         accounting system; however, even with the best effort, it will
                         take a few years before DOL will be able to link its financial and
                         performance data.

                     •   Complications from Allocating Costs and Results
                         Among Participating Agencies:
                         A significant feature of the WIA of 1998 is the establishment of
                         one-stop delivery systems within each local workforce
                         investment area. However, cost sharing presents special
                         problems in a one-stop environment. It increases the
                         administrative burden of accounting for costs and benefits in a
                         system in which it is increasingly difficult to discern to which
                         program the participants belong and who should be paying the
                         cost of services. This is further complicated by a key principle of
                         Federal grant accounting: that costs may be charged to a
                         program only to the extent that benefits are received by that
                         program. The Employment and Training Administration (ETA)
                         will need to continue its efforts to reduce the administrative
                         burden, while ensuring meaningful accounting for program
                         costs by benefits received. Notably, these same difficulties will
                         be faced by other job training programs as organizations
                         attempt to portray the achievements associated with their
                         respective investments.

                     •   Data Limitations:
                         The Department faces a number of challenges related to its
                         access to data. For example, the Department is limited in its
                         ability to control the quality and accuracy of program data that
                         will be used to determine whether its strategic goals are
                         achieved. For example, the myriad of data provided by states
                         and other sources below the Federal level present challenges to
                         ensure that adequate internal controls exist over DOL financial
                         and performance data systems.

                  In addition, two important tenets of GPRA are the requirements that
                  agencies conduct program evaluations to determine program




                                                              Semiannual Report to the Congress
6                                                               April 1, 1999–September 30, 1999
                                                                                         Significant
                                                                                          Concerns


                                    effectiveness and validation of performance data. In the employment
                                    and training area, it is particularly important to know whether programs
                                    have resulted in individuals becoming self-sufficient by obtaining long-
                                    term, unsubsidized employment at livable wages. Two key sources of
                                    information that may be used to this end are Unemployment Insurance
                                    (UI) and Social Security wage records of individual program participants.
                                    Similarly, this data is needed for the investigation of fraud, particularly in
                                    the workers’ compensation and UI benefits areas. However, the
                                    Department is limited in its ability to obtain such data for program
                                    evaluation, data validation, and investigative purposes. Thus, the
                                    Department needs to have statutory authority to easily obtain and utilize
                                    these types of records as a way to determine or validate the results
                                    achieved for the substantial investment of taxpayer dollars and to
                                    investigate fraudulent activities involving a number of its programs.

Security of the Department’s
Information Technology Needs to be
Ensured

                                    The OIG has ongoing concerns about the Department’s Information
                                    Technology (IT) security vulnerabilities and practices, personnel
                                    security, and internal controls. In the past few years, departmental data
                                    and systems have become increasingly difficult to protect due to
                                    technological advances and accelerating use of the Internet. Further, we
                                    have identified practices that, while not harmful individually, taken
                                    collectively may leave the Department’s systems and the critical data
                                    they contain open to both attack and mismanagement. As the
                                    Department continues to update or implement major IT systems as part
                                    of the new DOL architecture, these concerns need to be considered as
                                    systems are developed.

Unimpeded Access to Program Data
Critical to the OIG Mission

                                    A critical provision of the Inspector General Act is the authority granted
                                    to OIGs to have access to agency program data in carrying out their
                                    mission. Over the years, this authority has proven vital to thousands of
                                    audits and investigations. The OIG is concerned because legislation



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                                7
    Significant
     Concerns


                          being considered to provide uniform safeguards for the confidentiality of
                          information acquired for statistical purposes does not include language
                          which would ensure the OIG’s access to source data that is necessary
                          for audit validation and program integrity purposes. The OIG has very
                          serious concerns about the effects of this or any legislation that would
                          restrict our ability to obtain information critical to carrying out our
                          mission.

Need to Strengthen the Single Audit
Act to Ensure Grant Accountability

                          At DOL, financial and performance audit oversight is provided through
                          entity-wide audits required by the Single Audit Act (SAA) and grant
                          audits performed by the OIG. DOL funds covered by SAA audits in FY
                          1998 equaled $27 billion, or 87 percent of the $31 billion in total DOL
                          expenditures. While the SAA has contributed to improvements in
                          financial management practices at the state and local levels, it is not
                          without its weaknesses. The OIG is concerned that accountability of
                          grant funds is impacted by the fact that the SAA provides limited audit
                          coverage of DOL programs and that the scope of SAA audits does not
                          include performance data.

                          The extent of SAA audit coverage concerning DOL programs has been
                          of concern to my office for some time. We recently completed quality-
                          control reviews of five states and found that either inadequate audit
                          testing of DOL program clusters occurred, or that DOL programs were
                          simply excluded from being audited. It is our position that more
                          programs and transactions need to be tested to provide Congress and
                          the Administration with reliable information regarding grant
                          expenditures. Further, additional information should be reported,
                          including the number of transactions tested and questioned.

                          The second area of concern is the lack of performance data in the scope
                          of SAA audits. With the passage of the Government Performance and
                          Results Act (GPRA), Congress and the Administration are mandating
                          that programs be effective, have a positive impact, and produce a
                          positive return on the taxpayers’ investment. A large amount of DOL
                          grant funds is directed to employment and training activities. In order to
                          determine the effectiveness of these activities, the Department needs
                          to have accurate and reliable program data so that performance can be
                          evaluated.


                                                                       Semiannual Report to the Congress
8                                                                        April 1, 1999–September 30, 1999
                                                                                       Significant
                                                                                        Concerns


                                    To improve financial and performance accountability of grant funds, the
                                    OIG recommends that the SAA be amended to require more testing to
                                    ensure greater audit coverage and to incorporate a requirement that
                                    performance data likewise be audited.

Inadequate Audits and Abuses by
Investment Managers May Affect
Security of Pension Assets

                                    The security of pension assets is a priority of the Department and of the
                                    OIG. This includes ensuring that weaknesses, vulnerabilities, and
                                    criminal activity are identified and addressed. The following are two
                                    areas that continue to be of concern to the OIG.

                                       •   Pension Plan Audits:
                                           The Pension and Welfare Benefits Administration (PWBA)
                                           carries out activities aimed at protecting six million private-sector
                                           benefit plans controlling more than $3.5 trillion in pension plan
                                           assets. For the past several years, through audits and our
                                           Semiannual Reports, the OIG has raised a concern regarding
                                           the way pension plans are audited under the Employee
                                           Retirement Income Security Act (ERISA). Specifically, ERISA
                                           exempts from audit coverage all pension plan assets that have
                                           been invested in institutions (such as savings and loans, banks,
                                           and insurance companies) that are already regulated by Federal
                                           or state governments. Because of this scope limitation,
                                           independent public accountants (IPAs) conducting audits of
                                           pension plans cannot render an opinion on the plans’ financial
                                           statements in accordance with professional auditing standards.
                                           Nearly half of pension plan audits receive a disclaimer of opinion
                                           as a result of the limited-scope exemption, which we believe
                                           should be repealed. The OIG has also recommended that IPAs
                                           and plan administrators be required to report serious ERISA
                                           violations directly to the Department to enhance oversight of plan
                                           assets.

                                       •   Abuses by Pension Plan Service Providers:
                                           Private pension plans serve as an attractive target to organized
                                           crime elements, corrupt pension plan officials, and individuals



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                              9
     Significant
      Concerns




                                 who influence the investment activity of the pension assets.
                                 Recently, labor racketeering investigations involving the
                                 investment of pension plan monies that are jointly administered
                                 by labor union representatives and management representa-
                                 tives (Taft-Hartley plans) have elevated the OIG’s concern over
                                 the security of the assets in this segment of the pension plan
                                 universe.

                          The OIG’s investigations have uncovered many criminal enterprises
                          perpetrated by financial and investment service providers to the
                          nation’s pension plans. These investigations have revealed abuses by
                          sophisticated investment advisors and pension plan administrators who
                          have the opportunity and ability to structure complex financial schemes
                          to conceal their criminal activity. The OIG is concerned that abuses by
                          financial investment service providers can result in great dollar losses
                          because they typically provide investment or financial advice to more
                          than one plan. Based on recent investigative results and the fact that
                          service providers typically control the investment of hundreds of millions
                          of dollars of pension monies, we are concerned that this aspect of the
                          pension arena is especially vulnerable to organized crime activity and
                          abuse.

Continued Proliferation of Fraud
Schemes Threaten the Integrity of the
Unemployment Insurance Program

                          As with any multi-billion dollar Federal benefit payment program, there
                          are those who benefit from the unemployment insurance (UI) program
                          illegally. Traditionally, states have concentrated on investigative work
                          involving single claimant fraud cases, rather than the more complex
                          interstate schemes. This is because many states do not have the
                          enforcement capability, and in some cases, jurisdiction, to effectively
                          detect and investigate the more complex fraud schemes. In addition,
                          because of the large number of single-claimant cases, some states
                          elect to direct their investigative resources into this area. The lack of




                                                                       Semiannual Report to the Congress
10                                                                       April 1, 1999–September 30, 1999
                                                                                      Significant
                                                                                       Concerns




                                    focus on the more complex fraud schemes may increase a state’s
                                    vulnerability to fraud involving fictitious/fraudulent employer schemes,
                                    internal embezzlements, and other expansive fraud schemes.

                                    In addition, a number of systemic weaknesses pose problems for the UI
                                    system. These include:

                                       •   loss of contributions due to the inability of states to search for
                                           hidden wages by employers who misclassify workers as
                                           independent contractors;

                                       •   potential vulnerability due to the diverse telephone initial-claims
                                           systems being used by a number of states;

                                       •   loss of contributions due to the inability of states to audit large
                                           interstate companies;

                                       •   “shell” leasing companies, which circumvent the payment of UI
                                           contributions;

                                       •   the selection process states use to audit employers; and

                                       •   the structural integrity in the reporting system of UI data from the
                                           states to the UI system.

                                    Through oversight of the UI program, we have identified a number of
                                    schemes used to defraud the program, including fraudulent employer
                                    schemes, internal embezzlement schemes, and the fraudulent
                                    collection of UI benefits by illegal aliens using counterfeit or unissued
                                    Social Security numbers. These investigations have identified schemes
                                    that have resulted in substantial losses to the UI Trust Fund. The OIG is
                                    very concerned about the continued proliferation of these types of
                                    schemes. We believe there is a need for increased training of state
                                    employees in fraud detection techniques, improved internal program
                                    controls, and improved enforcement.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                            11
Selected
Statistics




Office of Audit
     Reports Issued on DOL Activities ......................................................................................... 50
     Total Questioned Costs ....................................................................................... $56.0 million
     Dollars Resolved .................................................................................................. $17.3 million
     Allowed .................................................................................................................. $1.6 million
     Disallowed ............................................................................................................ $15.7 million
     Recommendations That Funds Be Put to Better Use ............................................ $6.4 million




Office of Investigations
     Cases Opened .................................................................................................................... 238
     Cases Closed ..................................................................................................................... 236
     Cases Referred for Prosecution ......................................................................................... 129
     Cases Referred for Administrative/Civil Action ..................................................................... 23
     Indictments ......................................................................................................................... 112
     Convictions ......................................................................................................................... 144
     Debarments .......................................................................................................................... 39
     Recoveries, Cost Efficiencies, Restitutions, Fines/Penalties,
          Forfeitures, and Civil Monetary Action .......................................................... $18,614,343




NOTE: The Office of Investigations conducts criminal investigations of individuals which can lead to prosecutions
(“convictions”) by criminal complaints, warrants, informations, indictments, or pre-trial diversion agreements. Successful
prosecutions may carry sentences such as fines, restitutions, forfeitures, or other monetary penalties. The Office of
Investigations’ financial accomplishments, which include administrative and civil actions, are further detailed and defined on
page 146 of this report.




                                                                                                               Semiannual Report to the Congress
12                                                                                                               April 1, 1999–September 30, 1999
    Enhancing
   Opportunities
   for Americas
     Workforce




A Prepared
 Workforce
The Department of Labor is committed to creating an environment where those new
to the labor force or those wishing to improve their potential are provided the
assistance and tools needed to achieve success in today’s job market. The key
priorities for this strategic goal are to provide opportunities for individuals to obtain
the skills necessary to succeed in the global economy, close the employment gap
for out-of-school youth, and increase long-term jobs for people as they move from
welfare to work.



In support of the Department’s goal, the OIG works to optimize the use of funds
appropriated for training and employment programs by enhancing program
performance and accountability. This includes providing oversight to ensure overall
efficiency and effectiveness of DOL’s Welfare-to-Work system in moving welfare
recipients away from public assistance and into training, jobs, and self-sufficiency.
                                                                                     A Prepared
                                                                                     Workforce
    Employment and Training Audits




Welfare-to-Work

                                    The Welfare-to-Work (WtW) program was authorized by the Balanced
                                    Budget Act of 1997 to move hard-to-employ welfare recipients into
                                    unsubsidized employment and economic self-sufficiency. The Act
                                    authorized $3 billion for WtW grants in fiscal years (FYs) 1998 and 1999.
                                    Of this amount, approximately 75 percent ($2.2 billion) has been
                                    distributed to the states as formula grants, and the remaining 25 percent
                                    ($711.5 million) has been awarded to selected Private Industry Councils
                                    (PICs), political subdivisions, or private entities through a competitive
                                    grant process. The Employment and Training Administration (ETA)
                                    administers the WtW program.


        Formula Grants


                                    State WtW formula grants must be passed on to Service Delivery Areas
                                    (SDAs), and the states must pledge one dollar of non-Federal funding to
                                    match every two dollars of Federal funding provided. At least half of this
                                    match must be in cash. The state WtW matching funds are in addition to
                                    the maintenance-of-effort funds that are required under Temporary
                                    Assistance for Needy Families (TANF) block grants. To receive WtW
                                    formula funds, a state is required to submit a plan to ETA, and ETA
                                    determines whether the plan meets established statutory requirements.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           15
     A Prepared
     Workforce
                                                  Employment and Training Audits




       The Implementation of the Welfare-to-Work
       Formula Grant is Proceeding Slowly

                             We performed an audit to determine the status of program implementation
                             for seven state WtW formula grantees. The seven states represented 48
                             percent of the $1 billion in formula grant funds awarded for FY 1998.

                             All but one of the seven states we visited were slow in implementing their
                             WtW program because of factors that were either unforeseen or not
                             considered when the states developed their WtW service and outcome
                             levels and spending estimates. Specifically, we found the following:

                                 •   The WtW program and administrative requirements mandated by
                                     the authorizing legislation were viewed as restrictive by WtW
                                     grantees. This caused WtW grantees difficulties in identifying
                                     eligible clients; arranging necessary matching funds; and
                                     developing financial reporting systems capable of tracking
                                     expenditures by client populations, cost categories, and program
                                     activities.

                                 •   At the same time, as grantees were struggling with the perceived
                                     challenges of the WtW requirements, sufficient funding under the
                                     less-restrictive TANF program was available to serve the client
                                     population targeted by WtW. As a result, local service providers
                                     with access to the less-restrictive TANF funds opted to spend
                                     those funds first.

                                 •   Launching WtW, a major new Federal program, required that state
                                     and local plans be developed and approved, service provider
                                     procurement actions be completed, and coordination arrange-
                                     ments with other agencies finalized. Moreover, the entities
                                     responsible for WtW are also responsible for implementing the
                                     Workforce Investment Act (WIA), which will make sweeping
                                     reforms to the nation’s workforce development system.

                             If these states continue at the current pace, the WtW formula grant funds
                             will not be spent within the mandated three-year period, potentially limiting
                             the number of individuals who can obtain the assistance needed to move
                             from welfare into employment.




                                                                         Semiannual Report to the Congress
16                                                                        April 1, 1999–September 30, 1999
                                                                                       A Prepared
                                                                                       Workforce
    Employment and Training Audits




                                    To accelerate the progress in implementing the WtW formula grant
                                    program, we recommended that ETA:

                                       •    seek legislative changes to permit the Secretary to amend the
                                            length of time the states have to spend the WtW formula grant
                                            funds;

                                       •    work with the U.S. Department of Health and Human Services
                                            (DHHS) Administration for Children and Families to develop a
                                            strategy that effectively integrates TANF and WtW so that all
                                            funding sources are used to provide workforce investment
                                            services to eligible recipients;

                                       •    continue to pursue the legislative changes currently being
                                            proposed to simplify and expand the definition of eligible recipients
                                            to more accurately reflect characteristics of hard-to-employ
                                            recipients, and streamline and simplify financial reporting
                                            requirements;

                                       •    explore, with states not reviewed as part of this audit, whether the
                                            matching requirement is an issue that affects their implementation
                                            of the WtW formula grant program and seek appropriate
                                            legislative changes if needed; and

                                        •   continue to take an active role in assisting states and local
                                            agencies that are having problems implementing their WtW
                                            programs and provide the necessary technical assistance to help
                                            them address barriers that may be impeding their progress in
                                            getting the program fully operational.

                                    The Assistant Secretary for Employment and Training acknowledged
                                    that the agency’s comments had been incorporated into the report and no
                                    additional comments were provided. (OA Report No. 03-99-018-03-
                                    386, issued September 20, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                              17
     A Prepared
     Workforce
                                                 Employment and Training Audits




       Competitive Grants


                             The WtW competitive grants are designed to develop and implement
                             creative and innovative approaches to enhance a community’s ability to
                             achieve WtW program goals. At least 70 percent of WtW funds must be
                             spent on hard-to-employ individuals, with the remainder on individuals
                             with characteristics of long-term welfare dependency. WtW competitive
                             grant funds must be spent within the grant period, which may not exceed
                             three years. Three rounds of competitive grant awards have been planned,
                             two of which have been executed. The first round of competitive grants,
                             totaling $199 million, was awarded to 51 applicants in May 1998. In
                             December 1998, the second round of grants, totaling $273 million, was
                             awarded to 75 applicants. The average grant period for the 51 first-round
                             grantees was 30 months.


       The Welfare-to-Work Competitive Grant
       Program Needs Additional Policy and
       Technical Assistance Guidance

                             During the last semiannual reporting period, we reported on 35 first-round
                             WtW grantees. In this reporting period, we surveyed 12 additional WtW
                             grantees. Overall, we found that although the 12 grantees possessed the
                             capability to adequately deliver their WtW competitive grant programs,
                             financial and program vulnerabilities existed. The vulnerabilities we found
                             mirrored the financial management policy and procedures vulnerabilities
                             found in the 35 grantees surveyed during the first round of competitive
                             grants. In both cases, our post-award visits to mainly nontraditional DOL
                             grantees were made shortly after their grant awards and before they
                             initiated substantive actions to establish an infrastructure for grant
                             operations. For instance, in the first-round surveys, we reported that only
                             17 of 35 grantees (49 percent) were operational at the time of our review.
                             Likewise, our survey of second-round grantees found only 5 of 12
                             grantees (42 percent) were operational.




                                                                       Semiannual Report to the Congress
18                                                                      April 1, 1999–September 30, 1999
                                                                                                                     A Prepared
                                                                                                                     Workforce
    Employment and Training Audits




                                                    In both rounds, our work alerted the grantees and ETA to the risks
                                                    associated with impaired operational systems. The chart labeled “Finding 1”
                                                    compares the findings of the second-round survey with identical findings
                                                    from the first round. The recommendations in our first report (OA Report
                                                    No. 05-99-008-03-386) responded to these findings, so we did not repeat
                                                    the recommendations in this report. Findings 2 through 4 were only
                                                    identified in this audit and therefore only reflect the percentage of the 12
                                                    second-round grantees related to each finding.

                                                                                       Finding 1

                                                                     Inadequate
                                          Inadequate                   Internal       Lack of                                      Grants Need to
                                            Internal   Inadequate     Controls        Formal           Lack of          Lack of     Comply with
                                            Controls  Management         Over       Agreements         Formal           Written    Work First and
                                           Over Cost  Information     Financial      with TANF        Eligibility     Policies and     FLSA
                     Grantee              Limitations    Systems      Reporting      Agencies        Procedures       Procedures Requirements
             Total Second-Round
                                               8             4           5                   5            6                9             3
             Grantees Per Finding
             Percent of 12 Second-
                                              67%           33%         42%             42%              50%              75%           25%
             Round Grantees
             Total First-Round
                                              22            11          16               14               12              27             6
             Grantees Per Finding
             Percent of 35 First-
                                              63%           31%         46%             40%              34%              77%           17%
             Round Grantees




                              Financial Management                     Policies and Procedures                    Programmatic Compliance
                                        Finding 2                                Finding 3                               Finding 4
                                                                                                        Grants                Start-up
                                                                                                       Include               Activities to
                              Cash                          Lack of Formal   Lack of                  Evaluation            Provide Child
                  Cost    Management              Reporting Agreements       Written                   Studies    Other       Care and
               Allocation  Issues and Inadequate Program         with       Oversight                 Which May   Grant    Transportation
               Plans for  Other Fiscal Time and    Costs    Subrecipients      and                    Not Be An Provisions Services Are
              Multifunded   Integrity  Attendance without a  and Service   Monitoring                 Allowable Need to Be    Not Fully
               Grantees     Concerns    Systems    Basis      Providers    Procedures                  Activity  Modified    Developed
                    8               7                5           7           4                   3            3            7             2

                   67%              58%             42%       58%        33%                 25%          25%             58%          17%




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                                                              19
     A Prepared
     Workforce
                                       Employment and Training Audits




                  As a result of our findings, we believe that ETA should reinforce its efforts
                  to monitor grantee plans and program implementation schedules to
                  ensure the most efficient and effective use of WtW funds and to secure
                  compliance with program requirements. Third-round competitive
                  grantees should benefit from the lessons learned by grantees in rounds
                  one and two.

                  To improve the administration of the WtW competitive grants, we
                  recommended that the Assistant Secretary for Employment and Training
                  ensure that grantees:

                      •   obtain approval of cost allocation plans to allocate common costs
                          and expenditures to the 70/30 percent cost categories, as well as
                          to reportable program activities;

                      •   follow prescribed cash management requirements;

                      •   comply with time and attendance requirements in the Office of
                          Management and Budget circulars;

                      •   report expenditure allocations only after establishing a proper
                          basis for the allocation;

                      •   develop formal agreements with subrecipients and service
                          providers, and establish written oversight and monitoring
                          procedures to ensure effective and efficient program operations;

                      •   submit requests for grant modification to ensure up-to-date and
                          accurate implementation schedules, budget summaries, and
                          other provisions, including the removal of unallowable evaluation
                          studies;

                      •   comply with prohibitions against using Federal funds for
                          construction; and

                      •   establish timely implementation of child care and transportation
                          services to ensure that current WtW grant participants benefit
                          from these services.




                                                              Semiannual Report to the Congress
20                                                             April 1, 1999–September 30, 1999
                                                                                     A Prepared
                                                                                     Workforce
    Employment and Training Audits




                                    The Assistant Secretary for Employment and Training agreed with our
                                    findings, which were reinforced by issues identified during ETA’s
                                    interactions with the grantees. The Assistant Secretary also provided an
                                    update on some of the technical assistance efforts being undertaken
                                    partly in response to issues identified during our post-award surveys. The
                                    efforts included issuing policy guidance and corrective actions for new
                                    issues, reemphasizing compliance with current policies, following up on
                                    specific issues to ensure corrective actions, and developing a technical
                                    assistance guide that is serving as the basis for WtW financial
                                    management training that ETA is providing in four locations across the
                                    country.

                                    We concur with the agency’s ongoing and planned corrective actions.
                                    (OA Report No. 05-99-020-03-386, issued September 20, 1999)

        Welfare-to-Work Competitive Grant
        Implementation is Proceeding Slowly

                                    We performed an audit to assess the status, as of March 31, 1999, of WtW
                                    implementation of first-round grantees. We examined 19 of the 51 grants
                                    awarded, totaling $84 million. The audit found that all grantees
                                    experienced delays in implementing their programs.

                                    Because the WtW competitive grant program was an entirely new
                                    concept, the organizations competing for the first round of competitive
                                    grant awards were asked to develop program plans without the benefit of
                                    prior experience. We found that many of the program plans included in the
                                    approved grant agreements lacked quarterly goals against which to
                                    measure performance. At the time of our audit of the 19 grantees:

                                       •   fifteen had quarterly plans for participants served, but only four
                                           were meeting the planned levels;

                                       •   eight had quarterly plans for participants placed in unsubsidized
                                           employment, though none were meeting the planned levels; and

                                       •   sixteen had quarterly plans for expenditures, and only one was
                                           meeting the planned level.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           21
     A Prepared
     Workforce
                                       Employment and Training Audits




                  Also, 13 of the 19 grantees (68 percent) stated that they were not getting
                  enough referrals of eligible individuals meeting the “hard-to-employ”
                  criteria. Ten of the 13 grantees stated that the eligibility criteria that
                  excluded individuals who have completed secondary school or earned a
                  certificate of general equivalency are too strict and eliminate a significant
                  number of hard-to-employ individuals from accessing services under the
                  70 percent provision.

                  However, nine grantees identified the following factors which contributed
                  to their early success:

                      •   Seven stressed the importance             of   establishing   strong
                          relationships with employers;

                      •   Six of the nine grantees took the initiative to develop strong
                          cooperative relationships or joint efforts with their local TANF
                          offices; and

                      •   Three of the grantees administered the WtW Competitive Grant,
                          WtW Formula Grant, and local TANF programs under one
                          organizational umbrella.

                  ETA stated that, where round-one grantees have shown little progress or
                  lack of operation, the Department and representatives from the Rutgers
                  University Center for Workforce Development made site visits. The visits
                  resulted in the grant modifications necessary to speed implementation
                  and in some instances the mutually agreed upon deobligation of a portion
                  of grant funds for use in funding round-three competitive grants. In
                  addition, the Department has been working with Congress to simplify the
                  WtW eligibility criteria mandated by the authorizing statute and to extend
                  the length of the program. This would significantly accelerate
                  expenditures and enrollments. (OA Report No. 03-99-017-03-386,
                  issued September 27, 1999)




                                                              Semiannual Report to the Congress
22                                                             April 1, 1999–September 30, 1999
                                                                                      A Prepared
                                                                                      Workforce
    Employment and Training Audits




Workforce Investment Act

                                    The Workforce Investment Act (WIA), which becomes effective on
                                    July 1, 2000, will supersede the Job Training Partnership Act (JTPA).
                                    The reformed system is intended to be customer-focused, to help
                                    Americans access the information through the high-quality services and
                                    tools they need to manage their careers, and to help U.S. companies
                                    find skilled workers. Several features of WIA, including establishment of
                                    One-Stop centers, designation of local areas, and certain program
                                    requirements will have an unknown impact on the administrative cost
                                    experience of program operators.


        WIA’s Administrative Cost Limitations May
        Affect Local Service Delivery

                                    In a collaborative effort, ETA and the Office of Inspector General (OIG)
                                    undertook a special project to survey selected JTPA grantees to assist
                                    ETA in finalizing the regulations governing administrative costs under the
                                    new WIA. In accordance with a memorandum of understanding between
                                    the two agencies, ETA provided the funding and overall direction for the
                                    project and the OIG engaged an independent accounting firm to apply
                                    agreed-upon procedures designed to meet the project objectives.

                                    The project was designed to evaluate the potential impact of WIA’s
                                    administrative cost provisions by reclassifying and restating JTPA
                                    program year (PY) 1997 costs using WIA regulatory definitions. The
                                    survey was carried out at 13 JTPA grantees, representing 10 Service
                                    Delivery Areas and 3 Indian and Native American (INA) grantees, which
                                    ETA selected from a pool of entities that volunteered for the special
                                    review.

                                    We found that applying the WIA definition of administration to JTPA costs
                                    had little effect on the percentage charged to administration. WIA requires




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                            23
     A Prepared
     Workforce
                                       Employment and Training Audits




                  that local areas operate within a 10 percent administrative cost limitation.
                  This represents a significant reduction from similar JTPA programs,
                  which are currently allowed to operate at 20 percent. Only two of the SDA
                  grantees and none of the INA grantees would have been in compliance
                  with the 10 percent administrative cost limitation. All of the grantees
                  believe that the 10 percent limitation is too prohibitive to operate the WIA
                  program.

                  Notwithstanding the unknown effect of WIA requirements on program
                  operators’ administrative costs, the survey found that:

                      •   only two of the SDAs, as currently configured and operating under
                          JTPA, would be in compliance with the WIA administrative cost
                          limitation (10 percent of allocation), even after the cost
                          classification requirements and definitions contained in the WIA
                          interim final rule were applied;

                      •   application of the WIA interim final rule cost classification
                          requirements and definitions had a negligible effect on the
                          classification of administrative versus program costs for the
                          surveyed entities;

                      •   for the majority of the surveyed entities, program officials stated
                          they intended to seek a waiver of the WIA statutory administrative
                          cost limitation; and

                      •   similarly, a majority stated they intended to change their mode of
                          operation in order to comply with the statutory cost limitation.

                  From the OIG’s perspective, these final two points raise concerns about
                  possible unintended consequences of the WIA administrative cost
                  limitation. First, ETA may find itself inundated with requests from local
                  areas for waivers of the statutory 10 percent limitation. Efforts to treat all
                  such requests equitably could potentially result in a majority of local areas
                  operating under waivers, in which case “the exception” (waivers) would
                  effectively become more common than “the rule” (the 10 percent limit).
                  Second, while none of the program officials in the survey indicated they
                  intended to change how they contract in order to comply with the
                  administrative cost limitation, the OIG believes there is a risk that the WIA
                  administrative funding and definitions may affect how local areas deliver
                  services.



                                                              Semiannual Report to the Congress
24                                                             April 1, 1999–September 30, 1999
                                                                                     A Prepared
                                                                                     Workforce
    Employment and Training Audits




                                    To assist ETA in developing the final rule on administrative costs, the
                                    independent accountants’ report detailed suggestions and comments
                                    made by grantee officials with respect to the WIA administrative cost
                                    limitations and definitions. (OA Report No. 20-99-006-03-390, issued
                                    September 24, 1999)

        Rhode Island’s One-Stop Career Center
        System is not WIA-Ready

                                    We conducted an audit of Rhode Island’s One-Stop Career Center
                                    system to provide ETA with a snapshot, as of April 23, 1999, showing
                                    where Rhode Island stands in implementing the provisions of WIA. The
                                    audit objective was to assess the status of Rhode Island’s One-Stop
                                    Career Center system relative to where it needs to be to meet WIA
                                    requirements, recognizing that the state has until July 1, 2000, to become
                                    fully compliant with WIA, and that interim final regulations became
                                    effective after fieldwork was performed.

                                    We concluded that, in accordance with WIA requirements, Rhode Island
                                    should have a One-Stop Career Center located in each local area and
                                    should provide accessible services at the One-Stop Centers. However,
                                    Rhode Island needs to ensure that it:

                                       •   includes all WIA-required programs in the One-Stop system;

                                       •   develops and executes comprehensive memoranda of
                                           understanding between the local boards and program partners;

                                       •   allocates a fair share of operating costs to all program
                                           partners; and

                                       •   collects all WIA-required data elements on all One-Stop
                                           customers

                                    The Director of the Rhode Island Department of Labor and Training
                                    generally concurred with our findings, acknowledging that changes need
                                    to be made in its existing systems to comply with WIA by July 1, 2000.
                                    (OA Report No. 02-99-209-03-320, issued September 15, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           25
     A Prepared
     Workforce
                                                 Employment and Training Audits




Adult Training

                             The Adult Training Program under JTPA Title II-A is formula-funded and
                             state-operated and provides training, related education, and employment
                             services to economically disadvantaged adults. Training and supportive
                             services are designed to provide these individuals with marketable skills
                             leading to productive, lasting, and unsubsidized employment.


       Coordinated Effort Addresses the Northern
       Rhode Island Private Industry Council’s
       Insolvency

                             In a coordinated effort, ETA and OIG worked with the State of Rhode
                             Island to address the insolvency of the Northern Rhode Island Private
                             Industry Council (NRIPIC). NRIPIC, which served as the administrative
                             entity for the Northern Rhode Island Service Delivery Area as well as the
                             Private Industry Council, ceased operations during April 1999 because
                             it exhausted all of its JTPA PY 1998 funds and a $200,000 credit line. It
                             had an estimated operating deficit between $500,000 and $700,000.
                             Single audits for fiscal years ending June 30, 1997 and 1998 did not
                             contain any cash management findings or indications of impending
                             insolvency and had clean opinions on NRIPIC’s financial statements.

                             ETA and OIG met with State officials to ensure that immediate corrective
                             actions were taken to address essential program and accountability
                             issues. We provided guidance on uninterrupted services to participants;
                             safeguarding of property, equipment, and records; liability for debt and
                             potential questioned costs; and the need for reauditing prior years. We
                             also reviewed single audit working papers for FYs 1997 and 1998 and
                             found that the external auditors performed minimal testing, did not confirm
                             accounts receivable with third parties, or ascertain the reasonableness
                             of account balances.




                                                                       Semiannual Report to the Congress
26                                                                      April 1, 1999–September 30, 1999
                                                                                     A Prepared
                                                                                     Workforce
    Employment and Training Audits




                                    As a result of ETA’s and OIG’s efforts to restore accountability and
                                    prevent cutbacks in service to participants, JTPA funds of more than $4.3
                                    million per year earmarked for Northern Rhode Island will be put to better
                                    use. The Governor took actions to protect the integrity of JTPA funds,
                                    safeguard job training programs in Northern Rhode Island, and decertify
                                    NRIPIC. The Rhode Island Auditor General also took custody of
                                    NRIPIC’s records, reaudited FY 1998, and extended audit coverage to
                                    the date when NRIPIC ceased operations in FY 1999. (OA Report No.
                                    02-99-211-03-340, issued August 3, 1999)

        The Atlanta Private Industry Council Needs
        to Observe Contracting Requirements and
        Improve Its Monitoring

                                    We audited the Atlanta Private Industry Council’s (PIC’s) JTPA program
                                    expenditures. Our examination focused on selected JTPA Title II-A
                                    contracts awarded to vendors to provide participants training, placement,
                                    and other services during PY 1996. We found many JTPA requirements
                                    either were not followed or were misapplied, and we questioned $543,117
                                    in grant expenditures.

                                    Poor planning contributed to a hasty selection of contractors, several of
                                    whom were not competitively procured. Often the PIC did not determine
                                    the contractors’ capabilities to deliver services or complete adequate
                                    price or cost analysis, or consider the contractors’ past records of
                                    success prior to awarding the contracts. We also found fixed-unit-price
                                    contracts were improperly negotiated, as were some training contracts
                                    that were improperly awarded as commercially available training
                                    packages.

                                    Many aspects of the PIC’s monitoring, including its own and contractors’
                                    activities, also require improvement. Although the PIC established a
                                    monitoring plan and developed adequate guidance for its staff, the plan
                                    was not completed, and established procedures were not followed. As a
                                    consequence, we identified a variety of financial problems with both the
                                    PIC and its contractors’ financial activities, including funds advanced to
                                    contractors that had not been recovered, expenditures charged to the
                                    wrong JTPA grant, and unsupported contractors’ costs billed to the JTPA
                                    program.



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           27
     A Prepared
     Workforce
                                                  Employment and Training Audits




                              The PIC’s contracts needed to be better written, as many we reviewed did
                              not contain sufficient requirements to monitor the contractors’
                              effectiveness or ensure that participants were well served. Missing were
                              criteria that identified prerequisite knowledge participants should
                              possess to benefit from training and criteria for testing participants to
                              determine what they had learned. Even when sufficient requirements
                              were included in the contracts, they were not followed.

                              Also, in several instances, the contractors’ records were partially or
                              wholly missing. Finally, we identified several instances of abuse, such as
                              contractors’ claims that they had placed participants in jobs that our
                              contacts with employers indicated had not occurred. We believe better
                              monitoring by the PIC should have detected such situations.

                              To help strengthen the PIC’s management of its contract procurement
                              and monitoring processes, we recommended the PIC observe existing
                              procurement and contracting requirements and improve its monitoring.
                              We also recommended that the Assistant Secretary for Employment and
                              Training recover $543,117 in misspent JTPA funds.

                              In its comments to our draft report, the PIC disagreed with several of our
                              findings and provided additional documentation we considered in
                              completing this report. The PIC’s response did not include information
                              that caused us to change our findings or recommendations. (OA Report
                              No. 04-99-007-03-340, issued September 7, 1999)

       Follow-up Results Also Show That
       Participants Receiving Occupational Training
       Have Higher Earnings

                              We completed a follow-up review to OA Report No. 06-98-002-03-340,
                              “Profiling JTPA Title II-A’s Aid to Families with Dependent Children
                              (AFDC) Participants,” issued May 4, 1998. The May 4, 1998, report
                              focused on evaluating services provided and outcomes reported for
                              AFDC recipients who terminated from the JTPA program between July
                              1, 1995, and June 30, 1996, and focused on the first 12 months of earnings
                              after termination. In general, we found that participants who received
                              JTPA-funded occupational skills training did better in relation to earnings




                                                                        Semiannual Report to the Congress
28                                                                       April 1, 1999–September 30, 1999
                                                                                       A Prepared
                                                                                       Workforce
    Employment and Training Audits




                                    capacity and attachment to the labor market than those with non-
                                    occupational training or those who received no training.

                                    In this follow-up report, we presented the changes in the participants’
                                    earnings capacity and their attachment to the labor market from 13 to 24
                                    months (second year) after program termination.

                                    This follow-up report’s conclusion is the same as our initial report, in that
                                    the second year after termination, participants who received
                                    occupational training continued to have higher earnings and a stronger
                                    attachment to the labor market than those who received nonoccupational
                                    training or objective assessment only. However, there were decreases
                                    in all three groups’ earnings and attachment to the labor market in the
                                    second year after termination, and the earnings gap between participants
                                    who received occupational skills training and those who received only
                                    objective assessment decreased in the second year. (OA Report No.
                                    06-99-011-03-340, issued September 24, 1999)

        Questioned Costs and Internal Control
        Weaknesses in the New Mexico Service
        Delivery Area JTPA Program

                                    We conducted a financial and compliance audit of JTPA subgrants
                                    administered by the New Mexico Service Delivery Area (NMSDA) Job
                                    Training Division for PYs 1995 and 1996 (July 1, 1995, through June 30,
                                    1997) and identified $108,093 of questioned costs and $252,013 of
                                    questionable costs. We found weaknesses in the NMSDA’s internal
                                    control structure over reporting of Federal funds expended, primarily in
                                    the NMSDA’s inadequate time distribution process. Furthermore, we
                                    identified weaknesses in the NMSDA’s service provider procurement
                                    system and oversight of service providers.

                                    In our opinion, the NMSDA’s financial management system failed to meet
                                    appropriate standards because of the following:

                                        •   The NMSDA’s PYs 1995 and 1996 financial reports exceed its
                                            official accounting records by $6,072 and $67,765, respectively.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                              29
     A Prepared
     Workforce
                                     Employment and Training Audits




                     •   The NMSDA allocated some JTPA costs to the wrong title and/or
                         program year, resulting in $4,552 in questionable costs.

                     •   The NMSDA used manual journal vouchers to shift vendor costs
                         among JTPA titles, some without adequate documentation to
                         support the adjustments. These adjustments include $41,937 of
                         questionable transfers.

                     •   The NMSDA allocated staff time charges between projects based
                         on estimated percentages of time rather than actual time worked.

                     •   The NMSDA used journal voucher adjustments to manipulate
                         employees’ salaries and related charges, sometimes to cover
                         deficits in Federal funds. We reviewed 15 vouchers that
                         transferred $237,037 of staff salary and related costs to another
                         JTPA title, to another cost category, or to both. These cost
                         transfers include $31,513 in questioned costs for transfers to
                         overcome fund deficiencies and $205,524 in questionable
                         transfers that were not adequately documented.

                  We also found that the NMSDA did not maintain adequate documentation
                  to support its service provider procurement process and continued to
                  renew contracts to the same service providers each year since the 1994
                  Request for Proposal (RFP) without determining if the service providers
                  met all of the RFP’s conditions.

                  Finally, we identified financial system deficiencies at two service
                  providers, including questioned costs of $2,743 at one for an adjustment
                  (increase) to direct training expenditures that was not adequately
                  documented and fringe benefit costs based on budgeted amounts rather
                  than actual allocable expenses.

                  We recommended that the Assistant Secretary for Employment and
                  Training disallow $108,093, broken down as follows:

                     •   $73,837 (PY 1995, $6,072; PY 1996, $67,765) for reported
                         expenditures not supported by the official accounting records;

                     •   $31,513 for expenditures that were transferred to Title III due to
                         deficiencies in Title II-A funds— both in PYs 1995 and 1996; and




                                                           Semiannual Report to the Congress
30                                                          April 1, 1999–September 30, 1999
                                                                                     A Prepared
                                                                                     Workforce
    Employment and Training Audits




                                       •   $2,743 for Santa Fe SER’s unsupported adjustment and
                                           unallowable fringe benefit costs.

                                    We also recommended that the Assistant Secretary disallow $252,013
                                    for costs either improperly charged to the wrong PY or JTPA title, or
                                    transferred between JTPA titles and/or cost categories without adequate
                                    documentation or justification.

                                    Furthermore, we recommended that the Assistant Secretary direct the
                                    State to develop and implement formal internal policies and procedures
                                    to strengthen its internal controls and time-charging system to comply
                                    with OMB Circular No. A-87.

                                    The NMSDA agreed that its administrative policies and procedures were
                                    deficient in the areas identified in the report during the audit period,
                                    particularly in the area of documentation to support journal vouchers, and
                                    that those deficiencies contributed to some costs being questioned. The
                                    NMSDA indicated it had recognized and addressed all reported
                                    deficiencies. The NMSDA also agreed that $8,866 was incurred in
                                    noncompliance with the regulations but contested the findings
                                    concerning the remaining $351,240 of questioned and questionable
                                    costs. (OA Report No. 06-99-008-03-340, issued September 22,
                                    1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           31
     A Prepared
     Workforce
                                                Employment and Training Audits




Native American Programs

                             This program is designed to improve the economic well-being of Native
                             Americans by providing training, work experience, and opportunities
                             designed to aid the participants in securing permanent, unsubsidized
                             jobs. DOL allocates formula grants to Native American groups whose
                             eligibility for such grants is established in accordance with DOL
                             regulations.


       Phoenix Indian Center Financial Systems
       Need Significant Improvement

                             We conducted an audit of the Phoenix Indian Center, Inc. (PIC) for PY
                             1995. The scope of our audit was expanded to subsequent time periods
                             where we noted problems continuing past the end of PY 1995.

                             Overall, we concluded the PIC is properly administering ETA’s grant, and
                             program statistics reported to DOL were accurate and properly
                             supported. However, the financial systems used to report expenditures
                             to ETA needed significant improvements to accurately reflect the
                             expenditures allowable in accordance with the grant provisions and
                             regulations. We questioned costs of $183,809, which includes $2,800
                             that may be due to the PIC as unreported costs. Our audit found:

                                •   excessive funds were drawn and used to pay non-JTPA program
                                    expenses;

                                •   financial statements were misstated;

                                •   single audits were delinquent; and

                                •   program statistics were misreported on the annual status report.




                                                                      Semiannual Report to the Congress
32                                                                     April 1, 1999–September 30, 1999
                                                                                       A Prepared
                                                                                       Workforce
    Employment and Training Audits




                                    We recommended that the Assistant Secretary for Employment and
                                    Training disallow $183,809 of grant costs and require the PIC to make
                                    procedural improvements to improve financial and program systems.
                                    The PIC disagreed with many of our findings. Based on the PIC’s
                                    response, we revised one recommendation regarding advance of funds
                                    and revised our questioned cost for PY 1995. However, our basic
                                    conclusions and recommendations for improvements remain un-
                                    changed. (OA Report No. 09-99-008-03-355, issued September 24,
                                    1999)

        $352,693 of Milwaukee Area American Indian
        Manpower Council Grants Expenditures
        Questioned

                                    The Milwaukee Area American Indian Manpower Council, Inc. (MAAIMC)
                                    was established by members of the Milwaukee American Indian
                                    community to address the education and training needs of the Indian
                                    community of southeastern Wisconsin. The MAAIMC provides job
                                    training and employment services to the unemployed American Indian
                                    workforce under Title IV-A of JTPA. The MAAIMC is the administrative
                                    agency for the Spotted Eagle High School. The MAAIMC created the
                                    Spotted Eagle–Menominee Tribal School School-to-Work (StW)
                                    consortium to develop a five-year business and economic development
                                    plan. The initial objective was to involve 7th to 12th grade students in StW
                                    activities.

                                    We performed an incurred cost audit of the $508,612 that MAAIMC
                                    claimed for the period of July 1, 1996, through June 30, 1998, under its
                                    JTPA and StW grants. We identified instances of noncompliance with
                                    OMB Circulars A-110 and A-122 and the Grant Agreements, which
                                    resulted in questioned costs of $352,693. We found certain costs claimed
                                    by the MAAIMC were:

                                       •   in excess of actual incurred costs;

                                       •   based on predetermined percentages; and

                                       •   not supported by source documentation and/or not allowable.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                             33
     A Prepared
     Workforce
                                      Employment and Training Audits




                  We also found that the financial management system used by MAAIMC
                  to account for the JTPA and StW grants did not comply with OMB
                  Circulars A-110 and A-122. We found that:

                     •   the amounts reported on the MAAIMC PYs 1996 and 1997
                         financial reports submitted under the JTPA and StW grants
                         exceeded the amount reported on its official accounting records;

                     •   the reported personnel costs were based on the use of
                         predetermined percentages in lieu of after-the-fact determination
                         of the actual activities of each employee; and

                     •   the MAAIMC was unable to provide adequate documentation for
                         certain transactions.

                  Finally, we found that MAAIMC elected not to use the approved indirect
                  cost rate. Instead, MAAIMC used a direct allocation method to recover
                  joint costs. However, the direct cost methodology was deemed flawed
                  because MAAIMC efforts resulted in some costs being incorrectly
                  charged to the JTPA and StW grants.

                  We recommended that the Grant Officer recover the $352,693 of grant
                  costs and require the MAAIMC to make procedural improvements to
                  strengthen the financial management system and to charge indirect costs
                  to the JTPA and StW grants in accordance with the Indirect Cost Rate
                  Negotiation Agreement. MAAIMC generally agreed with our findings that
                  the financial management systems needed improvement. However,
                  MAAIMC disagreed with the amount questioned because MAAIMC
                  believes that it provided the services stipulated in the respective grants.
                  (OA Report No. 05-99-009-50-598, issued September 16, 1999)




                                                            Semiannual Report to the Congress
34                                                           April 1, 1999–September 30, 1999
                                                                                         A Prepared
                                                                                         Workforce
    Employment and Training Audits




Senior Community Service
Employment Program

                                    This program provides grants to public and private nonprofit national-
                                    level organizations and states. These grants subsidize part-time work
                                    opportunities in community service activities for unemployed low-income
                                    persons aged 55 and older. Program participants generally work 20–25
                                    hours per week in a wide variety of locations and activities, such as day
                                    care centers, schools, hospitals, senior citizen centers, facilities for people
                                    with disabilities, nutrition programs, and conservation or restoration
                                    projects.


        $2.8 Million in Costs Questioned and an
        Additional $900,000 in Cost Avoidances
        Identified in the National Council of Senior
        Citizens Program

                                    We audited the costs that the National Council of Senior Citizens
                                    (NCSC)/National Senior Citizens Education & Research Center, Inc.
                                    (NSCERC) claimed for reimbursement under its Senior Community
                                    Service Employment Program (SCSEP) grants for FY 1996. NCSC/
                                    NSCERC, as one of the national sponsors under the SCSEP, receives
                                    annual grants of over $60 million from DOL to fund approximately 9,000
                                    subsidized part-time employment and training positions. NCSC/
                                    NSCERC enters into agreements with local government agencies and
                                    not-for-profit organizations who recruit and enroll eligible low-income
                                    elderly individuals and place them in subsidized positions at local
                                    government offices or not-for-profit organizations.

                                    We questioned $2.8 million of the costs NCSC/NSCERC claimed for
                                    reimbursement in FY 1996, including $1.1 million in indirect costs. We
                                    also identified several areas in NCSC/NSCERC’s administration of




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                                35
     A Prepared
     Workforce
                                      Employment and Training Audits




                  SCSEP where costs of about $900,000 could be avoided without
                  adversely affecting program operations.

                  Many of the findings in this report were repeat findings of those contained
                  in a prior audit (OA Report No. 18-99-006-07-735) in which we
                  questioned over $6 million. The ETA Grant Officer, in the Revised Initial
                  Determination dated July 27, 1999, agreed with our questioned costs
                  from this prior audit.

                  The major items of questioned direct costs in the current report are as
                  follows:

                     •   Insurance Plan Refunds:
                         NCSC/NSCERC provided its senior aides with Hospital
                         Indemnity Plan (HIP) insurance. The entire premium was charged
                         to the DOL grant. At the end of each year, the plan underwriter
                         advises NCSC/NSCERC of any refund due. For FY 1996,
                         NCSC/NSCERC had a “favorable claims experience,” and
                         earned a substantial premium refund. However, NCSC/
                         NSCERC failed to credit this refund to the DOL grant ($948,983).

                     •   Insurance Plan Administrative Fees:
                         NCSC/NSCERC performed certain administrative functions for
                         HIP. To compensate NCSC/NSCERC for its costs, the
                         underwriter paid NCSC/NSCERC a percentage of earned
                         premiums, which NCSC/NSCERC shared with the intermediary
                         of the plan. However, NCSC/NSCERC credited the amount it
                         received ($101,207) to its membership promotion income
                         account rather than applying the amount as an offset credit to the
                         DOL grant. In addition, we believe NCSC/NSCERC received an
                         insufficient share of this fee ($143,377).

                     •   Liability Insurance:
                         NCSC/NSCERC purchased general liability insurance from an
                         insurance company with which it shares management and
                         executive personnel. In soliciting price quotations from
                         prospective companies, NCSC/NSCERC failed to follow
                         prescribed competitive procurement procedures. These
                         premiums greatly exceeded the premiums paid by other national
                         sponsors with comparable insurance ($237,532).



                                                            Semiannual Report to the Congress
36                                                           April 1, 1999–September 30, 1999
                                                                                  A Prepared
                                                                                  Workforce
    Employment and Training Audits




                                       •   Pension Plan:
                                           NCSC/NSCERC made year-end cost adjustments to reduce
                                           excessive pension plan costs charged to various programs.
                                           However, NCSC/NSCERC failed to credit the DOL grant with its
                                           share of the excessive costs ($103,545).

                                       •   Fringe Benefits:
                                           NCSC/NSCERC charged employee fringe benefits to DOL
                                           based on estimates and not on actual costs. At the end of FY
                                           1996, the amounts charged exceeded actual fringe benefit costs
                                           ($108,872).

                                    NCSC/NSCERC disagreed with many of our findings. (OA Report No.
                                    18-99-011-03-360, issued September 24, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                      37
     A Prepared
     Workforce
                                                 Youth Program Audits




School-to-Work

                             The School-to-Work Opportunities Act of 1994 (STWOA) provides the
                             opportunity for states to establish School-to-Work (StW) systems using
                             Federal funding provided and administered jointly by the U.S.
                             Departments of Education and Labor. The STWOA was enacted to
                             provide seed capital to states and localities for developing and
                             implementing comprehensive StW systems. The purpose of these
                             systems is to bring together efforts on education reform, worker
                             preparation, and economic development to prepare youth for high-skill,
                             high-wage careers, and to increase their opportunities for further
                             education and training. The Federal government will have invested
                             approximately $2 billion in the creation of statewide StW systems by the
                             time the STWOA ends.


       States Work Toward Sustainable School-to-
       Work Systems

                             An OIG report summarized findings from four recent U.S. Departments
                             of Education and Labor audits that focused on sustainable state StW
                             systems. It also offered recommendations based on these findings and
                             discussions with the National School-to-Work Office (NSTWO). The
                             recommendations were intended to assist the NSTWO in helping states
                             develop sustainable StW systems after Federal program funding ceases.

                             Although some of the states that we audited were early in their five-year
                             StW Implementation Grants, we found that the states had taken
                             measures that would contribute to sustainable systems. We also found
                             areas in which the states could take action to increase the likelihood that
                             their StW systems will be sustained after Federal funding ceases.




                                                                       Semiannual Report to the Congress
38                                                                      April 1, 1999–September 30, 1999
                                                                                      A Prepared
                                                                                      Workforce
                     Youth Program Audits




                                    To assist the NSTWO in developing sustainable StW systems, we
                                    recommended the following measures:

                                       •   NSTWO should monitor and provide additional technical
                                           assistance to states to ensure that they are developing StW
                                           systems that will be sustainable after Federal funding ceases.
                                           Technical assistance should focus on system weaknesses.

                                       •   NSTWO should base continuation funding decisions on the
                                           progress states are making in fulfilling their StW plans. These
                                           funding decisions should take into special consideration the
                                           aspects of state plans that relate to the elements of sustainment.
                                           Continuation funds should be withheld until plan conditions are
                                           met.

                                    It should be noted that the states we reviewed, as well as all of the other
                                    states funded prior to 1998, applied on their own initiative and actively
                                    competed with other states to receive StW Implementation Grants.
                                    However, in September 1998, the remaining 13 states, the District of
                                    Columbia, and Puerto Rico were funded on a noncompetitive basis.
                                    Moreover, these entities were able to develop acceptable applications
                                    only with intensive encouragement and assistance by NSTWO staff. In
                                    our opinion, these late-funded states may need considerable special
                                    attention for them to have any hope of developing systems that will
                                    continue after the program ends on October 1, 2001. (OA Report No. 05-
                                    99-012-03-385, issued May 25, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                            39
     A Prepared
     Workforce
                                                  Youth Program Audits




Job Corps

                             Job Corps is a nationwide network of 114 residential facilities that provide
                             a comprehensive and intensive array of training, job placement, and
                             support services to at-risk youths and young adults. Participation in the
                             program is voluntary and is open to economically disadvantaged young
                             people ages 16–24 who are unemployed and out of school. The program’s
                             mission is to attract eligible young adults, teach them the skills they
                             need to become employable and independent, and place them in
                             meaningful jobs or further education.


       Complaints Against the Keystone Job Corps
       Center

                             In response to employee complaints filed with the Department and
                             members of Congress, we conducted a limited-scope audit at the
                             Keystone Job Corps Center (KJCC). The Management and Training
                             Corporation (MTC) operates the center through a contract with the Office
                             of Job Corps (OJC). The audit focused upon allegations reported to have
                             occurred between July 1, 1996, and June 30, 1998.

                             The complaint alleged that MTC:

                                •   violated Federal statutes and regulations by being involved in
                                    activities intended to deter union efforts to organize employees
                                    and by using other MTC employees as replacement workers for
                                    striking employees;

                                •   altered examinations and falsified academic records of KJCC’s
                                    students;

                                •   violated Job Corps policies on discipline by allowing students to
                                    remain at the KJCC who should have been immediately
                                    terminated;




                                                                        Semiannual Report to the Congress
40                                                                       April 1, 1999–September 30, 1999
                                                                                    A Prepared
                                                                                    Workforce
                     Youth Program Audits




                                       •   allowed dormitories to be improperly supervised, which resulted
                                           in unsafe conditions for the students; and

                                       •   retaliated and discriminated against union supporters.

                                    Our audit found the following:

                                       •   The MTC violated Federal regulations by using JTPA monies on
                                           activities that discouraged its employees from voting for union
                                           representation, and we questioned $1,611 in JTPA funds MTC
                                           spent on these activities. However, MTC’s use of staff from other
                                           Job Corps centers to replace striking workers was in the
                                           government’s interest and was an allowable JTPA expenditure.

                                       •   There was no evidence that students’ records were altered or
                                           falsified, or that GED attainments had been wrongfully enhanced.
                                           Consequently, we do not believe the allegation is founded.

                                       •   The Job Corps’ “zero tolerance” policy should have been applied
                                           in several instances, and the students should have been
                                           immediately terminated from the Job Corps program. However,
                                           KJCC’s actions do not appear to be part of a pattern of willfully
                                           ignoring Job Corps’ policies.

                                       •   Improvements were needed in supervising students housed in
                                           KJCC’s dormitories.

                                       •   Individual complaints of discrimination and retaliation had been
                                           properly addressed through Job Corps’ policies and procedures,
                                           through MTC’s grievance procedures, or through appropriate
                                           external agencies.

                                    We recommended that the Assistant Secretary for Employment and
                                    Training direct the Office of Job Corps to do the following:

                                       •   Recover $1,611 paid to MTC that was used to deter union
                                           activities. Job Corps should ensure that contractors are aware of
                                           JTPA’s provisions regarding union activities. In the future,
                                           contractors should be directed to separately identify and report
                                           extraordinary costs, such as strike-related expenditures, so that
                                           those costs may be monitored.



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                         41
     A Prepared
     Workforce
                                                 Youth Program Audits




                                •   Continue to monitor MTC’s activities to ensure the contractor
                                    complies with Job Corps’ policies on student discipline.

                                •   Ensure that MTC provides adequate staff to oversee activities in
                                    student dormitories. Job Corps should also evaluate the
                                    dormitories and determine if improvements in the facilities, such
                                    as remodeling the space or employing video monitoring, would
                                    help provide a safer environment.

                             In response to our draft audit report, MTC disagreed with some of our
                             conclusions. Regarding the issue of union organizing, MTC argued that
                             its meetings and the information distributed were informational and its
                             actions were within the provisions of both the National Labor Relations
                             Act and JTPA. MTC also disagreed with our assessment that more
                             attention should be devoted to compliance with Job Corps’ policies on
                             students’ behavior. Finally, MTC reported that new strategies regarding
                             the physical layout and staffing of dormitories were being discussed with
                             Job Corps. (OA Report No. 04-99-006-03-370, issued July 23, 1999)

       Job Corps Not Recovering All Debts Before
       Students Terminate

                             As part of our preliminary survey examining how the Job Corps collects
                             students’ loans and advances, the OIG found that in PY 1997, Job Corps
                             did not recover over $680,000 due from students prior to termination.
                             During this period, Job Corps paid over $2.5 million in termination
                             payments to more than 22,000 participants. Job Corps policy requires the
                             Centers to recover any student loans or advances from the readjustment
                             allowance that is paid upon termination. No recovery may be made from
                             student bonus payments or biweekly pay.

                             To improve ETA’s stewardship over government funds and to help
                             reinforce values of responsibility and accountability in the students, we
                             recommended that the Assistant Secretary for Employment and Training
                             require the Office of Job Corps (OJC) to make the following revisions in
                             Job Corps’ Policy and Requirements Handbook procedures:




                                                                      Semiannual Report to the Congress
42                                                                     April 1, 1999–September 30, 1999
                                                                                       A Prepared
                                                                                       Workforce
                     Youth Program Audits




                                       •   Require the use of all available types of offsets (biweekly payroll,
                                           bonuses, and readjustment allowances) to recover student loans
                                           or advances; and

                                       •   Establish the sequence of offsets to be utilized in collecting
                                           student loans or advances beginning with offsets to biweekly pay,
                                           bonuses, and readjustment allowances.

                                    We also recommended that the Assistant Secretary for Employment and
                                    Training ensure that OJC instructs its center operators to amend their
                                    student orientation handbooks to inform students that deductions for
                                    loans or advances will be made from biweekly pay and student bonuses,
                                    as well as from readjustment allowances.

                                    On March 16, 1999, we advised the Director of OJC on our preliminary
                                    findings and our plans to proceed with a full-scale audit. She said that she
                                    shared our concerns and indicated her desire to take immediate action
                                    without the need to perform an in-depth audit. She referred this matter to
                                    the Job Corps Pay and Allowances Workgroup, which met on March 17–
                                    18, 1999, to discuss revisions to these systems. The workgroup placed
                                    this issue on its agenda for consideration during the coming months. (OA
                                    Report No. 03-99-009-03-370, issued April 7, 1999)

        Over $1 Million Questioned at Talking Leaves
        Job Corps Center

                                    We conducted a financial and compliance audit of the Talking Leaves Job
                                    Corps Center (TLJCC) operated by the Cherokee Nation of Oklahoma for
                                    the last three years of their five-year contract, covering July 1, 1995,
                                    through June 30, 1998.

                                    We questioned $1,052,574 paid to the Nation for operating the TLJCC for
                                    the five-year contract period including the following:

                                       •   $1,014,321 for the recovery of indirect costs for services for
                                           which the Job Corps program was already paying directly or for
                                           services which did not benefit the Job Corps program.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                             43
     A Prepared
     Workforce
                                      Youth Program Audits




                     •   $10,733 in direct and indirect costs for duplicate payments
                         resulting from internal control weaknesses. These unallowable
                         costs have already been recovered through contractor-adjusted
                         expenditure reports.

                     •   $27,520 for missing inventory items. Because TLJCC did not
                         follow DOL property management procedures to safeguard and
                         account for TLJCC assets, 71 inventory items of equipment
                         selected from the Contract Management Property System
                         (CPMS) were missing; several items of furniture and equipment
                         purchased during the audit period could not be traced to the
                         CPMS or TLJCC’s inventory; and the CPMS inventory was
                         inaccurate, incomplete, and outdated.

                  We also determined that the TLJCC’s monthly and year-end expenditure
                  reports were not accurate or current. While we were able to reconcile
                  amounts recorded in the general ledger to the final total costs that TLJCC
                  reported for the three-year period ending June 30, 1998, monthly and
                  year-end expenditure reports were often late and contained material
                  errors and inconsistencies that prevented their use as effective
                  management tools. We could not reconcile the PY 1997 financial reports
                  until April 1999, almost 10 months after the contract terminated, when
                  TLJCC submitted its final cost report for June 1998.

                  Finally, TLJCC’s financial management system for controlling and
                  reporting Job Corps funds was deficient in its ability to maintain
                  accountability for Job Corps funds. Specifically, there were no written
                  policies and procedures other than the Job Corps Policy Requirements
                  Handbook, no Center Operating Plan, and no approved operating budget
                  during PY 1996.

                  We recommended that the Assistant Secretary for Employment and
                  Training direct the Director of Job Corps to disallow $1,041,841 as well
                  as:




                                                            Semiannual Report to the Congress
44                                                           April 1, 1999–September 30, 1999
                                                                                     A Prepared
                                                                                     Workforce
                     Youth Program Audits




                                       •   require the Nation to treat TLJCC as a separate cost objective
                                           with its own indirect cost pool and rate approved by the DOL
                                           Office of Cost Determination;

                                       •   notify the cognizant Federal agency that special operating factors
                                           affecting TLJCC’s contract with DOL necessitate special indirect
                                           cost rates;

                                       •   provide technical assistance and guidance to TLJCC to ensure
                                           that the Center’s financial reports and budgets are accurate,
                                           supported, and timely;

                                       •   require the Nation and TLJCC to correct the long-standing
                                           inadequacies of its accounting and financial management
                                           systems related to TLJCC;

                                       •   ensure that Center financial staff receive training related to Job
                                           Corps budget and report preparation and applicable cost
                                           principles;

                                       •   maintain sufficient, auditable, and otherwise adequate records to
                                           support the expenditure of all Job Corps funds; and

                                       •   develop and implement internal controls adequate to safeguard
                                           and account for Job Corps funds and property.

                                    The Nation disagreed with our finding regarding indirect costs and the
                                    recommended disallowance of over $1 million. The Nation, however,
                                    concurred with our findings regarding duplicate payments, accountability
                                    for TLJCC property, training for finance reporting staff, and development
                                    of written policies, procedures, and internal controls. (OA Report No. 06-
                                    99-010-03-370, issued September 22, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           45
     A Prepared
     Workforce
                                                 Audit Resolution




       OIG Saves Job Corps $645,702

                             At ETA’s request, the OIG reviewed additional construction costs
                             claimed by Aspinet Construction Company associated with renovating
                             Job Corps buildings. Aspinet asserted that its contract completion date
                             was extended due to numerous changes in construction procedures Job
                             Corps ordered, and that the resulting delay caused them to incur
                             increased costs for which they were not reimbursed. Accordingly,
                             Aspinet submitted a Request for Equitable Adjustment (REA) in the
                             amount of $820,702.

                             The OIG audited the costs supporting Aspinet’s REA. The resulting
                             report questioned, or set aside for the Contracting Officer’s review, about
                             75 percent of the $820,702 claimed in the REA. During the reporting
                             period, Aspinet and the Department entered into a Settlement Agreement
                             in which Aspinet agreed to accept $175,000 as a complete and full
                             settlement of all costs and claims related to its contract with Job Corps.
                             (OA Report No. 18-98-011-03-370, issued July 28, 1998)

       $249,514 Disallowed For Texas
       School-to-Work Subcontractor

                             The Texas Council on Workforce and Economic Competitiveness
                             (TCWEC) was created by the Texas State Legislature in 1993 to
                             coordinate the State’s workforce development programs. Accordingly,
                             TCWEC was selected as the recipient and administrator of the School-
                             to-Work (StW) State Development Grant. The OIG audited this grant for
                             the period March 1994 through September 1995 and questioned DOL
                             expenditures of $249,514 of the total of $1.3 million of funds expended by
                             TCWEC for this period. There was a small amount of Department of
                             Education funds in this grant.

                             The preponderance of questioned costs resulted because TCWEC
                             reimbursed one of its StW subcontractors for the full amount of costs
                             claimed even though the subcontractor had failed to maintain adequate
                             documentation of costs as is required for cost-reimbursable contracts.
                             Consequently, the OIG was unable to determine whether any of the




                                                                       Semiannual Report to the Congress
46                                                                      April 1, 1999–September 30, 1999
                                                                                   A Prepared
                                                                                   Workforce
                             Audit Resolution




                                    reimbursed costs were allowable, reasonable, or allocable to the StW
                                    program. Accordingly, the OIG questioned the entire amount of $208,214
                                    which TCWEC reimbursed to the subcontractor. The OIG also
                                    questioned $41,300 in expenditures, the preponderance of which
                                    represented professional services and consulting costs claimed by
                                    TCWEC subgrantees, because there was no basis for determining the
                                    reasonableness of the expenditures.

                                    During this reporting period, the ETA Grant Officer has disallowed the
                                    entire $249,514 in questioned costs. (OA Report No. 18-96-025-03-385,
                                    issued September 30, 1996)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                       47
     A Prepared
     Workforce
                                                 Investigative Activities




                            OIG investigations of wrongdoing and fraud within DOL’s Employment
                            and Training Administration (ETA) programs continue. The JTPA
                            programs, designed to assist unskilled and economically disadvantaged
                            youths and adults in receiving training and eventual employment, remain
                            vulnerable to theft and embezzlement of Federal funds.

                            In addition, the Foreign Labor Certification Program, also administered
                            by ETA, remains vulnerable to the submission of false or fictitious
                            information by individuals seeking to illegally obtain labor certifications.
                            The OIG recognizes the serious impact that the influx of illegal aliens
                            has on the American workforce, which results in the denial of jobs to
                            American workers or to those alien workers legally residing in the United
                            States.


       HMO Reviewer Sentenced for Embezzlement
       Related to JTPA Program

                            On June 7, 1999, Crystal Williams, a reviewer for Kaiser Permanente,
                            was sentenced to six months’ home detention and ordered to pay
                            $150,000 in restitution for an embezzlement scheme designed to
                            fraudulently enroll ineligible applicants in a health care plan in exchange
                            for kickbacks. Kaiser Permanente, a health maintenance organization,
                            created a healthcare plan called the Transition Plan as a community-
                            based program which offered low-cost, limited-term healthcare
                            insurance coverage to low-income families. As one of the qualifications
                            to enter the plan, an applicant must participate in a vocational or
                            occupational training program, such as the JTPA program. Williams was
                            responsible for reviewing the healthcare insurance applications for
                            membership in the Transition Plan. The OIG investigation found that,
                            from May 1992 through June 1994, Williams devised and participated in
                            a scheme by which she fraudulently enrolled over 200 applicants in the
                            Transition Plan. In return for a kickback, she and other brokers solicited
                            ineligible applicants to participate in the Transition Plan by falsifying JTPA
                            registration/enrollment documents indicating that the applicants had




                                                                        Semiannual Report to the Congress
48                                                                       April 1, 1999–September 30, 1999
                                                                                     A Prepared
                                                                                     Workforce
                    Investigative Activities




                                    participated in a JTPA program. Williams, who pled guilty to one count of
                                    mail fraud, collected approximately $40,000 in kickbacks and caused
                                    Kaiser Permanente a loss in excess of $900,000 in premiums and
                                    services provided to ineligible members. U.S. v. Williams (C.D.
                                    California)

        Store Owner Sentenced for Bribery and
        Falsifying Alien Registration Cards

                                    Paul Ameri, owner of Tour Fashions, Inc., was sentenced on July 6, 1999,
                                    to six months’ home confinement, 36 months’ probation, and a fine of
                                    $5,000 in a case in which the OIG worked in cooperation with the
                                    Immigration and Naturalization Service (INS). In April 1999, Ameri pled
                                    guilty to charges of bribing a public official and illegally possessing an
                                    alien registration receipt card. During the investigation of possible
                                    payoffs to union and U.S. DOL officials, Ameri bribed an undercover OIG
                                    Special Agent and an undercover INS Special Agent to obtain alien
                                    registration cards for five individuals, including his three employees.
                                    Ameri also bribed the undercover OIG agent, who was posing as a
                                    corrupt Occupational Safety and Health Administration (OSHA)
                                    inspector, to not report workplace safety violations. Other employees of
                                    Tour Fashions, Inc., were also prosecuted and either left the United
                                    States voluntarily or were deported for various immigration violations.
                                    U.S. v. Ameri (D. New Jersey)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           49
 Promoting the
   Economic
   Security of
  Workers and
    Families




 A Secure
Workforce
The Department of Labor is committed to protecting workers’ hours, wages, and
other conditions when on the job, providing unemployment and compensation benefits
when workers are unable to work, and expanding, enhancing, and protecting workers’
pensions, healthcare, and other benefits. The key priorities for this strategic goal are
to increase compliance with minimum-wage and overtime requirements, enable
working Americans to be economically secure when they retire, provide more pensions
for women and employees of small businesses, provide better access to healthcare,
and facilitate community readjustment in those areas suffering from economic change
by shortening periods of unemployment and increasing full-time jobs and wage
replacement.



In support of the Department’s goal, the OIG works to safeguard workers’ and retirees’
benefit programs by enhancing program performance and accountability. This includes
conducting sufficient activities to assess and make recommendations to significantly
enhance the Department’s ability to effectively administer and safeguard the billions
of dollars in employment, unemployment, and disability compensation benefit
programs and to protect employee pension, healthcare, and welfare benefit plans.
                                                                                     A Secure
                                                                                     Workforce
      Unemployment Insurance Audits




Unemployment Insurance

                                    Enacted over 60 years ago as a Federal-state partnership, the
                                    Unemployment Insurance (UI) program is the Department’s largest
                                    income maintenance program. The program assists workers who lose
                                    their jobs through no fault of their own. The UI program is administered
                                    by State Employment Security Agencies (SESAs) in 50 states and the
                                    District of Columbia, Puerto Rico, and the U.S. Virgin Islands under the
                                    oversight of the Employment and Training Administration (ETA). The
                                    Unemployment Trust Fund, which was established to ensure that
                                    adequate funding is available to pay unemployment compensation is
                                    financed through employers’ quarterly payroll tax assessments.


         The Internal Revenue Service Overcharged
         the Unemployment Trust Fund $48 Million

                                    We audited the administrative charges to the Unemployment Trust Fund
                                    (UTF) for the services provided by the United States Department of the
                                    Treasury for collecting and processing Federal unemployment taxes—
                                    authorized by the Federal Unemployment Tax Act (FUTA)—and
                                    administering the UTF.

                                                          Administrative Charges         Overcharge

                                           FY 1996        $ 95,321,118                  $17,598,043

                                           FY 1997        $104,387,657                   $17,632,554

                                           FY 1998        $105,868,890                   $12,649,975

                                           Totals         $305,577,665                   $47,880,572




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                         53
     A Secure
     Workforce
                                     Unemployment Insurance Audits




                 We reviewed total Treasury administrative charges of $305,577,665 for
                 fiscal years (FYs) 1996, 1997, and 1998. Our audits showed that
                 Treasury overcharged the UTF $47,880,572 during the audit period
                 because the Internal Revenue Service’s (IRS) estimated costs had not
                 been adjusted to actual costs during FYs 1996, 1997, and 1998.

                 The IRS Chief Financial Officer’s (CFO) Office of Accounting Standards
                 and Evaluation (OASE) was responsible for compiling and submitting the
                 IRS’s costs to the Bureau of Public Debt (BPD) to charge to the UTF. IRS
                 charges to the UTF were largely based on an outdated unit cost rate. We
                 also found that the IRS’s method of calculating costs was based on
                 fragmented, ad hoc spreadsheet accounting. The IRS’s accounting
                 systems were not integrated nor configured to accommodate recently
                 required Federal cost accounting standards. The current method of
                 compiling costs specific to the UTF is inefficient and cumbersome,
                 involving a variety of estimates and data from at least 10 individual
                 management information systems which are largely unaudited.

                 We recommended that the Assistant Secretary for Employment and
                 Training ensure that BPD credits the UTF $47,880,572 overcharged for
                 IRS’s costs during our audit period. Also, we recommended the Assistant
                 Secretary establish a team to negotiate an alternative method of charging
                 for IRS administrative costs, since the current method is fragmented,
                 cumbersome, and unreliable.

                 The IRS disagreed with our conclusion that the UTF was overcharged by
                 almost $48 million, as it believes there may be additional Collections
                 Division’s costs that we did not include in our audit. In calculating the
                 overcharge, we used costs provided by the Collections Division to the
                 IRS CFO’s office and verified these costs with the Collections Division as
                 complete and accurate. Our initial conclusion that $47,880,572 was
                 overcharged remains unchanged. (OA Report No. 06-99-012-03-315,
                 issued September 21, 1999)




                                                               Semiannual Report to the Congress
54                                                               April 1, 1999–September 30, 1999
                                                                                      A Secure
                                                                                      Workforce
      Unemployment Insurance Audits



         State Employment Security Agencies Fail
         Tax Performance System Acceptance Sample
         Reviews

                                    During calendar years 1996 and 1997, approximately 50 percent of all
                                    State Employment Security Agencies (SESAs) failed the Tax
                                    Performance System (TPS) Acceptance Sample Review, which is a
                                    quality control review designed to ensure that:

                                       •   UI field tax auditors perform their duties correctly;

                                       •   UI tax cases are prepared in accordance with applicable criteria;
                                           and

                                       •   employers are correctly filing and disclosing their quarterly UI
                                           taxes.

                                    In a previous audit, “Adopting Best Practices Can Improve Identification
                                    of Noncompliant Employers for State UI Field Audits” (OA Report No. 03-
                                    99-006-03-315, issued March 22, 1999), we noted that 7 of the 12 SESAs
                                    we visited failed their TPS Acceptance Sample Reviews. We found that
                                    the Unemployment Insurance Service (UIS) does not require states that
                                    fail their TPS Acceptance Sample Reviews to submit timely corrective
                                    action plans for subsequent monitoring by UIS. To help ensure
                                    continuous improvement in the field audit process, OIG believes that
                                    corrective action plans and subsequent monitoring should be a
                                    fundamental part of ETA’s quality review process.

                                    We recommended that the Assistant Secretary for Employment and
                                    Training direct the UIS to require states that fail their TPS Acceptance
                                    Sample Reviews to submit timely written Corrective Action Plans for
                                    subsequent monitoring by UIS.

                                    ETA agreed with the OIG’s recommendation that Corrective Action Plans
                                    (CAPs) or Continuous Improvement Plans (CIPs) are necessary when
                                    states fail a TPS review. The UI performance management system (UI
                                    Performs) currently envisions the use of CAPs and CIPs. The UI
                                    Performs handbook, Unemployment Insurance State Quality Service
                                    Plan (SQSP) Planning and Reporting Guidelines, is currently in draft.
                                    CAPs and CIPs will be an integral part of UI Performs when fully
                                    implemented. (OA Report No. 03-99-008-03-315, issued August 3,
                                    1999)
Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                         55
     A Secure
     Workforce                                     Unemployment Insurance
                                                   Investigations




      Individuals Caught in Counterfeit Payroll
      Check Scam

                              Three of seven individuals have been indicted and have pled guilty in a
                              counterfeit payroll check scam that began in August 1997. Delaine
                              Lawrence, chief printer and a deliverer of counterfeit checks, was
                              charged and pled guilty on September 1, 1999, to making, possessing,
                              and circulating forged securities. Malcolm Lawrence, Delaine’s brother,
                              was also indicted for the same charges for being a transporter and
                              recruiter. The investigation revealed that Malcolm Lawrence was
                              responsible for delivering over $2 million in counterfeit checks. Jonathan
                              Coleman was brought into the scheme by Malcolm to be the printer after
                              Delaine left in June 1998. Coleman was indicted on July 9, 1999, and
                              charged with 15 counts of violations of counterfeiting, aiding and abetting,
                              and conspiracy. The investigation revealed that Coleman was
                              responsible for printing over $750,000 in counterfeit checks. In July 1999,
                              Kendra Hess was charged and pled guilty for using a fake social security
                              number and attempting to cash one of the counterfeit checks. In
                              September 1998, the Louisiana Department of Labor (LDOL) Internal
                              Security Unit reported to the OIG that person(s) were attempting to cash
                              counterfeit payroll checks bearing an encoded bank account routing
                              number of the LDOL Unemployment Insurance program checking
                              account. The checks reflected the names of private businesses but were
                              encoded with an LDOL account number. Further inquiry into the matter
                              was initiated by the OIG in cooperation with the Louisiana Department of
                              Justice and the U.S. Secret Service. U.S. v. Lawrence, et al. (E.D.
                              Louisiana)

      Washington State Employee Sentenced in
      Embezzlement Scheme

                              On September 7, 1999, Artis Jenkins was sentenced to six months’ home
                              confinement and three years’ probation and was ordered to pay $13,179
                              in restitution for embezzling funds from a Federal program administered
                              by the State of Washington Employment Security Department (ESD).
                              Jenkins was employed by the State of Washington for over 20 years as
                              a supervisor with the ESD Work First program, which is funded by DOL


                                                                             Semiannual Report to the Congress
56                                                                             April 1, 1999–September 30, 1999
                                                                                       A Secure
                 Unemployment Insurance                                                Workforce
                          Investigations




                                    and HHS. The OIG investigation established that Jenkins submitted
                                    fraudulent travel vouchers, totaling more than $10,000. On May 21, 1999,
                                    Jenkins pled guilty to a one-count violation of theft from a Federal
                                    program, after being charged in April 1999. On April 23, 1999, as a result
                                    of OIG investigative efforts, he was fired by the State of Washington.
                                    U.S. v. Jenkins (W.D. Washington)

         Individual Indicted for Using False Identities
         to Collect Unemployment Insurance Benefits

                                    On September 10, 1999, Ira Malkin was indicted on two counts of false
                                    use of a social security number. Malkin was charged with falsely
                                    presenting a social security number to collect unemployment insurance
                                    (UI) benefits. This investigation established that Malkin allegedly
                                    received $67,705 in UI benefits over the last eight years. Between
                                    November 1992 and March 1999, Malkin allegedly filed and received
                                    benefits on five UI claims, using the identities of other people, including
                                    two of his cousins and one friend. He allegedly filed claims under the
                                    names of five different individuals, two of whom had the same last name
                                    as his own. Three of the claims were filed against New York employers
                                    and two were filed against New Jersey employers. All of the claims were
                                    allegedly filed with affidavits of earnings instead of being based on
                                    previously reported wage credits. As part of his scheme, he allegedly
                                    applied for a replacement social security card under each of the five
                                    names. He used post office boxes in Brooklyn and Manhattan and
                                    commercial mailboxes in Brooklyn and New Rochelle, N.Y., to receive
                                    the benefits. This investigation was conducted jointly with the Social
                                    Security Administration. U.S. v. Malkin (E.D. New York)

         Colorado Man Sentenced for Fraud

                                    Robert Seaborn was sentenced on August 24, 1999, to five years’
                                    probation and four months’ home detention and was ordered to pay
                                    restitution of $11,140 for making false statements to receive benefits.
                                    Seaborn had qualified for Trade Readjustment Allowance (TRA) benefits
                                    because he was a U.S. resident who was laid off as a result of the



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                            57
     A Secure
     Workforce                                    Unemployment Insurance
                                                  Investigations




                             implementation of the North American Free Trade Agreement. The OIG
                             investigation discovered that from August 1995 through April 1996,
                             Seaborn reported that he was enrolled at the University of Southern
                             Colorado, when he had dropped out in August 1995. Seaborn received
                             $9,879 in unemployment benefits and $1,261 in books and tuition to which
                             he was not entitled. In May 1999, Seaborn pled guilty to the charges that
                             were brought in March 1999 for the fraud committed in order to obtain TRA
                             benefits. U.S. v. Seaborn (D. Colorado)

      UI Recipient Fails to Report Employment
      with Sears

                             On May 27, 1999, Anthony Barbaro was sentenced to four months’ home
                             confinement and four years’ probation and was ordered to pay $15,400
                             in restitution as a result of his guilty plea in March 1999 to charges of theft
                             of Federal funds related to his receipt of UI benefits. Between December
                             1992 and November 1993, the OIG investigation revealed that he was not
                             reporting his employment with Sears, while he collected benefits totaling
                             $7,392 of Federal supplemental benefits. U.S. v. Barbaro (D. New
                             Jersey)




                                                                              Semiannual Report to the Congress
58                                                                              April 1, 1999–September 30, 1999
                                                                                       A Secure
                                                                                       Workforce
                      Worker Benefits Audits




                                    The Office of Workers’ Compensation Programs (OWCP) administers
                                    three major disability compensation programs under the Employment
                                    Standards Administration (ESA) that provide benefits to workers who
                                    experience work-related injuries or diseases. These include the Federal
                                    Employees’ Compensation Act (FECA), Longshore and Harbor Workers’
                                    Compensation Act (LHWCA), and the Black Lung Benefits Act (Black
                                    Lung Trust Fund) programs. Service providers to these programs provide
                                    medical treatment and supplies and receive payment for these services
                                    from the different programs. The following narrative is illustrative of our
                                    audit work in this area.


         ESA Provides Enhanced Services in
         Handling Part B Black Lung Claims

                                    In September 1997, the Social Security Administration (SSA) and the
                                    ESA signed a memorandum of understanding (MOU) for the OWCP’s
                                    Division of Coal Mine Workers’ Compensation (DCMWC) to provide
                                    programmatic, administrative management, and general support
                                    functions to SSA in the administration of the Black Lung Part B Program.
                                    This report complies with the 1998 House of Representatives
                                    Appropriations Committee Conference Report request that the OIGs of
                                    SSA and DOL prepare a joint report to the House and Senate
                                    Appropriations Committees assessing whether the objectives of an MOU
                                    to provide enhanced services at reduced costs were being achieved.

                                    We were unable to conclude that ESA operated the program at reduced
                                    costs because one-time start-up and transitional costs occurred during
                                    the audit period. However, the OIGs concluded that ESA’s DCMWC
                                    provided enhanced services in handling Part B claims in FY 1998.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                            59
     A Secure
     Workforce
                                      Worker Benefits Audits




                 Our conclusion that ESA is providing enhanced services is based on the
                 following:

                    •   ESA’s automated system for the Black Lung Program is more
                        sophisticated than SSA’s, so it facilitates ESA’s ability to ensure
                        that beneficiaries receive their benefit checks on time and in the
                        correct amount when updates and changes are processed. Also,
                        ESA has a staff whose expertise is in handling only Black Lung
                        claims.

                    •   Beneficiaries and congressional liaisons contacted made
                        positive comments about ESA’s administration of Part B of the
                        Black Lung Program.

                    •   Our review of Part B claim files showed that ESA is maintaining
                        a record and history of any activity associated with the claim,
                        while this was not always the case when SSA handled the claims.

                    •   DCMWC has developed customer service standards for the Part
                        B Black Lung Program to measure performance against those
                        standards. In FY 1998, the transition year, ESA processed over
                        47,000 requests for changes. In monitoring its performance,
                        DCMWC reported that of the requests tracked, it processed the
                        requests on average of seven days or less. SSA had no such
                        performance measurement system in place for the Part B Black
                        Lung Program.

                 ESA provided enhanced services in FY 1998 by eliminating a backlog of
                 over 6,000 pending transactions, processing over 47,000 requests (in
                 many cases without the benefit of claim files), and responding to
                 numerous telephone calls while implementing the Part B program.
                 Beneficiaries, SSA, and congressional liaisons are pleased with
                 DCMWC’s service.

                 We recommended that DOL’s Assistant Secretary for Employment
                 Standards and SSA’s Director of the Office of Central Operations study
                 the feasibility of transferring the entire Part B program to the Department.
                 The transfer of the entire program to ESA would eliminate duplication of
                 functions such as budget preparation, financial reporting, transferring of



                                                                Semiannual Report to the Congress
60                                                                April 1, 1999–September 30, 1999
                                                                                      A Secure
                                                                                      Workforce
                      Worker Benefits Audits




                                    financial data monthly, and the numerous calls to resolve Part B issues.
                                    Additionally, the entire responsibility for all Black Lung claims (Parts B
                                    and C) would rest with one DOL agency where the majority of its claims
                                    examiners have over 20 years of experience providing efficient and
                                    effective service to Black Lung beneficiaries.

                                    In responding to the draft report, DOL’s Assistant Secretary for
                                    Employment Standards and SSA’s Principal Deputy Commissioner
                                    concurred with the recommendation to study the feasibility of transferring
                                    the Black Lung Part B Program to ESA. (OA Report No. 17-99-008-04-
                                    433, issued April 8, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           61
     A Secure
     Workforce
                                                 Worker Benefits Evaluations




      Review of Medical Reimbursements and
      Authorization of Surgical Requests for the
      Office of Workers’ Compensation Programs

                             As a result of congressional interest, the OIG conducted a review of the
                             timeliness of claimant reimbursement for out-of-pocket medical
                             expenses and requests for surgical authorizations in the OWCP’s
                             Division of Federal Employees’ Compensation.

                             We found that reimbursement of claimants’ out-of-pocket expenses is not
                             a substantial issue. OWCP data show that reimbursement of claimants
                             represents only 3 percent of all medical bills paid by OWCP. OWCP
                             surpasses the “95 percent” 60-day performance standard by paying 96.9
                             percent of all claimant-submitted bills within 60 days, although it falls
                             somewhat short of the “90 percent” standard in 28 days by paying 82.1
                             percent of claimant-submitted bills within 28 days. OWCP told us that in
                             January 1999, they implemented an automated bill review system. They
                             expect this new system to increase the percentage of claimant-submitted
                             bills paid in 28 days.

                             Pharmacy bills are the largest category of claimant reimbursements.
                             OWCP has implemented an electronic billing system that allows
                             pharmacies to bill OWCP directly, eliminating the need for claimant out-
                             of-pocket expenses. OWCP records demonstrate that after only four
                             months, the new system has reduced claimant-submitted pharmacy bills
                             by 10 percent.

                             OWCP deals with two different types of surgeries: emergency and non-
                             emergency. If an employee suffers a traumatic injury at work and requires
                             emergency surgery, the employing agency is responsible for authorizing
                             the medical treatment within four hours of injury. Our review examined
                             OWCP’s handling of requests for non-emergency surgery.

                             OWCP has not set a performance standard in this area. We
                             recommended that OWCP set a performance standard for responding to
                             surgical requests, to reduce claimant uncertainty about the process. We
                             proposed that OWCP’s response might be in the form of a request for
                             additional information, an appointment to see a physician for a second
                             opinion exam, or an approval for surgery. Four of OWCP’s twelve district


                                                                          Semiannual Report to the Congress
62                                                                          April 1, 1999–September 30, 1999
                                                                                        A Secure
                                                                                        Workforce
             Worker Benefits Evaluations




                                    offices already track surgical requests and have set performance
                                    standards. The performance standards range from 7 to 10 days.

                                    The agency plans to review its practices in responding to surgery
                                    requests, given the recommendation of the study and its emphasis on
                                    identifying more precisely where and how to focus the agency’s efforts at
                                    improving customer service. However, the agency stated that there are
                                    a number of reasons why it cannot establish a performance standard at
                                    this time, including the these facts:

                                       •   Response times vary greatly depending on the type of request.

                                       •   OWCP is in the process of tracking the number of telephone
                                           requests for medical authorizations and percentage of responses
                                           in three days. Once this data is collected and analyzed, it will
                                           consider the need for a new standard.

                                       •   It would be difficult for them to track the information required under
                                           their current information system. (OACE Report No. 2E-04-430-
                                           0001, issued May 17, 1999)

         Review of Federal Employees’ Compensation
         Act Program Customer Service Surveys For
         the Employment Standards Administration

                                    The OIG reviewed the OWCP’s 1995 –1998 customer service surveys,
                                    which were conducted by the Division of Federal Employees’
                                    Compensation (FEC). We analyzed the surveys’ methodology in order to
                                    determine their accuracy and usefulness in providing sound information
                                    about customer service. Although OWCP has made efforts to improve
                                    the surveys each year, our analysis revealed the existence of
                                    methodological flaws in several areas, including survey design,
                                    measurement of customer service, sampling, response rate, and survey
                                    operations. As a result, we made a number of recommendations to
                                    enhance the accuracy of the data by improving the survey methodology
                                    and thus help OWCP judge and improve the quality of customer service
                                    provided by FEC. The agency agreed with most of our recommendations.
                                    (OACE Report No. 2E-04-431-0002, issued May 17, 1999)



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                              63
     A Secure
     Workforce
                                                Worker Benefits Evaluations




      Review of Nonchargeable Claimants Under
      FECA

                            The OIG conducted an examination of claimants categorized as
                            nonchargeable under the Federal Employees’ Compensation Act
                            (FECA).

                            OWCP categorizes claims as nonchargeable or chargeable. A
                            chargeable claim is one where each employing agency is responsible —
                            or charged—for the total cost of benefits paid for injuries or deaths
                            occurring after December 1, 1960. Nonchargeable claims differ because
                            they cover claims which occurred prior to December 1, 1960, and are not
                            billed back to employing agencies. Funding for nonchargeables are
                            appropriated directly by Congress to OWCP.

                            We looked at total nonchargeable claims and costs paid since 1993. Our
                            review of the nonchargeable claims focused on four questions: (1) What
                            is their profile? (2) What are their life span and projected costs? (3) Are
                            claimants returning to work, and (4) Is the claimant information accurate
                            and useful?

                               •    Profile of Nonchargeables:
                                    We found that, on average, less than 2 percent of the FECA
                                    claimant universe and costs paid between 1993 and 1998 were in
                                    nonchargeable claims. Overall, the number of nonchargeable
                                    claimants and costs have decreased by 30 percent and 20
                                    percent, respectively, since 1988. Although the universe is a
                                    small group, no two categories are alike, making any analysis
                                    complex.

                                •   Life Span and Projected Costs of the Nonchargeables:
                                    In our review, we found that 90 percent of the current
                                    nonchargeable claimants will no longer receive benefits by the
                                    year 2022.




                                                                          Semiannual Report to the Congress
64                                                                          April 1, 1999–September 30, 1999
                                                                                    A Secure
                                                                                    Workforce
             Worker Benefits Evaluations




                                    •   Returning Claimants to Work:
                                        It is difficult to determine who may, or may not, eventually return
                                        to work. Claimants fall into two categories: (1) claimants who are
                                        covered under OWCP return-to-work policies, and (2) claimants
                                        (family members) who receive survivor benefits. On June 30,
                                        1998, 2,068 claimants (56 percent) were covered under OWCP’s
                                        return-to-work policies, with the remaining 1,592 (44 percent)
                                        receiving survivor benefits. For almost 22 percent of the
                                        claimants, the injuries were predominately traumatic and/or
                                        violent, and it is unlikely that most of them will return to work. We
                                        did find evidence, however, which verified that OWCP’s efforts to
                                        return nonchargeable claimants back into the workforce, either in
                                        similar positions or through retraining programs, are adequate.

                                    •   Accuracy and Usefulness of Claimant Information:
                                        We found that claimant information was either incorrect or
                                        incomplete. According to OWCP, there is a current effort to
                                        redesign the automated database system for Federal employees
                                        compensation. Since the number of problems we found within the
                                        nonchargeable claimant universe is very small, we suggest that
                                        OWCP attempt to make any corrections noted in our report during
                                        the implementation phase of their redesigned database. The
                                        agency generally agreed with our comments. (OACE Report No.
                                        2E-04-431-0001, issued September 24, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                          65
     A Secure
     Workforce
                                                  Worker Benefits Investigations




                             OIG’s focus during this period, concerning the DOL programs that provide
                             benefits to workers and their survivors, has expanded to include some
                             examinations into what type of care is provided, yielding some cost
                             efficiencies in the Black Lung Program and new discoveries of employer
                             and medical provider fraud in the Longshore Program. Accordingly, during
                             this time-frame, the Office of Investigations opened 146 cases, closed
                             157 cases and achieved 69 indictments, 88 convictions, and over $5
                             million in monetary accomplishments. Examples of overbilling schemes
                             and other types of fraud by providers that bilk the OWCP are highlighted
                             below. These are followed by the significant cases involving claimants
                             who have been identified as defrauding the OWCP.



Medical Provider Fraud

                             Medical professionals and medical supply companies provide a variety
                             of services and supplies for the care of recipients of OWCP programs.
                             These medical providers are paid by the various OWCP programs
                             through the submission of billings for the services and/or supplies which
                             they provide. Unfortunately, some of them have been found to falsify
                             those billings by either inflating them or billing when nothing was actually
                             provided.


      West Virginia Provider Sentenced for
      Defrauding Black Lung Program

                             On August 24, 1999, Paul David Adkins, president of Mountain
                             Respiratory Diagnostic, was sentenced to serve 63 months’
                             imprisonment and three years’ probation and was ordered to pay
                             $872,824 in restitution to the Federal Black Lung Trust Fund. He admitted



                                                                            Semiannual Report to the Congress
66                                                                            April 1, 1999–September 30, 1999
                                                                                      A Secure
                                                                                      Workforce
         Worker Benefits Investigations




                                    to making fraudulent billings to the Black Lung Program for services that
                                    he never provided. The OIG investigation revealed that, from 1995
                                    through 1999, Adkins had billed the Trust Fund $1,387,710, of which
                                    $872,824 was paid for providing arterial blood gas studies and respiratory
                                    therapy. Adkins had previously pled guilty in May to 11 counts of wire
                                    fraud and four counts of money laundering concerning his receipt of
                                    Federal Black Lung Trust Fund benefits. Approximately $278,000 has
                                    already been recovered through the auction of vehicles, musical
                                    equipment, and home furnishings. On September 28, 1999, in a separate
                                    proceeding, he was sentenced for defrauding the State of West Virginia’s
                                    Black Lung Program to a minimum of 22 years and a maximum of 42 years
                                    (to run concurrently with the Federal sentence) and was ordered to pay
                                    $755,408 in restitution. U.S. v. Adkins (S.D. West Virginia)

         Vocational Counselor Indicted for
         Submitting False Claims

                                    Herbert Donald Dockery, former branch manager and a DOL-certified
                                    vocational counselor with Crawford and Company’s Office of Disability
                                    Management Services, was indicted on August 18, 1999. The grand jury
                                    charged Dockery with 35 counts of mail and wire fraud for allegedly
                                    submitting false medical claims to OWCP and other commercial entities.
                                    The joint investigation disclosed that Dockery allegedly devised and
                                    implemented various schemes in order to defraud OWCP and Newport
                                    News Shipbuilding (a Department of Defense contractor). As a manager
                                    with Crawford and Company, Dockery was responsible for administering
                                    vocational rehabilitation and medical case management services to
                                    government employees and contractors, under both the FECA and
                                    Longshore Programs. The investigation revealed that Dockery allegedly
                                    arranged a compensation agreement authorizing the company to pay him
                                    40 percent of the net profits produced by his office. Consequently,
                                    Dockery allegedly attempted to maximize the office’s net profits by
                                    submitting false medical claims. This indictment is the result of a joint
                                    investigation with the U.S. Department of Defense, Defense Criminal
                                    Investigative Service. U.S. v. Dockery (E.D. Virginia)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           67
     A Secure
     Workforce
                                                   Worker Benefits Investigations




      Medical Supply Company Owners Sentenced
      for Inflating Bills

                              On April 9, 1999, Doris Jean McConnell and Marsha L. McConnell were
                              each sentenced to serve 21 months’ imprisonment and three years’
                              probation and were ordered to jointly pay over $1 million in restitution, as
                              owners of Independent Home Medical Rentals, Inc. (IHMR). On October
                              30, 1998, IHMR and the McConnells pled guilty to one count of mail fraud
                              concerning the submission of fraudulent bills to the Black Lung Trust
                              Fund. Gertrude Burdine, who worked for IHMR prior to starting her own
                              business, Southern Air Home Equipment, in 1996, also pled guilty to mail
                              fraud. The OIG investigation found that the defendants defrauded the
                              Black Lung Trust Fund by submitting grossly inflated bills for gaseous
                              oxygen and supplies to claimants. The proceeds from the fraud were
                              squandered on cash given to relatives and the purchase of recreational
                              vehicles, including motor homes, campers, and boats. Burdine is
                              scheduled to be sentenced in October 1999. U.S. v. McConnell, et al.
                              (W.D. Virginia)

      Former California Podiatrist Indicted for
      Healthcare Fraud

                              Former OWCP medical provider Philip Gilbert Marin was indicted on
                              July 15, 1999, and charged with seven counts of health care fraud for
                              submitting fraudulent medical claims to the OWCP. This investigation
                              was based on a review of OWCP medical provider quarterly bill pay
                              histories that specifically targeted current providers who bill the OWCP
                              for high dollar services rendered to only one FECA claimant. A quarterly
                              OWCP bill pay history from April 1998 to June 1998 showed that Marin
                              was paid $10,545 for services rendered to one claimant during this three-
                              month period. Further bill pay history on Marin showed that he had been
                              paid over $100,000 since January 1990 for medical services rendered
                              solely to one FECA claimant.

                              According to OWCP bill pay records, Marin submitted several medical
                              claims for medical services he claimed were rendered to the FECA
                              claimant from September 8, 1995, to December 18, 1995, and from



                                                                             Semiannual Report to the Congress
68                                                                             April 1, 1999–September 30, 1999
                                                                                        A Secure
                                                                                        Workforce
         Worker Benefits Investigations




                                    March 4, 1997, to July 23, 1997. During this time, Marin was actually
                                    incarcerated and unable to perform any medical services; however, he
                                    submitted these claims to OWCP after his release from jail. Furthermore,
                                    Marin allegedly continued to submit multiple fraudulent claims to OWCP
                                    after his 1997 jail release by billing for the claimed medical services
                                    rendered to the FECA claimant while his podiatry license was expired.
                                    This investigation detected a total of 145 alleged false medical claims by
                                    Marin to OWCP and an additional 50 alleged false claims to Blue Cross
                                    of California, a private insurance carrier. On January 11, 1999, the
                                    OWCP debarred Marin as a medical provider. U.S. v. Marin (N.D.
                                    California)

         Three Individuals Sentenced in Wheelchair
         Scam

                                    As reported in the prior semiannual report, Jeffrey Scott Marmer, Jerry
                                    Rodney Rogers, and Wendy Hardenbrook, through their employer,
                                    Independent Medical of America (IMA), fraudulently marketed and sold
                                    durable medical equipment to handicapped individuals. Hardenbrook
                                    was sentenced on September 9, 1999, to six months’ home detention and
                                    two years’ probation and was ordered to seek counseling and treatment
                                    for substance abuse. Marmer was sentenced on April 14, 1999, for
                                    violations of mail fraud and aiding and abetting and received three years’
                                    probation and six months’ house arrest, and was ordered to pay $3,600
                                    in restitution. Rogers was sentenced on April 5, 1999, for violations of mail
                                    fraud and conspiracy, to serve 18 months’ imprisonment, three years’
                                    probation, and was ordered to pay $7,800 in restitution. Hardenbrook
                                    signed a plea agreement dated April 5, 1999, charging her with one count
                                    of conspiracy. Marmer and Rogers had previously pled guilty to the
                                    charges. This joint investigation with the Defense Criminal Investigative
                                    Service unveiled a complicated scheme whereby these IMA employees
                                    solicited disabled individuals from lists purchased from state motor
                                    vehicle offices. Marmer, Rodgers, and Hardenbrook enticed them with
                                    offers of three-wheeled electric scooters (valued at $1,200 to $1,500)
                                    which would be paid by the individual’s medical benefits provider, in
                                    exchange for the names of their physicians. The IMA employees then
                                    prepared certificates of medical necessity for the physicians to execute
                                    that falsely indicated that electric wheelchairs (valued at $5,500 to $7,800


Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                              69
     A Secure
     Workforce
                                                 Worker Benefits Investigations




                             each) were being provided. IMA would then fraudulently bill the medical
                             benefits providers for electric wheelchairs, but not provide any product,
                             until after receiving payment from the provider (and then only the less
                             expensive electric scooter). This scheme allowed IMA to fraudulently
                             obtain $4,000 to $6,200 per each scooter provided, and OWCP was just
                             one of the providers that was victimized, with claims totaling over $2
                             million in 1994 and 1995. U.S. v. Marmer, et al. (D. South Carolina)


Employer Fraud

      Two Individuals Sentenced for Not Providing
      Longshore Coverage

                             On June 3, 1999, James McPherson and Sherri McAlister of Diversified
                             Labor, Inc., were each sentenced to serve three years’ probation and pay
                             a fine of $30,000 for failure to provide Longshore Harbor Workers’ Act
                             coverage for their employees. Diversified was fined $100,000, placed on
                             probation for one year, and ordered to cease doing business, including
                             stevedoring business, at the Port of Houston. Additionally, as part of the
                             sentence, McPherson and McAlister were ordered to pay a total of
                             $900,000 in restitution as agreed upon in a civil settlement with the State
                             of Texas Workers’ Compensation Fund. In February 1999, McPherson
                             and McAlister were charged with conspiracy and mail fraud in relation to
                             the scheme to avoid paying Longshore benefits. This joint OIG
                             investigation with the FBI found that McPherson created and McAlister
                             ran a number of labor-leasing companies, disguising the true ownership
                             of the companies by creating the illusion of multiple, unrelated employers
                             and disguising the control of the businesses. Workers were shifted from
                             company to company, depending on which company carried the proper
                             coverage, to avoid paying premiums for all of the companies and
                             providing Longshore benefits. In addition, workers were misclassified
                             into jobs with lower risk factors. This scheme prevented the covering
                             agency from being able to properly compute premiums for the work
                             performed at the Port of Houston and allowed McPherson to avoid in
                             excess of $60 million in workers’ compensation premiums. U.S. v.
                             McPherson, et al. (S.D. Texas)


                                                                           Semiannual Report to the Congress
70                                                                           April 1, 1999–September 30, 1999
                                                                                      A Secure
                                                                                      Workforce
         Worker Benefits Investigations




Claimant Fraud

                                    OWCP Programs are frequently defrauded by claimants who are
                                    employed during the period that they are receiving benefits and who
                                    falsify documents by not reporting the employment in order to retain
                                    their benefits.


         FECA Claimant Pays Full Restitution Before
         Sentencing

                                    Larry Helton, a self-employed residential building contractor, was
                                    sentenced on May 3, 1999, to one year’s probation and was ordered to
                                    pay restitution of $82,802, which was sent to OWCP prior to sentencing.
                                    He pled guilty to one count of making false statements on February 12,
                                    1999. The OIG investigation disclosed that Helton was self-employed as
                                    a contractor and was receiving workers’ compensation benefits for an
                                    alleged injury that occurred on February 18, 1992, while he was employed
                                    as a fireman at the Blue Grass Army Depot, Richmond, Kentucky. U. S.
                                    v. Helton (E.D. Kentucky)

         Former Philadelphia Navy Yard Worker
         Commits FECA Fraud

                                    On May 6, 1999, Calvin L. McQueen pled guilty to one count of FECA
                                    fraud. In addition to his guilty plea, McQueen agreed to pay back $95,000
                                    in restitution. McQueen is a former employee of the now closed
                                    Philadelphia Navy Yard. The OIG investigation found that he was
                                    fraudulently collecting benefits for over three years while concealing the
                                    fact that he was gainfully employed by the City of Philadelphia’s Youth
                                    Program. U.S. v. McQueen (E.D. Pennsylvania)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           71
     A Secure
     Workforce
                                                 Worker Benefits Investigations




      Widow of Black Lung Program Recipient
      Sentenced

                             Willa Jean Cool was sentenced on July 26, 1999, to six months’ home
                             detention and three years’ probation and was ordered to pay restitution of
                             $32,012.40. Cool was charged in February 1999 with making false
                             statements in regard to her receipt of widow’s benefits from the Black
                             Lung Trust Fund. The OIG investigation discovered that in 1979, Cool had
                             married a retired miner who was a recipient of Black Lung benefits, but
                             after he died she remarried. In order to retain her benefits she falsified
                             documents to say that she had not remarried and that her children were
                             still dependents living with her. Cool pled guilty in April 1999 to making
                             false statements to OWCP regarding her marriage status and her
                             dependents. U.S. v. Cool (S.D. Florida)

      Recipient’s Brother Sentenced for Forging
      Benefit Checks

                             On July 7, 1999, Jewel Delanders Blake, the brother of an OWCP
                             benefits recipient, was sentenced for the theft of Longshore disability
                             benefits to six months’ incarceration, three years’ supervised release,
                             and six months’ home detention, and was ordered to pay $115,682 in
                             restitution. In March 1999, Blake was indicted on nine counts of mail fraud
                             and three counts of making false statements, and in April 1999, he pled
                             guilty to the false statements charges. The OIG investigation found that
                             from May 1985 to June 1997, Blake knowingly devised a scheme to
                             defraud OWCP and Travelers Insurance. Jewel Blake’s brother, Vernel,
                             had been receiving Longshore and Harbor Workers’ Compensation
                             benefits from his on-the-job injury in 1962 until he died in May 1985.
                             Thereafter, Jewel Blake continued to fraudulently collect Vernel’s benefit
                             checks by forging Vernel’s signature on the checks. As part of the
                             scheme, Blake also forged Vernel’s signature on eleven DOL forms LS-
                             200 required for the continuation of the benefits. U.S. v. Blake (C.D.
                             California)




                                                                           Semiannual Report to the Congress
72                                                                           April 1, 1999–September 30, 1999
                                                                                      A Secure
                                                                                      Workforce
         Worker Benefits Investigations




         Former Virginia Shipyard Worker Sentenced
         for Defrauding Longshore Program

                                    Edward Chehovich, a former Newport News Shipyard employee, was
                                    sentenced on April 19, 1999, to 18 months’ imprisonment and was
                                    ordered to pay restitution of $9,094. In October 1998, Chehovich was
                                    charged with making false statements and mail fraud from January 1996
                                    through May 1997 to obtain disability benefits under the Longshore and
                                    Harbor Workers’ Compensation Act. In January 1999, he pled guilty to the
                                    false statement charges. The OIG investigation discovered that while he
                                    was on disability for an injury that he sustained in February 1988 during
                                    his employment at the Newport News Shipyard in Newport News,
                                    Virginia, Chehovich worked as a construction worker and did not report
                                    his earnings. U.S. v. Chehovich (E.D. Virginia)

         Former Medical Technician Sentenced for
         Defrauding FECA Program

                                    On July 20, 1999, after a joint Health and Human Services OIG
                                    investigation, Louis Francis Johnson was sentenced to six years’
                                    probation and six months in an electronic monitoring program, was
                                    ordered to participate in a drug aftercare program, and was ordered to pay
                                    $40,000 in restitution. In March 1999, Johnson was charged and pled
                                    guilty to a one-count information for making a false statement for the
                                    purpose of obtaining compensation under the Federal Employees’
                                    Compensation Act (FECA). Johnson was receiving FECA benefits for an
                                    injury sustained in October 1995 while employed with the U.S.
                                    Department of Health and Human Services, National Institute of Health
                                    (HHS/NIH). The investigation disclosed that while Johnson was working
                                    as an EEG technician and collecting FECA benefits, he falsified
                                    numerous documents by not reporting and/or underreporting wages
                                    obtained from his employment at three hospitals and a doctor’s office.
                                    Johnson collected over $51,800 in FECA benefits. U.S. v. Johnson (D.
                                    Columbia)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           73
     A Secure
     Workforce
                                                 Worker Benefits Investigations




      Newspaper Owner Defrauds FECA Program

                            Rochel Haigh Blehr, the owner of The Environmental Times, an Atlanta
                            newspaper, was sentenced on April 28, 1999, to five years’ probation, six
                            months’ home confinement, and community service not to exceed 100
                            hours, and was ordered to pay $25,000 in restitution to OWCP. The OIG
                            investigation revealed that Blehr sold advertising for her newspaper and
                            instead of receiving money for the ads, she bartered for goods and
                            services. Some of the goods and services she received included a
                            satellite dish, orthodontic treatment, kitchen appliances, office furniture,
                            and other similar goods and services. Even though Blehr was an active
                            businesswoman, she alleged minimal physical abilities and no income
                            other than her FECA disability payments that she began receiving from
                            OWCP in May 1985. In January 1999, Blehr pled guilty to one count of
                            FECA fraud, after having been charged in October 1998. OWCP
                            terminated Blehr’s FECA benefits effective January 5, 1999, the day of
                            her guilty plea. U.S. v. Blehr (N.D. Georgia)

      Real Estate Agent Sentenced for FECA Fraud

                            On April 26, 1999, Flora Mills, a former postal employee, was sentenced
                            to three years’ probation, with the first 120 days in home confinement, and
                            was ordered to pay $19,093 in restitution to OWCP. Mills was employed
                            as a real estate agent for Century 21 while she fraudulently collected
                            benefits for an alleged on-the-job injury that occurred in December 1996
                            in an on-duty automobile accident. The joint investigation with the U.S.
                            Postal Inspection Service disclosed that, following the accident, Mills
                            attended real estate sales courses while she was receiving continuation
                            of pay benefits. Mills continued to pursue a career in real estate while
                            receiving benefits from OWCP. In 1998, Mills became a member of the
                            Century 21 Million Dollar Club by selling over $1 million in real estate
                            during a one-year period. In January 1999, Mills was charged and pled
                            guilty to one count of FECA fraud. U.S. v. Mills (N.D. Texas)




                                                                           Semiannual Report to the Congress
74                                                                           April 1, 1999–September 30, 1999
  Fostering Quality
  Workplaces That
  Are Safe, Healthy,
       and Fair




   Quality
Workplaces
The key priorities for this strategic goal are to foster safe and healthy workplaces;
influence international bodies addressing core labor standards and international child
labor issues; increase the representation, advancement, and promotion of women,
people of color, veterans, and the disabled in jobs; promote increased compliance
with Family and Medical Leave Act requirements; and increase the number of workers
with access to quality child care outside the family.



In support of the Department’s goal, the OIG works to optimize the use of funds
appropriated for worker protection and workplace safety programs by enhancing
program performance and accountability. This includes conducting sufficient activities
to assess and make recommendations to significantly enhance DOL’s effectiveness
and efficiency in ensuring the workplace protections and safety and health for more
than 100 million workers at more than 6 million workplaces.
                                                                                     Quality
                                                                                    Workplaces
                   Workplace Evaluations




        Review of MSHA’s Technical Expertise in
        Approving and Certifying Mining Equipment

                                    The OIG conducted a review to determine whether the sources of
                                    scientific and technical expertise that the Mine Safety and Health
                                    Administration (MSHA) uses for certification and approval of mining
                                    equipment are adequate.

                                    Our review focused on the process MSHA employs to fulfill its approval
                                    and certification mission. We reviewed:

                                       •   whether MSHA knows what expertise it needs;

                                       •   whether the agency knows the resources it has in-house; and

                                       •   what other sources of expertise the agency uses for approval and
                                           certification of mining equipment.

                                    We had three findings: First, no systematic and recurrent review is
                                    conducted of the expertise MSHA needs to fulfill its scientific and
                                    technical mission. Second, no comprehensive and systematic analysis
                                    is conducted to determine whether the expertise MSHA has in-house
                                    matches the technical and scientific requirements to certify and approve
                                    mining equipment. Third, no systematic search is conducted for other
                                    sources of expertise to augment what resources MSHA has in-house for
                                    approval and certification of mining equipment.

                                    In order to enhance MSHA’s program of approval and certification of
                                    mining equipment, we recommended that MSHA conduct a knowledge
                                    needs assessment, track and monitor in-house expertise, and develop a
                                    methodology for identifying external bases of knowledge. The agency
                                    generally agreed with our findings and comments. (OACE Report No.
                                    2E-06-001-0005, issued September 30, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                         77
      Quality
     Workplaces
                                                 Workplace Investigations




       Company Vice President Sentenced in
       Kickback Scheme

                             On September 27, 1999, Edmond Thomas, the vice-president of T.D.
                             Engineering and Construction Inc., was sentenced for his participation in
                             a kickback scheme to two months’ imprisonment and three years’
                             probation and was ordered to pay $91,383 in restitution and to complete
                             1,000 hours of community service. In April 1999, Thomas pled guilty to
                             one count of conspiracy. Between August 1995 and December 1995,
                             Thomas and others knowingly conspired to induce employees of T.D.
                             Engineering to kickback a portion of their pay from their work on public
                             works projects, in violation of the Copeland Anti-Kickback Act.

                             T.D. Engineering obtained three government contracts totaling over $1.5
                             million to restore earthquake-damaged walls along city streets in Simi
                             Valley, California. These projects were funded by the Federal Emergency
                             Management Agency (FEMA) and the Federal Highway Administration.
                             T.D. Engineering certified on the weekly payroll that the prevailing wages
                             were paid and that it did not receive rebates (kickbacks) from its
                             employees for wages paid. Thomas’ role in the conspiracy was to collect
                             the kickbacks from the employees every week. This investigation was
                             conducted jointly with FEMA-OIG and the DOL Wage and Hour Division.
                             U.S. v. Thomas (C.D. California)

       Ohio Businessman Pleads Guilty in Contract
       Fraud Scheme

                             On May 17, 1999, Anthony Bucci pled guilty to conspiracy as a result of
                             his indictment in November 1998. As part of the plea agreement, the
                             charges against Bucci’s wife, Cheryl, will be dropped on the condition that
                             Anthony makes full restitution to the U.S. government at the time of
                             sentencing. Sentencing has been set for October 1999. The investigation
                             found that Bucci was fraudulently using minority business enterprises as
                             “fronts” on highway construction projects. Bucci’s company, Prime
                             Contractors, Inc., obtained more than $8 million of contracts from the Ohio
                             Department of Transportation for highway construction projects. In
                             obtaining these contracts, at least seven percent of the work or materials
                             had to be subcontracted to minority-owned businesses. In order to obtain


                                                                       Semiannual Report to the Congress
78                                                                      April 1, 1999–September 30, 1999
                                                                                       Quality
                                                                                      Workplaces
                Workplace Investigations




                                    the contracts and meet the requirement, Bucci would use various
                                    minority-owned businesses as “fronts” to make it appear that they were
                                    receiving at least seven percent of the contracts. In fact, these
                                    companies did no work on the projects and were usually paid a small fee
                                    by Bucci to use their names as subcontractors. In some cases, the
                                    minority-owned businesses did not even know that their names were
                                    being used. This was a joint investigation with the Internal Revenue
                                    Service. U.S. v. Bucci (N.D. Ohio)

        New Jersey Company Falsifies Payroll
        Reports

                                    On September 23, 1999, Alfred Canale, the comptroller, and
                                    Bommegowdda Lokesh, a project coordinator of Sharp Construction
                                    Company, were sentenced for making false statements in payroll reports
                                    on Federally funded projects. The company received three years
                                    probation and was fined $25,000. Canale received three years’ probation
                                    and two months in a half-way house and was fined $2,000, while Lokesh
                                    received three years’ probation and six months’ home detention and was
                                    fined $2,000. All had pled guilty in April 1999 to false statement charges,
                                    and Canale also pled guilty to conspiracy charges. In September 1998,
                                    Sharp Construction, Canale, and Lokesh were named in a 23-count
                                    indictment for conspiring to submit false payroll reports. The investigation
                                    revealed that they had been certifying one of Sharp’s subcontractors,
                                    Steinman Construction Co., as paying the Federally mandated minimum
                                    hourly wage rate for carpentry work on the renovation at the Veterans
                                    Affairs Medical Center (VAMC). Sharp, located in Ocean, N.J., had
                                    contracted with the Department of Veterans Affairs to renovate a building
                                    at VAMC in Lyons, N.J., and to perform maintenance and repair of various
                                    sites at Ft. Monmouth, N.J. Under those contracts, they were obligated
                                    to pay the prevailing wage rate as required under the Davis-Bacon Act.
                                    The contract at the VAMC was for $6.2 million and at Ft. Monmouth for
                                    $3.5 million. After sentencing, all the defendants were placed on GSA’s
                                    list of Parties Excluded from Federal Procurement and Non-Procurement
                                    Programs and were also suspended from the Army’s procurement
                                    program. This was a joint investigation with the Department of Veterans
                                    Affairs-OIG and the Criminal Investigations Division of the U.S. Army.
                                    U.S. v. Canale, et al. (D. New Jersey)


Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                             79
        Maintaining a
        Departmental
          Strategic
        Management
           Focus




    Departmental
Management Focus
The Government Performance and Results Act (GPRA) demands a more focused,
unified management approach to accomplish the goals established in the Department’s
Strategic Plan. Therefore, the Department has established an overarching strategic
management focus to effectively link strategic planning, resource allocation, and
operational activities with program strategies and to improve services provided to its
customers.



In support of the Department’s goal, the OIG assists DOL in maintaining an effective
management process. This includes conducting sufficient activities and providing
appropriate technical assistance to DOL management to ensure the effectiveness
and efficiency in the management of DOL, the integrity of financial management
systems, and the effective management of information technology.
                                                                                 Departmental
                                                                                 Management
   Bureau of Labor Statistics Audits                                                Focus




                                    The Bureau of Labor Statistics (BLS) is the principal fact-finding agency
                                    for the Federal government in the broad field of labor economics and
                                    statistics. The BLS is an independent national statistical agency that
                                    collects, processes, analyzes, and disseminates essential statistical data
                                    to the American public, the U.S. Congress, other Federal agencies, state
                                    and local governments, business, and labor. The BLS also serves as a
                                    statistical resource to DOL. BLS data must satisfy a number of criteria:
                                    relevance to current social and economic issues; timeliness in reflecting
                                    today’s rapidly changing economic conditions; accuracy and consistently
                                    high statistical quality; and impartiality in both subject matter and
                                    presentation.


        BLS Information Technology, Survey
        Processing, and Administrative Controls
        Must Be Improved

                                    On November 4, 1998, the Bureau of Labor Statistics inadvertently
                                    released part of the October 1998 employment data due to be released
                                    on November 6, 1998. The early release of sensitive economic data can
                                    affect financial markets. The BLS Commissioner requested the OIG to
                                    perform a comprehensive audit of the activities associated with this early
                                    release.

                                    On January 5, 1999, we started fieldwork on the BLS economic data
                                    security audit. Within three weeks BLS experienced two additional
                                    security incidents: (1) BLS released the Producer Price Index on January
                                    12, 1999 (one day early), and (2) an unidentified intruder (computer
                                    hacker) defaced BLS’s web page on January 22, 1999.

                                    Our audit efforts focused on physical and automated security practices
                                    and procedures in three specific areas: information technology (IT),
                                    program survey offices, and administration.

                                    In general, we found that BLS operated and managed these three areas
                                    without the benefit of sound internal controls and that pervasive problems


Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           83
 Departmental
 Management
    Focus                             Bureau of Labor Statistics Audits




                existed in BLS’ internal control structures. The audit report issued
                contains 41 recommendations which when implemented should eliminate
                or mitigate our findings. In our opinion, the absence of an effective, strong
                internal control environment contributed to the two premature releases of
                sensitive economic data and the penetration of BLS’ web page.

                    •   Information Technology—Security Vulnerabilities Identified:
                        In BLS, the Office of Technology and Survey Processing (OTSP)
                        is delegated responsibility for information technology. In OTSP,
                        we concentrated on identifying and evaluating the IT internal
                        controls and identified deficiencies in four IT environments:
                                -   Web site operations
                                -   Mainframe computer access security
                                -   Application and system software testing and
                                    protection
                                -   Local area network infrastructure.
                        We consider these areas to be critical in successfully managing
                        and protecting BLS’s information. The vulnerabilities arising from
                        these internal control deficiencies threaten the integrity of BLS’s
                        data. In our opinion, the January prerelease resulted from
                        ineffective practices related to software testing and protection.

                    •   Program Survey Offices—Inconsistent Security Practices
                        Identified:
                        We analyzed the processes and procedures required to produce
                        sensitive economic data (Producer Price Index, Consumer Price
                        Index, etc.) for release to the media and the general public. We
                        documented inconsistencies among the program survey offices
                        in their efforts to protect the preparation (confidentiality) and
                        release (time-sensitivity) of economic data. The policies and
                        procedures varied for news release preparation and in some
                        instances were fragmented and incomplete. Some of BLS’s
                        program survey offices did not provide appropriate levels of
                        protection for documents and electronic files. We concluded that
                        the weaknesses in policies and procedures over the preparation




                                                            Semiannual Report to the Congress
84                                                           April 1, 1999–September 30, 1999
                                                                              Departmental
                                                                              Management
   Bureau of Labor Statistics Audits                                             Focus




                                        and release of economic information significantly contributed to
                                        the prerelease incident in November 1998.

                                    •   Administration—Deficient Personnel Security and Management
                                        Control:
                                        We audited BLS’s administrative activities impacting on IT—
                                        personnel and management oversight. We determined that BLS
                                        had not accurately classified position sensitivity. Sensitivity
                                        classifications for most of the positions we reviewed were
                                        inaccurate, indicating most were nonsensitive when in fact the
                                        individual occupying the position had access to sensitive
                                        information. Further, many of the staff with access to sensitive
                                        information did not have appropriate security clearances. These
                                        findings demonstrated a lack of control. We also found that staff
                                        with access to economic data was not provided periodic training
                                        and reminders on ethics responsibilities and investment
                                        restrictions. We also found that BLS had undergone a number of
                                        internal and external management reviews and audits. Many
                                        provided effective recommendations which might have afforded
                                        BLS greater protection over its economic data. Unfortunately,
                                        BLS did not fully follow up on these recommendations. In our
                                        opinion, the administrative activities we reviewed failed to provide
                                        an adequate framework for (1) ensuring that BLS’s Federal and
                                        contractor staffs understand the significance of the information
                                        they handle, and (2) providing management an early warning
                                        system to identify when established procedures are breaking
                                        down or are ineffective.

                                    •   OIG’s Conclusion:
                                        BLS’s data has become increasingly difficult to protect due to
                                        technology advances over the past few years. These advances
                                        mandate that BLS invest in durable, dynamic security practices
                                        and internal control structures to reduce the risk of inadvertent or
                                        deliberate disclosure and corruption of information assets. It is
                                        imperative that BLS act promptly to correct the identified
                                        deficiencies. Further errors in the timing of news releases or other
                                        security breaches may compromise BLS’s reputation and
                                        credibility, as well as erode public confidence in BLS reports.



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                         85
 Departmental
 Management
    Focus                       Bureau of Labor Statistics Audits




                    We are generally satisfied with actions BLS is taking or has
                    completed to resolve our findings. However, one of the BLS
                    corrective actions will not be completed and implemented until
                    2002. We urge BLS to expedite its corrective actions wherever
                    possible.

                •   BLS’s Actions:
                    BLS managers and staff provided the OIG audit team their in-
                    depth analysis of the events leading up to the two premature
                    releases and the hacking into the BLS web page. In many
                    instances, BLS took corrective actions before we could
                    document the problem and develop recommendations. We found
                    our lines of communication and exchanges of information with
                    BLS’s managers and staff to be highly effective. (OA Report
                    Number 09-99-007-11-001, issued July 20, 1999)




                                                    Semiannual Report to the Congress
86                                                   April 1, 1999–September 30, 1999
                                                                                       Departmental
                                                                                       Management
                DOL Management Issues                                                     Focus


                                        The OIG annually audits the Department’s Consolidated Financial
                                        Statements. As a result of the audit work, we often identify issues related
                                        to internal controls that we believe will improve operations or result in
                                        other operating efficiencies. At the end of the audit, we summarize these
                                        issues and report them in a management letter to the Department.
                                        Following is a summary of the issues reported during the current reporting
                                        period.



DOL Management Advisory Comments

                                    •   Many Agencies Did Not Follow Written Documentation Procedures:
                                        Our FY 1998 testing of accounts payable and undelivered orders found
                                        limited or total lack of compliance with the August 10, 1998, Office of Chief
                                        Financial Officer (OCFO) memorandum, “Documentation for Year-End
                                        Accrual Estimates and Prior Year Unliquidated Obligations.” Only BLS
                                        and the Office of the Assistant Secretary for Administration and
                                        Management (OASAM) performed the required year-end accrual
                                        procedures. Sample testing results showed significant over- and under-
                                        statements.

                                    •   FECA’s Actuarial Policies and Procedures Changes May Result in
                                        Inaccurate Estimates:
                                        The Division of Planning, Policy, and Standards, within the Office of
                                        Workers’ Compensation Programs, changed how the estimate of the
                                        actuarial liability was derived and the overall method of calculating the
                                        nonchargeable portion of the actuarial liability, which may cause an
                                        unintentional change in an accounting estimate, an inconsistent and
                                        unreliable estimate of the actuarial liability, or both. Additionally, the
                                        computer software program which computes the actuarial liability was
                                        moved from a mainframe computer where files were routinely backed up
                                        to a stand-alone personal computer where an off-site backup is not
                                        performed on a regular basis.

                                    •   Job Corps Needs to Address:
                                        -   Inaccurate Accounting for Environmental Liability:
                                            The Federal government is required by law and/or regulations to
                                            remove, contain, or dispose of hazardous waste. Federal accounting


Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                                  87
 Departmental
 Management
    Focus                                DOL Management Issues




                        standards require agencies to recognize a liability and the related cost
                        of cleanup resulting from hazardous waste at the time incurred. We
                        found that ETA has identified certain environmental deficiencies in its
                        Job Corps Centers but has not recognized these liabilities in the
                        appropriate accounting periods.
                    -   Deficiencies in Managing Government Property:
                        We identified several major deficiencies in the management of
                        government property at two Job Corps Centers. These deficiencies
                        include the understatement of both beginning and ending property
                        account balances, non-reconciliation of physical inventories to the
                        Contractor Property Management System, and lack of control over
                        computer equipment.

                •   The Black Lung Disability Trust Fund Should Address Accounts
                    Receivable Issues:
                    -   Suspense Account:
                        Individual receivable balances are not always correct in the Black
                        Lung Accounting System because cash receipts that cannot be
                        matched to a receivable account are posted to a suspense account
                        and not timely resolved. The account contains unresolved cash
                        receipts dating back to 1985. On September 30, 1998, the balance in
                        the suspense account was approximately $7.5 million. Upon
                        implementation of the OIG recommendations, the balance in the
                        suspense account was reduced to approximately $1.8 million by
                        September 30, 1999. However, while the suspense account has
                        been reduced, the specific receivable accounts affected have not
                        been identified.

                    -   Overstated Accounts:
                        Balances due from responsible mine operators were overstated by
                        $715,000 because claims examiners improperly recognized
                        accounts receivable, or accounts receivable were computed
                        incorrectly. In addition, a $516,000 overstatement occurred because
                        interest was incorrectly accrued on 12 bankrupt responsible mine
                        operators. (OA Report No. 12-99-009-13-001, issued September
                        2, 1999)




                                                               Semiannual Report to the Congress
88                                                              April 1, 1999–September 30, 1999
                                                                                  Departmental
                      Longshore and                                               Management
     District of Columbia Trust Funds                                                Focus




                                    The Longshore and Harbor Workers’ Compensation Act (LHWCA),
                                    enacted in 1927, establishes a Federal compensation system for
                                    Longshore and other specific classes of workers whose injuries occur
                                    upon navigable waters of the United States or adjoining facilities like
                                    piers and dry docks. The LHWCA Fund provides compensation and, in
                                    certain cases, medical care payments to employees disabled from
                                    injuries. The original LHWCA was extended to cover employees under
                                    the District of Columbia Workmen’s Compensation Act (DCCA) Special
                                    Fund. This fund offers compensation and, in certain cases, medical care
                                    payments to District of Columbia employees for work-related injuries or
                                    death for cases with dates prior to July 26, 1982. The Employment
                                    Standards Administration (ESA), Division of Longshore and Harbor
                                    Workers’ Compensation (DLHWC), has direct responsibility for
                                    administration of these funds.


        FY 1998 LHWCA and DCCA Special Fund
        Financial Statements

                                    The OIG’s opinion is unqualified for these two special funds. The report
                                    on the LHWCA noted, however, that a prior-year weakness still exists in
                                    the internal controls for the reporting and authorization of payments to
                                    rehabilitation service providers. These control weaknesses contributed
                                    to fraudulent payments to fictitious rehabilitation venders over a four-year
                                    period. An automated payment system is currently being implemented
                                    which should correct this weakness. (OA Report Nos. 12-99-007-04-
                                    432 and 12-99-008-04-432, issued September 14, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                             89
 Departmental
 Management
    Focus                                       Year 2000 (Y2K) Audits




                           The OIG’s work in Y2K is designed to determine whether DOL is
                           adequately managing to assure that (1) all mission-critical systems are
                           Y2K compliant, and/or (2) there are acceptable contingency plans or
                           workarounds in place to ensure continuity of operations. We have been
                           working closely with the Chief Information Officer (CIO) and the Y2K
                           Director and staff to share information and discuss areas needing
                           attention. Our assessments include obtaining information system-by-
                           system in accordance with the established Y2K priority areas (benefits
                           and payments, major economic/statistical, financial, program,
                           administrative).


     Continuing Concerns about the Y2K
     Readiness of the Employment Cost Index
     and the International Price System

                           We audited the BLS’s high-profile economic and statistical reporting
                           systems—the Employment Cost Index (ECI) and the International Price
                           System (IPS)—to ensure these mission-critical systems were tested in
                           accordance with generally accepted Y2K Federal testing guidance. ECI
                           is a vital economic statistical reporting system that measures the
                           quarterly shifts among occupations and industries. Employer costs for
                           benefits, as well as wages and salaries, are covered by the ECI. IPS is
                           a vital economic statistical reporting system that produces and
                           disseminates data on the nation’s foreign trade and is the primary source
                           of information on price change in the international sector of the U. S.
                           economy. The guidance we used to audit these systems included the
                           Office of Management and Budget’s directives and the General
                           Accounting Office’s (GAO’s) guidance on developing Y2K solutions.

                           We analyzed BLS’s overall Y2K strategies, test staffing and environment,
                           test planning and execution, and documented test results. BLS Y2K
                           efforts include areas of strength, but we are concerned that risks continue
                           to exist in areas where the Chief Information Officer (CIO) may want to
                           follow up. We firmly believe the CIO can place a high degree of reliance



                                                                     Semiannual Report to the Congress
90                                                                    April 1, 1999–September 30, 1999
                                                                                    Departmental
                                                                                    Management
                    Year 2000 (Y2K) Audits                                             Focus




                                    in those areas identified in the following table as “testing strengths,” as the
                                    Y2K code remediation was performed by original developers.

                                    The CIO has been encouraged to revisit the above areas identified as
                                    “potential impact” because these items may affect systems processes.
                                    For example, a separate Y2K baseline testing process was not
                                    conducted as part of the Y2K testing procedures.

                                    The BLS disagreed with the OIG’s interpretation of the GAO and DOL
                                    guidelines as they apply to the BLS systems. In addition, the BLS states
                                    that these BLS systems have been designated “low risk” in independent
                                    verification and validation. However, we remain concerned about the ECI
                                    and the IPS and are continuing our dialogue with the CIO as we plan
                                    further work in these systems related to Y2K end-to-end testing. (OA
                                    Report Nos. [IPS] 17-99-012-11-001, issued September 20, 1999, and
                                    [ECI] 17-99-009-11-011, issued May 27, 1999)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                                91
                    Emplyment Cost Index (ECI) and International Price System (IPS)
                                Strengths and Potential Y2K Impact

                   ECI—Testing Strengths                                        IPS—Testing Strengths

     Y2K remediation performed by original developers.            Developers/programmers who were familiar with IPS
                                                                  were involved in the identification of Y2K areas of code
     Testing activities conducted in a dedicated mainframe        that are date sensitive.
     environment.
                                                                  Y2K renovation and testing were either performed or
                                                                  supported by original development staff.

                                                                  Y2K testing documentation for the IPS subsystems was
                                                                  well structured and organized.

                                                                  Y2K test plans were within the DOL and BLS Y2K
                                                                  testing guidelines.

                                                                  The unified database (UDB), for the IPS’s main
                                                                  repository was developed with four-position year fields.

                                                                  Periodic management discussions were held to review
                                                                  the status of the Y2K testing progress.

                                                                  The IPS has an established change control and
                                                                  configuration management process to track Y2K
                                                                  related and testing processes.




                     ECI—Potential Impact                                        IPS—Potential Impact

     ECI Y2K testing process did not follow GAO Testing           A separate Y2K baseline testing process was not
     Guidance in many instances.                                  conducted as part of the Y2K testing procedures.

     ECI infrastructure compliance not verified through end-to-   Independent Y2K end-to-end testing was not con-
     end testing.                                                 ducted in accordance with the General Accounting
                                                                  Office’s Y2K testing guidance.
     ECI on-line processing software compliance not thoroughly
     analyzed and tested.                                         Independent Y2K acceptance testing was not per-
                                                                  formed for all IPS subsystems.
     Software configuration management did not meet BLS
     requirements.                                                Test plans did not identify an overall interface testing
                                                                  strategy for the IPS subsystems. Interface test proce-
     Y2K testing documentation did not meet BLS requirements.     dures were not supported by, and logically linked to,
                                                                  test results documentation.

                                                                  Test plans did not identify an overall testing strategy for
                                                                  the IPS subsystems, as applicable and interface test
                                                                  procedures were not supported by, and logically linked
                                                                  to, test results documentation

                                                                  Certain components of the Y2K test environment were
                                                                  considered compliant during the Y2K testing activities.

                                                                  Documentation of Y2K testing results, supporting
                                                                  specific testing activities, was not logically linked to the
                                                                  identified points of concern.


                                                                                             Semiannual Report to the Congress
92                                                                                            April 1, 1999–September 30, 1999
                                                                                 Departmental
                                                                                 Management
                    Year 2000 (Y2K) Audits                                          Focus




        The Department of Labor Accounting and
        Related Systems Y2K Testing May Lead to
        Potential Y2K Impact



                                    The OIG audited the Department of Labor Accounting and Related
                                    Systems (DOLAR$) to obtain an objective assessment of the quality of
                                    the processes used for Y2K testing. In conducting this review, we
                                    considered the Y2K testing requirements set forth by the Department and
                                    the General Accounting Office (GAO). In addition, we assessed the
                                    DOLAR$ Y2K testing procedures by evaluating them against processes
                                    that are recognized as generally accepted software configuration
                                    management and testing practices, such as those found in Federal
                                    Information Processing Standards Publications.

                                    We compiled the following strengths and areas of potential impact from
                                    the audit and brought them to the attention of management.

                                       •   Y2K Testing Strengths:

                                           -    Test team had experience with the DOLAR$ application.

                                           -    Renovation and testing were supported by the original
                                                DOLAR$ development contractor.

                                           -    Date impact analysis on DOLAR$ was conducted by
                                                programmers familiar with DOLAR$.

                                           -    Periodic discussions were held by the test team to review
                                                progress and testing issues.

                                            -   Testing activities were conducted in a dedicated test
                                                environment, logical partition (LPAR), that replicated the
                                                production environment.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                             93
 Departmental
 Management
    Focus                            Year 2000 (Y2K) Audits




                •   Areas of Potential Y2K Impact:

                       -    DOLAR$ renovation strategy could not be linked to related
                            testing procedures.

                       -    Analysis of compliance of DOLAR$ infrastructure was not
                            available.

                       -    Analysis of compliance of DOLAR$ programming software
                            was not available.

                        -   Interface testing procedures were not logically linked to
                            documentation.

                        -   End-to-end testing was not performed.

                        -   Software configuration management procedures are not
                            formalized.

                        -   Year 2000 testing documentation was incomplete.

                The Office of the Chief Financial Officer (OCFO) disagreed with the
                OIG’s results. OFCO stated that DOLAR$ was successfully converted
                to the Y2K operating environment in January 1999. However, they plan
                to address the points raised and suggested that their comments be
                included in the basic report. The independent verification and validation
                designated the system “low risk.” The OIG believes that the noted areas
                of Y2K impact might pose a risk to the Y2K compliance of DOLAR$. (OA
                Report No. 17-99-010-13-001, issued July 26, 1999)




                                                          Semiannual Report to the Congress
94                                                         April 1, 1999–September 30, 1999
                                                                                  Departmental
                                                                                  Management
National Skill Standards Board Audits                                                Focus




                                     The National Skill Standards Board (NSSB) was created by the National
                                     Skill Standards Act of 1994 to serve as a catalyst in stimulating the
                                     development and adoption of a voluntary national system of skill standards
                                     and to develop methods to assess and certify the attainment of skill
                                     standards. The 28 board members, appointed by the President and
                                     designated members of Congress, are representatives of diverse entities
                                     interested in establishing a national system for skill standards. Board
                                     members are recognized as “special government employees for the
                                     purpose of behavior and status” and serve without compensation. To
                                     accomplish its mission, beginning with program year 1994 (July 1, 1994)
                                     through program year 1999 (ending June 30, 2000), NSSB has received
                                     a total of $33.5 million in appropriations.

                                     NSSB holds periodic board and committee meetings, usually at hotels,
                                     to develop and implement strategies to accomplish its mission. It is the
                                     responsibility of NSSB’s administrative management staff to plan and
                                     provide the logistical support for these meetings.


         NSSB Expends over $60,000 in Violation of
         Federal Travel Regulations

                                     Acting on a referral from the Department of Labor, we determined that for
                                     the period July 1996 through February 1999, NSSB inappropriately spent
                                     over $60,000 for unauthorized meals and refreshments at its board and
                                     committee meetings because it failed to follow established Federal travel
                                     regulations and DOL guidance. In addition, NSSB used a variety of
                                     means to conceal the inappropriate use of these funds.

                                     We also found that NSSB awarded an $80,350 contract to the National
                                     Center on Education and the Economy (NCEE) which under the
                                     circumstances, gave the appearance of a conflict of interest.




 Semiannual Report to the Congress
 April 1, 1999–September 30, 1999                                                                           95
 Departmental
 Management
    Focus                            National Skill Standards Board Audits




                Upon learning of the NSSB staff’s failure to follow the travel regulations
                and inappropriate splitting of bills for conferences, NSSB’s chairman
                acknowledged these inappropriate and unallowable expenditures and
                directed the staff to immediately initiate a series of corrective actions to
                resolve the findings. Further, the NSSB and NCEE have jointly canceled
                the inappropriate contract, and NSSB has deobligated $56,466 in funds
                in order to avoid even the appearance of a conflict of interest.

                We believe the corrective actions taken or planned, if fully implemented
                in accordance with applicable Federal requirements, will resolve our
                findings and prevent their future recurrence. (OA Report No. 18-99-012-
                01-300, issued Sept. 24, 1999)




                                                           Semiannual Report to the Congress
96                                                          April 1, 1999–September 30, 1999
                                                                                   Departmental
                                                                                   Management
                    Investigative Activities                                          Focus




                                    The OIG’s Office of Investigations is charged with the responsibility for
                                    conducting investigations into possible criminal activities within the
                                    Department’s programs as well as by the employees of the Department.
                                    The OIG believes that the prosecution of individuals who have violated
                                    the high standards that all Federal employees are measured against will
                                    have the long-term impact of promoting integrity in the Federal workforce.


        MSHA Supervisor Sentenced for Travel
        Voucher Fraud

                                    On July 8, 1999, Danny McGlothlin, a former supervisor with the Mine
                                    Safety and Health Administration (MSHA), was sentenced for theft of
                                    Federal funds. The sentence was the result of an investigation involving
                                    fraudulent travel vouchers submitted by McGlothlin and an MSHA
                                    secretary, Beverly Hess, who is now deceased. In 1997, McGlothlin and
                                    Hess were transferred to the MSHA District 11 office in Birmingham,
                                    Alabama. As part of their transfer, each was entitled to reimbursement for
                                    relocation expenses. The investigation revealed that the travel vouchers
                                    submitted by McGlothlin and Hess contained duplicate items as well as
                                    falsified receipts. In an interview with McGlothlin, he admitted to the
                                    scheme and as a result was terminated from his employment with MSHA,
                                    effective January 30, 1999. In April 1999, McGlothlin was charged and
                                    pled guilty to theft of Federal funds. The criminal sentence ordered
                                    McGlothlin to serve one year’s probation and pay restitution in the amount
                                    of $2,658.91. U.S. v. McGlothlin (N.D. Alabama)

        Ex-ETA Contractor Sentenced

                                    Former Employment and Training Administration (ETA) contractor
                                    James Maynard was sentenced on April 12, 1999, to three years’
                                    probation, three months’ home detention, and a $5,000 fine. Maynard,
                                    former executive vice president of Wackenhut Educational Services, had
                                    previously pled guilty to conspiracy to provide illegal gratuities and receipt
                                    of stolen DOL documents.



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                               97
 Departmental
 Management
    Focus                                      Investigative Activities




                         Norma Selvera, former deputy director of the Office of the Job Corps, was
                         previously sentenced to three years’ probation for her part in the
                         conspiracy. Selvera photocopied Job Corps contracts and other
                         documents and then gave the records to Maynard. Maynard, in turn,
                         utilized the stolen internal DOL records to prepare bids submitted by his
                         company against competing firms. This was a joint investigation with the
                         FBI. U.S. v. Maynard, et al. (D.C.)

     Ex-DOL-OFCCP Employee Charged in
     Computer Theft Ring

                         On September 23, 1999, Christopher Michael Burnside was sentenced
                         to serve one month in prison, followed by five months’ home detention,
                         and three years’ supervised probation. He was also ordered to pay the
                         costs of his confinement and make $8,400 in restitution. Burnside had
                         previously been charged with theft of Federal funds for stealing and
                         selling two computer systems belonging to the U.S. government. At the
                         time that the offense was committed, Burnside was an employee of the
                         Department of Labor, Office of Federal Contract Compliance Programs
                         (OFCCP), Columbus, Ohio. The two computers were valued at $1,400,
                         and his May 4, 1999, plea agreement states that Burnside’s relevant
                         conduct constituted compensable loss to the government of $8,400. This
                         joint investigation with the General Services Administration (GSA)
                         determined that some 450 pieces of furniture and computer equipment
                         were obtained from excess military equipment, yet only a small fraction
                         of the equipment actually showed up at the OFCCP office or on its
                         inventory. In addition to the plea, a GSA contractor has been convicted
                         and sentenced, and a total of five OFCCP employees have quit or been
                         terminated from their jobs as a result of the investigation. U.S. v.
                         Burnside (S.D. Ohio)




                                                                  Semiannual Report to the Congress
98                                                                 April 1, 1999–September 30, 1999
                                                                                 Departmental
                                                                                 Management
                 Investigative Activities                                           Focus




        MSHA Inspector Indicted for Falsifying
        Records

                                    Ronald Lee Morgan, a coal mine safety and health inspector, was indicted
                                    on May 21, 1999, and charged with five counts of making false statements
                                    concerning his official inspection notes and records. Specifically, Morgan
                                    was to inspect Solus Coal Company on various days in 1997 and 1998.
                                    It is alleged Morgan failed to properly conduct his assigned inspection
                                    duties and falsified his inspection notes to make it appear he completed
                                    his assignment. Several days following Morgan’s alleged inspection of
                                    May 13, 1997, a Solus Coal employee was killed in a roof cave-in. Morgan
                                    indicated in his notes that he was underground the entire day shift while
                                    he conducted a dust survey. Morgan allegedly was only underground for
                                    a short period of time and did not properly conduct his inspection duties.
                                    U.S. v. Morgan (W.D. Virginia)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           99
      A union or
    benefit plan is
     organized for
   the benefit of its
   members, not its
        leaders.




       Labor
Racketeering
The Department of Labor OIG is unique in that it is mandated by Congress to carry
out a criminal enforcement program to combat organized crime and labor racketeering
in the workplace. A union (or a benefit plan) is organized for the benefit of its members,
not its leaders. When racketeers take over, that relationship is inverted, with the
leadership reaping benefits by exploiting the members. Therefore, the OIG has
established a specific goal to identify and reduce labor racketeering and corruption
in employee benefit plans, labor-management relations, and internal union affairs.
                                                                                       Labor
                                                                                    Racketeering
                    Investigative Activities




                                    The IG’s objectives under this goal are to:

                                        •   conduct investigations of labor racketeering activities of pension
                                            and employee welfare benefit plan officials, plan administrators,
                                            and service providers;

                                       •    conduct industry probes into organized crime’s domination or
                                            influence over unions and employers operating in those industries;
                                            and

                                       •    conduct investigations of union corruption, including the use of
                                            all available enforcement tools to remove organized crime and to
                                            restore democratic procedures in unions.

                                    During the last six months, significant OIG investigative work was carried
                                    out in our efforts to meet these objectives. The Office of Investigations
                                    opened 62 cases, closed 38 cases and achieved 36 indictments, 42
                                    convictions, and over $3 million in monetary accomplishments.


        Civil RICO Complaint Filed Against Chicago
        Construction Council

                                    On August 11, 1999, a civil Racketeer Influenced and Corrupt
                                    Organization (RICO) Act complaint was filed by the U.S. Attorney’s
                                    Office and the Laborers’ International Union of North America (LIUNA)
                                    against the Construction and General Laborers District Council of
                                    Chicago and Vicinity. The Council is a group of 21 local unions affiliated
                                    with LIUNA. The complaint alleges that the Council has strong, pervasive
                                    ties to organized crime and that its officers and employees and its
                                    affiliated locals and funds have been chosen and controlled by organized
                                    crime.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                          103
   Labor
Racketeering
                                                   Investigative Activities




                              The complaint asks the court to appoint a trustee to oversee the
                              operations of the Council until at least such time as a rank-and-file, secret
                              ballot election can be held to elect a new executive board of the Council,
                              and until such time as a court-appointed monitor determines that the
                              Council can operate free from the influence and control of organized
                              crime. The complaint alleges that the rank-and-file members have been
                              deprived of the rights to select officers, vote without intimidation, and be
                              loyally and faithfully represented by union officers and benefit fund
                              trustees. This was a joint investigation with the FBI. U.S. v. Chicago
                              Laborers District Council (N.D. Illinois)

      Chicago Union Officials Indicted for
      Defrauding Pension Plans

                              A federal grand jury returned an 11-count indictment on August 4, 1999,
                              charging two labor union officials, John Serpico and his associate, Maria
                              Busillo, with racketeering, fraud, and other offenses. The indictment
                              alleges that Serpico and Busillo controlled the affairs of the Central States
                              Joint Board (CSJB), a Chicago-based labor organization, for their
                              personal benefit. From May 1979 to 1991, Serpico and Busillo allegedly
                              defrauded the CSJB entities by soliciting and receiving from banks,
                              including Gladstone Norwood Bank of Chicago and the former Capitol
                              Bank and Trust, at least nine personal and business loans totaling more
                              than $5 million on terms more favorable than those that the banks offered
                              to other borrowers with similar qualifications. In return, Serpico and
                              Busillo caused the CSJB entities to deposit and maintain substantial
                              funds at those banks. Serpico and Busillo had allegedly engaged in a
                              pattern of criminal activity that included multiple acts of mail fraud, labor
                              kickbacks, money laundering, and the illegal structuring of currency
                              transactions to avoid reporting requirements.

                              A third defendant, Gilbert Cataldo, was charged with scheming with
                              Serpico to obtain $333,850 in kickbacks. From July 1989 to April 1991,
                              Serpico allegedly defrauded the CSJB’s Midwest Pension Plan, the
                              CSJB Staff Pension Plan, and the International Union of Allied Novelty
                              and Production Workers by soliciting and receiving a substantial
                              kickback in exchange for influencing those entities to provide a
                              speculative mortgage loan, initially $6.5 million, for the construction of a


                                                                          Semiannual Report to the Congress
104                                                                        April 1, 1999–September 30, 1999
                                                                                       Labor
                                                                                    Racketeering
                    Investigative Activities




                                    hotel in the Trade Centre South complex in Champaign, Illinois. Serpico
                                    had previously been ousted from the Laborers International Union of
                                    North America for his association with major Chicago organized crime
                                    figures. The investigation was jointly worked with the FBI, IRS, and Office
                                    of Labor-Management Standards (OLMS). U.S. v. Serpico, et al. (N.D.
                                    Illinois)

        Individual Convicted of Health Insurance
        Fraud

                                    On September 2, 1999, George Wilson, the former president and sole
                                    shareholder of the Winston Hill Assurance Company, was convicted of
                                    18 counts of conspiracy, mail fraud, and money laundering. A federal jury
                                    returned a guilty verdict, setting the stage for Wilson’s sentencing in
                                    December 1999.

                                    The investigation determined that Wilson had laundered over $20 million
                                    in insurance premiums through his Bahamas-based company. In
                                    October 1998, a federal grand jury returned a 19-count indictment,
                                    charging two citizens of the Bahamas, George Wilson and Norwood
                                    Rolle, with conspiracy, mail fraud, and money laundering. Wilson and
                                    Rolle were the principal officers of the Winston Hill Assurance Company,
                                    a Bahamas firm chartered in 1986. They promoted their enterprise in the
                                    United States by touting its supposed strength and stability. They
                                    recommended Winston Hill as a reliable, well-established insurer with
                                    large reserves, telling American brokers that Winston Hill’s assets in the
                                    Bahamas exceeded $70 million. In fact, their company’s holdings
                                    consisted of worthless scrip: gold delivery certificates purchased from a
                                    part-time pizza delivery driver and some bogus CDs. Between 1989 and
                                    1991, Winston Hill’s agents collected over $34 million in premiums from
                                    American customers. The company supposedly insured a wide range of
                                    risks, including ERISA health insurance plan coverage in California and
                                    Texas. When it collapsed in October 1991, Winston Hill owed its
                                    claimants at least $15 million in unpaid claims. Wilson and Rolle
                                    capitalized on their customers’ good faith and funneled several million
                                    dollars to accounts in Nassau, Bahamas. U.S. v. Wilson (S.D. Texas)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           105
   Labor
Racketeering
                                                Investigative Activities




      Former Union Officers Sentenced for
      Extortion and Racketeering

                            On September 22, 1999, Dennis James Walton, former president of the
                            International Union of Operating Engineers, Local Union 675, entered a
                            plea of guilty to charges of conspiracy to commit extortion. Walton waived
                            a presentence investigation this same date and was sentenced to 18
                            months’ imprisonment followed by three years’ probation. In March 1999,
                            a jury could not render a verdict on Walton, the lead defendant in a case
                            brought against him; Joseph Gagne, Local 675’s former business
                            manager, assistant business manager, and vice president; and Roy
                            Savigliano, former business agent and treasurer of Local 675. Gagne
                            was found guilty of racketeering and racketeering conspiracy following
                            trial in March 1999 and is now scheduled to be sentenced in October
                            1999. Roy Savigliano was acquitted of all charges.

                            In May 1997, Walton, Gagne, and Savigliano were indicted on charges
                            that they threatened and harmed Local 675 members who opposed them
                            and their slate of candidates in union elections. The threats and actual
                            violence and economic injury included threats of harm to members and
                            their families, physical beatings, and shootings at union members. The
                            threatened and actual economic injury included causing union members
                            to be demoted or fired from operating engineer jobs, the denial of work
                            referrals through the union hiring hall, and punitive actions using the
                            power of the Local to discipline, fine, suspend, and expel union members.
                            Also, Walton and Gagne were indicted for subjecting employers to threats
                            and actual physical and economic injury if employers refused to enter into
                            collective bargaining agreements with Local 675 or opposed the
                            defendants in any matter related to Local 675. Employers were subject to
                            physical beatings and economic injury, including damage to employer’s
                            machinery, which was accomplished by fire, explosives, shooting with
                            firearms, and placing sand, graphite, or other abrasive material in
                            machinery oil or hydraulic fluid. The International removed Gagne,
                            Walton, and Savigliano from office after their indictment in May of 1997.
                            This case was conducted jointly with DOL’s OLMS and the FBI. U.S. v.
                            Walton, et al. (S.D. Florida)




                                                                      Semiannual Report to the Congress
106                                                                    April 1, 1999–September 30, 1999
                                                                                       Labor
                                                                                    Racketeering
                    Investigative Activities




        Former Union Steward Sentenced for
        Intimidating Members

                                    On July 7, 1999, Michael Gochis, a Teamsters Local 705 shop steward
                                    for Air Express International (AEI), an air freight company located in
                                    suburban Chicago, was sentenced for threatening and assaulting union
                                    members. Gochis was sentenced to serve six months’ incarceration to
                                    be followed by six months’ work release at the Salvation Army, to be
                                    followed further with one year’s probation. He was also ordered to make
                                    full restitution to the victim in the amount of $3,880.96.

                                    Working with the Chicago FBI, the OIG found that during contract
                                    negotiations between AEI and Local 705 in the spring of 1995, Gochis had
                                    engaged in a consistent pattern of physical threats and intimidation to
                                    fellow union members. Gochis physically assaulted a Local 705 member
                                    at AEI while attempting to force the union membership to accept a
                                    contract which the majority of the members opposed. The victim of the
                                    assault had spoken out in protest of Gochis’s intimidating tactics during
                                    a public union meeting attended by Local 705’s leadership. The next day
                                    Gochis assaulted the union member, sending him to the hospital with a rib
                                    fracture and a lumbar strain to his back. A three-count information was
                                    filed in January 1998, charging Gochis with using violence to deprive a
                                    member of union rights under the Labor-Management Reporting and
                                    Disclosure Act. He was convicted in February 1999. U.S. v. Gochis
                                    (N.D. Illinois)

        Union Employee Sentenced for
        Embezzlement

                                    Joette Marie Boring, convicted of stealing $75,000 in union funds, was
                                    sentenced for embezzlement on April 6, 1999. Boring is to serve eight
                                    months’ home detention and three years’ probation and was ordered to
                                    make $7,200 in restitution. The joint investigation with OLMS discovered
                                    that Boring, a former employee of the Operating Engineers Union, was
                                    assigned to the union’s Stockton, California, office in 1993. She was given
                                    responsibility for receiving and recording dues, fees, and assessments
                                    payable to Local 3, the Union’s northern California chapter. Her position



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           107
   Labor
Racketeering
                                               Investigative Activities




                           allowed her to divert $75,000 in local funds to her own use. She used an
                           elaborate check substitution scheme in takings that began with her
                           appointment in 1993 and ended only with her dismissal in 1996. In
                           September 1998, Boring was indicted on one count of embezzlement.
                           She pled guilty in December 1998, confessing her theft in a plea
                           agreement. U.S. v. Boring (E.D. California)

      Union Member Found Guilty of Arson

                           On June 15, 1999, a federal jury found Joseph Tavares, Jr., a member of
                           Teamsters Local 399 of Los Angeles, California, guilty of arson,
                           conspiracy to commit arson, and attempted extortion and robbery.
                           Tavares was acquitted on two counts of extortion. In April 1999, a
                           superseding indictment had been returned, adding the charges of
                           extortion and robbery, after Edward Cambra, owner of Movie Production
                           Trucks, Inc., pled guilty on April 20, 1999, to one count of conspiracy to
                           commit arson and agreed to testify against Tavares. Originally, in
                           February 1999, a Federal grand jury handed down an indictment charging
                           Joseph “Joe Boy” Tavares and George Edward Cambra with one count
                           of conspiracy to commit arson. Tavares was also charged with two
                           counts of arson.

                           The OIG investigation revealed that in the early 1990s, infighting pitted a
                           Teamsters faction aligned with Tavares against then–Local president
                           Harold Decosta and Los Angeles Local 399 secretary-treasurer Leo
                           Reed. The dispute centered around who would drive the trucks rented by
                           California-based movie and television production companies when they
                           filmed in Hawaii. The indictment states that Cambra, president of George
                           Cambra Movie Production Trucks, Inc., and Tavares were aligned
                           against two other local companies, Mokulua Consultants and Auto
                           Mastics. In 1991, California producers of a television pilot called “The
                           Raven” hired Mokulua Consultants and Auto Mastics to provide trucks for
                           filming in Hawaii. The joint investigation found that in December 1990 or
                           January 1991 Tavares and Cambra conspired to burn their competitors’
                           trucks, and Cambra agreed to pay Tavares 10 percent of his future gross
                           earnings to burn the trucks. In June 1991, Tavares and an unidentified
                           accomplice used gas and diesel fuel provided by Cambra to set fire to two
                           trucks and two trailers owned by Mokulua Consultants. They then set fire


                                                                     Semiannual Report to the Congress
108                                                                   April 1, 1999–September 30, 1999
                                                                                       Labor
                                                                                    Racketeering
                    Investigative Activities




                                    to a truck and trailer owned by Auto Mastics. In January 1992, Tavares
                                    received $500 from Cambra via a check drawn on the account of George
                                    Cambra Movie Production, Inc. Tavares received at least two more
                                    payments—$500 in February 1992 and $500 in March 1994. This
                                    investigation was conducted jointly with the FBI, IRS, Pension and
                                    Welfare Benefits Administration (PWBA), and OLMS. U.S. v. Tavares
                                    (D. Hawaii)

        Individual Convicted of Embezzling from
        Retirement Plan

                                    On July 29, 1999, Allan Huppe, a purported investment advisor, was
                                    convicted by a federal jury for embezzling from the retirement plan of
                                    Highland Nursing Home of Massena, New York. Huppe was found guilty
                                    of wire fraud and embezzlement from an employee benefit plan for
                                    transferring first $350,000 and then $400,000 of the retirement funds for
                                    the purposes of investing the money and then diverting the funds to his
                                    own accounts. His sentencing is scheduled for November 1999.

                                    This investigation, conducted jointly with the FBI and PWBA, uncovered
                                    a scheme where Huppe professed to potential clients that he was an
                                    investment advisor who owned Navy Street Bancorp and worked in
                                    Ontario, Canada. He told Edward Kaneb, a trustee of the Highland
                                    Nursing Home Plan that, at no risk to plan assets, he would enter into a
                                    program to purchase and sell financial instruments rated AA or better from
                                    the top 50 world prime banks. Huppe said he would repay the plan out of
                                    trading profits. In September and October 1993, $350,000 and then
                                    $400,000 of the plan’s funds were wired to Huppe’s account at the Royal
                                    Bank of Canada in Oakville, Ontario, and to the Bank of N.T. Butterfield
                                    in Bermuda. In September 1997, Huppe transferred $200,000 from the
                                    Royal Bank of Canada to Chase Manhattan Bank in Garden City, New
                                    York, and later arranged for $400,000 to be returned to a Navy Street
                                    account in the Royal Bank of Canada. Huppe, together with others,
                                    further directed money to be distributed to a bank in Nigeria and to a bank
                                    in Japan and then converted funds into certified checks. On repeated
                                    occasions, Huppe provided written confirmation to the plan indicating that
                                    the deposit balances at Navy Street Bancorp were in excess of $750,000,




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           109
   Labor
Racketeering
                                                Investigative Activities




                            when in fact the funds had been disbursed. In fact, he allegedly used the
                            funds for various personal purposes. In August 1998, Allan Huppe was
                            indicted and charged with three counts of wire fraud and one count of
                            embezzlement from an ERISA benefit fund for embezzling $750,000 from
                            the Highland Nursing Home, Inc., Retirement Plan in Massena, New
                            York. U.S. v. Huppe (N.D. New York)

      Defendants Sentenced in a Complex Health
      Plan Scheme

                            On June 18, 1999, James S. Anderson, owner of Toledo Pipe Transport
                            and Central Trux and Parts, and his son, Mark, were sentenced for
                            violations stemming from their scheme of laundering drug money for
                            Colombians. The scheme included embezzling from an employee health
                            benefit plan. James Anderson was sentenced to 41 months’
                            incarceration, followed by 36 months’ probation, and was ordered to
                            make restitution to the Teamsters Central States Health and Welfare
                            Fund in the amount of $14,096.59. Mark Anderson was sentenced to 21
                            months’ incarceration, followed by 24 months’ probation, and was
                            ordered to make restitution to the Fund in the amount of $17,719.52, and
                            to the IRS in the amount of $10,978.07, totaling $28,697.59. On July 7,
                            1999, Kevin Anderson, another of James Andersons’s sons, was
                            sentenced to two months’ incarceration and five months’ home
                            confinement, followed by two years’ probation, and was ordered to make
                            restitution to the Fund in the amount of $223.64.

                            In October 1998, the defendants pled guilty to charges of money
                            laundering, smuggling, falsifying U.S. Customs Service documents,
                            embezzlement from an employee health benefit plan, false statements on
                            ERISA documents, excise and income tax evasion, and RICO violations.
                            The labor violations resulted from Anderson and his sons becoming
                            Teamsters Local 20 members, knowing that, as owners/officers of
                            Toledo Pipe Transport, they were in conflict with the provisions of their
                            collective bargaining agreement. They masked their ownership and
                            joined the union to enable themselves to receive medical benefits from the
                            health and welfare plan. This joint investigation with the U.S. Customs
                            Service and the IRS found that James Anderson used his businesses,
                            employees, and members of his family to launder drug money for


                                                                      Semiannual Report to the Congress
110                                                                    April 1, 1999–September 30, 1999
                                                                                       Labor
                                                                                    Racketeering
                    Investigative Activities




                                    Colombian drug cartels. The Anderson enterprise received large sums of
                                    currency directly from Colombians and utilized those funds to purchase
                                    trucks and truck parts, which were subsequently shipped to Colombia
                                    and/or used in Anderson’s companies. The investigation yielded
                                    approximately $3.5 million in currency and property that was seized as
                                    substitute assets associated with money laundering. In addition, semi-
                                    trucks, trailers, and truck parts were seized at the Detroit/Windsor border
                                    by the U.S. Customs Service and identified as being smuggled and
                                    fraudulently imported. U.S. v. Anderson, et al. (N.D. Ohio)

        Former Employee Sentenced for Embezzling
        from Health and Welfare Trust

                                    On September 17, 1999, Pamela Woods, a former employee with the
                                    South Central United Food and Commercial Workers Union and
                                    Employers Health and Welfare Trust (UFCW Trust), was sentenced to 15
                                    months’ imprisonment, three years’ probation, and was ordered to pay
                                    $94,724 in restitution. On July 2, 1999, Woods pled guilty to one count of
                                    theft or embezzlement. This joint investigation by the OIG, FBI, and
                                    PWBA uncovered an elaborate scheme to funnel money from the UFCW
                                    Trust. From 1993 to 1998, Woods, a member of Teamsters Local 19 and
                                    internal auditor for the UFCW Trust, embezzled $94,724.15 from the
                                    trust’s health and welfare plan. Woods devised a scheme in which she
                                    would locate in the computer database the names of plan participants who
                                    had been terminated or were inactive, change the names and addresses
                                    of these participants to one of several aliases she used, and have
                                    fraudulent checks issued to her home address. Once the explanation of
                                    benefit forms had been mailed to her, Woods would go back into the
                                    computer and change the name and address back to the original
                                    employee. Woods received over 200 fraudulent checks over a five-year
                                    period. U.S. v. Woods (N.D. Texas)




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                           111
        Strengthening
        Departmental
           Programs




     Legislative
Recommendations
                                                                              Legislative
                                                                                 A Secure
                                                                           Recommendations
                                                                                Workforce




        Authorize the Department to Access
        Unemployment Insurance and Social
        Security Wage Records for Purposes of
        Program Evaluation

                                    The Department of Labor needs the authority to access wage records for
                                    various purposes. They include measuring the long-term impact of
                                    employment and training services on job retention and earnings and
                                    identifying individuals who are receiving workers’ compensation
                                    disability benefits from the Department but who are actually working. With
                                    respect to measuring the long-term impact of DOL employment and
                                    training programs, we have been concerned with the Department’s
                                    inability to provide critical outcome information: What actually happened
                                    to that program participant in the long run? Did that person keep the job?
                                    Is that person making a living wage? Is that person self-sufficient?

                                    Our experience has been that outcome information is very difficult to
                                    obtain, especially if agencies cannot access Unemployment Insurance
                                    (UI) and Social Security Administration (SSA) wage records. To
                                    effectively measure the outcomes of program participants, ETA needs
                                    the authority to access UI records and SSA wage data. By the same
                                    token, as part of our oversight role, the OIG often needs to have access
                                    to SSA wage records and UI records without resorting to using its
                                    subpoena authority, which while always successful in obtaining the
                                    requested data, is often time consuming and difficult. Like the
                                    Department, the OIG does not have statutory access to SSA wage
                                    records. The lack of access has caused problems for us in the past and
                                    has proven to be a major impediment to our ability to assess long-term
                                    program impact.




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                          115
   Legislative
Recommendations




      Ensure the Integrity of the Federal
      Employees’ Compensation Act

                              There are three areas in the Federal Employees’ Compensation Act
                              (FECA) in which legislative changes would result in significant savings
                              for the government. These issues include changing benefits for older
                              beneficiaries, returning a three-day waiting period to the beginning of the
                              claims process, and providing the OIG and the Office of Workers’
                              Compensation Programs (OWCP) the authority to access the SSA’s
                              wage records in order to identify claimants defrauding the program.

                                  •   Move people into a form of retirement (FECA annuity or Office of
                                      Personnel Management retirement) after a certain age if they are
                                      still injured:
                                      Currently, FECA beneficiaries are not required to “retire” at any
                                      age. Consequently, a large percentage of FECA beneficiaries
                                      have effectively retired on workers’ compensation and continue
                                      to receive tax-free compensation beyond the normal retirement
                                      age. The General Accounting Office (GAO) has reported that 60
                                      percent of the approximately 44,000 long-term beneficiaries
                                      receiving compensation benefits in 1995 were 55 years or older
                                      and 37 percent were 65 years or older. Moreover, of the $1.28
                                      billion in compensation benefits paid in 1995, about $611 million
                                      went to those 55 years and over.
                                      The OIG is concerned that there is an unintended incentive for
                                      claimants to remain on the disability rolls because their tax-free
                                      benefits may be greater than their taxed benefits in a Federal
                                      retirement program. The OIG concurs with GAO’s assessment
                                      that anyone crafting legislation should consider either converting
                                      injured workers from FECA benefits to retirement benefits at the
                                      normal retirement age or converting FECA wage-loss
                                      compensation benefits to a FECA annuity benefit. This type of
                                      legislative change would ultimately deter beneficiaries from
                                      “retiring” on FECA and result in cost savings for the government.




                                                                        Semiannual Report to the Congress
116                                                                      April 1, 1999–September 30, 1999
                                                                                Legislative
                                                                                   A Secure
                                                                             Recommendations
                                                                                  Workforce




                                        •   Require a three-day waiting period before the continuation of pay
                                            (COP) period begins following injury:
                                            FECA currently has a provision that allows employees who
                                            sustain disabling job-related traumatic injuries to receive
                                            continuation of their regular pay for a period not to exceed 45
                                            calendar days after the injuries. This COP period was included in
                                            the statute in order to overcome any temporary income loss due
                                            to delays in adjudication of their claims. Prior to 1974, FECA
                                            required employees to use accrued sick leave or leave without
                                            pay for a period of three days before the COP period would begin.
                                            This three-day period was established in order to limit the number
                                            of frivolous claims coming into the Office of Workers’
                                            Compensation Programs. Currently, the three-day period is at
                                            the end of the COP period. The FECA statute should be changed
                                            back to requiring a three-day waiting period at the beginning of the
                                            compensation process.

                                        •   Obtain access to SSA records to identify those individuals whose
                                            benefits need to be reduced or who need to be removed from the
                                            FECA rolls:
                                            This is fully discussed under the proposal to authorize the
                                            Department to access UI and SSA wage records for purposes of
                                            program evaluation.

        Strengthen Audit and Enforcement of the
        Employee Retirement Income Security Act of
        1974

                                    •   Continue to recommend the repeal of the Employee Retirement
                                        Income Security Act’s (ERISA’s) limited-scope audit provision to
                                        require full-scope audits of all pension plan assets required to be
                                        audited under ERISA:
                                        The limited-scope provision results in inadequate auditing of pension
                                        plan assets because it exempts from audit all pension plan funds that
                                        have been invested in institutions such as savings and loans, banks,
                                        or insurance companies already regulated by Federal or state
                                        governments. At the time ERISA was passed two decades ago, it


Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                            117
   Legislative
Recommendations



                      was assumed that all of the funds invested in those regulated
                      institutions were being adequately reviewed. Unfortunately, as we
                      have found from the savings and loan crisis, that is not always the
                      case.
                      Currently, because of this provision, independent public accountants
                      (IPAs) conducting audits of pension plans cannot render an opinion
                      on the plans’ financial statements in accordance with professional
                      auditing standards. It is important to note that the disclaimer of any
                      opinion on the financial statements includes even those assets that
                      are not held by financial institutions. These “no opinion”’ audits
                      provide no substantive assurance of asset integrity to benefit
                      participants or the Department.

                  •   Require that IPAs and plan administrators be required to report
                      serious ERISA violations directly to the Department:
                      This requirement will enhance oversight of pension plan assets,
                      ensure the timely reporting of violations, and involve accountants in
                      the kind of active role that they are supposed to play in the
                      safeguarding of pension assets. The requirement will provide a first
                      line of defense to plan participants through their timely and direct
                      reporting of potential problems with employee benefit plans.

                  •   Address the bogus union problem by defining what constitutes a bona
                      fide union:
                      Under ERISA, health plans that are part of a union’s collective
                      bargaining agreements are exempt from state regulation. For years,
                      many unions have run completely legitimate health plans under this
                      exemption. However, our investigations have shown that fraudulent
                      plans have been misusing this exemption as a “safe harbor” from
                      state regulation in order to sign up small businesses for benefits that
                      they may never see. These bogus unions generally fail to do the kinds
                      of things that typically define a union, such as truly providing
                      representation to members with respect to labor-management
                      issues. In 1995, the Department issued draft regulations that
                      attempted to address the bogus union problem by clarifying what
                      constitutes a bona fide union for the purpose of providing health
                      insurance. The regulatory language was incorporated into the early
                      drafts of the Health Insurance Portability and Accountability Act of
                      1996. However, the regulatory language never became law, and the
                      bogus union problem still remains.


                                                            Semiannual Report to the Congress
118                                                          April 1, 1999–September 30, 1999
  Reports and
   Statistics




Appendix
                                                                                                              Appendix
                    Reporting Requirements




Requirements Under the Inspector General Act of 1978

Section 4(a)(2) - Review of Legislation and Regulation ............................................................ 113
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies............................................... All
Section 5(a)(2) - Recommendations with Respect to Significant Problems,
   Abuses, and Deficiencies ...................................................................................................... All
Section 5(a)(3) - Prior Significant Recommendations on Which
   Corrective Action Has Not Been Completed ................................................................. 128-137
Section 5(a)(4) - Matters Referred to Prosecutive Authorities ...................................................... 12
Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
   Information Was Refused ................................................................................................. None
Section 5(a)(6) - List of Audit Reports ................................................................................. 138-145
Section 5(a)(7) - Summary of Significant Reports ........................................................................ All
Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs ............... 125
Section 5(a)(9) - Statistical Tables on Management Decisions on
   Recommendations That Funds Be Put to Better Use ........................................................... 123
Section 5(a)(10) - Summary of Each Audit Report Over Six Months Old for
   Which No Management Decision Has Been Made ....................................................... 128-137
Section 5(a)(11) - Description and Explanation for Any Significant
   Revised Management Decision ........................................................................................ None
Section 5(a)(12) - Information on Any Significant Management Decisions with
   Which the Inspector General Disagrees ............................................................................ None

Senate Report No. 96-829

Resolution of Audits ........................................................................................................... 138-145
Money Owed to the Department ................................................................................................ 127



Note: This table cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as amended, and
Senate Report No. 96-829 (Supplemental 1980 Appropriations and Rescissions Bill) to the specific pages where they are addressed.
The amount of “delinquent debts” owed to the Department can be found in the annual Consolidated Financial Statement Audit.



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                                                   121
      Appendix
                                                                  Explanation of Audit Schedules



Questioned Costs

This schedule shows the extent to which DOL management has taken steps, during the six-month reporting
period, to resolve the costs questioned as having been improperly expended. Audit resolution occurs when
management either agrees with the auditor’s finding and disallows those costs that were questioned or
management decides that the expenditure should be allowed. (This schedule is required by Section 5(a)(8)
of the Inspector General Act, as amended.)

Disallowed Costs

This schedule presents the activity for costs that have been disallowed during the six-month period. This
schedule is included in the OIG Semiannual Report to demonstrate the flow of information to the Secretary’s
Semiannual Management Report, which is issued by the Secretary as required by Section 5(b)(2) of the
Inspector General Act, as amended.

Recommendations that Funds Be Put to Better Use

These schedules depict the activity during the six-month reporting period for those funds that were
recommended by the auditor to be put to better use. These schedules are included in the OIG Semiannual
Report to demonstrate the flow of information to the Secretary’s Semiannual Management Report, which is
issued by the Secretary as required by Section 5(b)(3) of the Inspector General Act, as amended.

Unresolved Audits Over Six Months Old

This schedule presents a summary of all audit reports that continue to remain unresolved for more than six
months. For these reports, a management decision is still outstanding. (This schedule is required by Section
5(a)(10) of the Inspector General Act, as amended.)

Reports Issued by the OIG

This schedule is a listing, subdivided according to subject matter, of all reports that were issued by the OIG
during the six-month reporting period, as required by Section 5(a)(6) of the Inspector General Act, as
amended. This listing also provides for each report, where applicable, the total dollar value of questioned costs
and the total dollar value of recommendations that funds be put to better use.



Note: The schedule that lists the significant audit recommendations which have not been resolved for over one year and on
which corrective action has not been completed is reported in the Secretary’s Semiannual Management Report.


                                                                                           Semiannual Report to the Congress
122                                                                                         April 1, 1999–September 30, 1999
                  Funds Put to Better Use                         Appendix
                      (Agreed to by DOL)




                                                     Number       Dollar Value
                                                     of Reports   ($ millions)


A.      For which no management decision had
        been made as of the commencement of
        the reporting period                                 6           11.3

B.      Which were issued during the reporting
        period                                               5            6.4

                Subtotals (A + B)                           11           17.7

C.      For which a management decision was made
        during the reporting period                          6

          • Dollar value of recommendations
            that were agreed to by management                            10.8

          • Dollar value of recommendations
            that were not agreed to by management                         0.2

D.      For which no management decision had been
        made as of the end of the reporting period           5            6.7

E.      For which no management decision has been
        made within six months of issuance                   3            5.4




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                 123
      Appendix                                    Funds Put to Better Use
                                                  (Implemented by DOL)




                                                        Number            Funds
                                                        of Reports        Recommended
                                                                          for Better Use
                                                                          ($ millions)

A.     For which final action had not been
       taken as of the commencement of the
       reporting period                                      4             15.1

B.     On which management decisions
       were made during the reporting period                 6             10.8

          Subtotals (A + B)                                 10             25.9

C.     For which final action was taken
       during the reporting period                           4

        • Dollar value of recommendations
          that were actually completed                                     12.9

        • Dollar value of recommendations
          that management has subsequently
          concluded should not or could
          not be implemented or completed                                   3.4

D.     For which no final action had been taken
       by the end of the period                              6              9.6




                                                                 Semiannual Report to the Congress
124                                                               April 1, 1999–September 30, 1999
  Resolution Activity Related to OIG
              Issued Audit Reports                               Appendix
                             (Questioned Costs)




                                                     Number of   Questioned
                                                     Reports     Costs
                                                                 ($ millions)


A.      For which no management decision had
        been made as of the commencement of the
        reporting period (as adjusted)                  61        45.7

B.      Which were issued during the reporting
        period                                          19        56.0

           Subtotals (A + B)                            80       101.7

C.      For which a management decision was
        made during the reporting period                25

          • Dollar value of disallowed costs                      15.7

          • Dollar value of costs not disallowed                   1.6

D.      For which no management decision had been
        made as of the end of the reporting period      55        84.4

E.      For which no management decision has been
        made within six months of issuance              37        29.7




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                125
      Appendix                                                     Agency Final Actions Related to OIG
                                                                   Issued Audit Reports (Disallowed Costs)




                                                                                Number                 Disallowed
                                                                                of Reports             Costs
                                                                                                       ($ millions)


A.     For which final action had not been taken as of
       the commencement of the reporting period                                      65                  14.8

B.     On which management decisions were made
       during the reporting period                                                   21                  15.7

            Subtotals (A + B)                                                        86                  30.5

C.     For which final action was taken during the
       reporting period*

         • Dollar value of disallowed costs that were
           recovered                                                                                      5.2

         • Dollar value of disallowed costs that were
           written off by management                                                                      0.4

D.     For which no final action had been taken by the end
       of the reporting period                                                       70               24.9**




 *     Partial recovery/write-offs are being reported in the period in which they occur. Therefore, many audit reports
       will remain open awaiting final recoveries/write-offs to be recorded.

 **    Does not include $11.1 million of disallowed costs which are under appeal.




                                                                                             Semiannual Report to the Congress
126                                                                                           April 1, 1999–September 30, 1999
               Delinquent Debts Owed to                                                         Appendix
                     DOL (As of 9/30/99)




    Agency/                           Accounts               Accounts                  Accounts
    Program                           Receivable             Receivable                Receivable
                                      Current                Delinquent                Total


    BLS                                 $60,462                $143,822                 $204,284

    ESA:

        Black Lung                   36,194,976               4,509,271               40,704,247

        FECA                         21,761,800              15,316,759               37,078,559

        Longshore                      601,758                   200,585                  802,343

        Back Wage                     1,968,645                  644,046               2,612,691

        CMP                             370,268               4,868,855                5,239,123

    ETA                              16,019,171               7,771,130               23,790,301

    MSHA                              1,928,081               7,987,890                9,915,971

    OSHA                             10,211,317              38,488,067               48,699,384

    PWBA                                972,000               9,565,000               10,537,000

    Total                           $90,088,478            $89,495,425             $179,583,903




Note: Figures provided by agencies are unaudited and may represent estimates. Amounts due to the Unemployment Trust Fund
(interagency receivables, state unemployment taxes, and benefit overpayments) are not included. Amounts due from other
Federal agencies for FECA workers’ compensation benefits paid are not included.



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                                                                   127
Appendix                                                              Unresolved Audits Over Six Months Old



                             Date                     Name of Audit                  Number of          Questioned
        Agency/Program      Issued                    Report Number               Recommendations         Costs

      Nonmonetary Recommendations and Questioned Costs
      Management Decision Being Evaluated by OIG:
      ETA/STW              07/03/96    School to Work                                   13                  135,298
                                       05-96-003-03-385
      OASAM/Admin          09/02/94    FY 93 DOL Consolidated Financials                 3                           0
                                       12-94-012-07-001
      OASAM/Admin          06/15/95    FY94 DOL Consolidated Financials                  2                           0
                                       12-95-004-07-001
      CFO/Admin            08/19/96    DOL FY95 Management Comments                      2                           0
                                       12-96-016-13-001
      CFO/Admin            05/01/96    FY95 DOL Consolidated Financials                  2                           0
                                       12-96-007-13-001
      CFO/Admin            02/28/97    FY96 DOL Consolidated Financials                  5                           0
                                       12-97-005-13-001
      CFO/Admin            02/27/98    FY97 Consolidated Financials                      16                          0
                                       12-98-002-13-001



                                                                                         Semiannual Report to the Congress
128                                                                                        April 1, 1999-September 30, 1999
Appendix                                                                Unresolved Audits Over Six Months Old



                               Date                         Name of Audit               Number of          Questioned
        Agency/Program        Issued                        Report Number            Recommendations         Costs

      CFO/Admin              10/19/98     FY97 Management Advisory Comments                 4                           0
                                          12-99-001-13-001

      CFO/Admin              02/26/99     FY98 Consolidated Financials                      8                           0
                                          12-99-002-13-001
      Under Litigation or Alternative Dispute Resolution:
      ETA/JTPA               02/25/92     East Texas Council of Governments                13                5,780,925
                                          06-92-010-03-340
      ETA/OJC                09/10/96     National Plastering Industries                    2                  145,344
                                          18-96-024-03-370
      ETA/OJC                04/21/97     Kimberly Industries, Inc.                         1                4,041,655
                                          18-97-016-03-370




                                                                                            Semiannual Report to the Congress
129                                                                                           April 1, 1999-September 30, 1999
Appendix                                                              Unresolved Audits Over Six Months Old



                              Date                     Name of Audit                  Number of          Questioned
        Agency/Program       Issued                    Report Number               Recommendations         Costs

      Program/Agency Returned Single Audit to OIG:
      ETA/OJC               04/02/96    Puerto Rico Volunteer Youth                      21                  219,435
                                        02-96-208-03-370
      ETA/OJC               04/02/96    Puerto Rico Volunteer Youth                      13                     1,716
                                        02-96-209-03-370
      ETA/OJC               05/23/96    Puerto Rico Volunteer Youth                       6                           0
                                        02-96-248-03-370
      ETA/OJC               05/23/96    Puerto Rico Volunteer Youth                       6                           0
                                        02-96-249-03-370
      MULTI/ALLDOL          04/01/96    Dept of Labor/Human Resources                    39                  287,065
                                        02-96-210-50-598
      MULTI/ALLDOL          04/01/96    Dept of Labor/Human Resources                    28                   15,943
                                        02-96-211-50-598
      MULTI/ALLDOL          04/01/96    Dept of Labor/Human Resources                    29                   60,680
                                        02-96-212-50-598




                                                                                          Semiannual Report to the Congress
130                                                                                         April 1, 1999-September 30, 1999
Appendix                                                             Unresolved Audits Over Six Months Old



                              Date                     Name of Audit                  Number of          Questioned
        Agency/Program       Issued                    Report Number               Recommendations         Costs

      Being Resolved in Conjunction with DOL Consolidated Financial Statement Audit:
      ETA/OJC               08/19/96    Job Corps Combining Schedules                     3                           0
                                        12-96-004-03-370
      Working with U.S. Department of Education to Resolve:
      ETA/STW               05/09/97    School to Work                                   17                   16,821
                                        05-97-002-03-385
      ETA/STW               05/09/97    School to Work                                   21                   34,847
                                        05-97-003-03-385
      ETA/STW               07/12/96    Capital Area Training Fund                        7                  632,460
                                        18-96-015-03-385




                                                                                          Semiannual Report to the Congress
131                                                                                         April 1, 1999-September 30, 1999
Appendix                                                                Unresolved Audits Over Six Months Old



                               Date                         Name of Audit               Number of          Questioned
        Agency/Program        Issued                        Report Number            Recommendations         Costs

      Pending Indirect Cost Negotiations:
      OASAM/OPGM            11/04/94        Homebuilders Institute                          1                  628,158
                                            18-95-001-07-735
      OASAM/OPGM            11/04/94        Homebuilders Institute                          2                  748,379
                                            18-95-002-07-735
      OASAM/OPGM            11/04/94        Homebuilders Craft Skills                       7                  353,479
                                            18-95-003-07-735
      OASAM/OPGM            09/20/95        Asociacion Nacional Pro Person                  6                   76,274
                                            18-95-025-07-735
      OASAM/OPGM            08/14/97        Consulting & Program Management                 4                  604,510
                                            18-97-025-07-735




                                                                                            Semiannual Report to the Congress
132                                                                                           April 1, 1999-September 30, 1999
Appendix                                                             Unresolved Audits Over Six Months Old



                             Date                       Name of Audit                Number of          Questioned
        Agency/Program      Issued                      Report Number             Recommendations         Costs

      Management Decision Not Yet Issued by Agency:
      ETA/ADMIN            04/07/98    Community and Senior Service                      8                   89,576
                                       18-98-007-03-001
      ETA/UIS              09/26/97    Virgin Island UI                                  8                  269,404
                                       02-97-220-03-315
      ETA/UIS              03/27/98    Iowa Workforce Development                        1                           0
                                       05-98-003-03-315
      ETA/USES             09/17/98    FL Fed Financial Assistance (Single               4                    3,864
                                       Audit)
                                       12-98-501-03-320
      ETA/USES             11/13/98    State of Indiana (Single Audit)                   2                1,338,326
                                       12-99-500-03-320
      ETA/USES             11/13/98    State of Indiana (Single Audit)                   5                  503,535
                                       12-99-501-03-320
      ETA/SESA             01/17/96    Proposed FY 96 Rental Rates                       5                  344,822
                                       06-96-001-03-325




                                                                                         Semiannual Report to the Congress
133                                                                                        April 1, 1999-September 30, 1999
Appendix                                                      Unresolved Audits Over Six Months Old



                           Date                   Name of Audit               Number of          Questioned
        Agency/Program    Issued                  Report Number            Recommendations         Costs

      ETA/SESA           03/21/97   DOL Equity in SESA Real Property              1                   79,346
                                    06-97-010-03-325
      ETA/SESA           05/05/97   DOL Equity in SESA Real Property              1                  164,471
                                    06-97-016-03-325
      ETA/SESA           05/08/97   DOL Equity in SESA Real Property              1                  150,939
                                    06-95-011-03-325
      ETA/SESA           08/13/97   DOL Equity in SESA Real Property              1                3,952,692
                                    06-97-051-03-325
      ETA/SESA           08/21/97   DOL Equity in SESA Real Property              1                  739,444
                                    06-97-053-03-325
      ETA/SESA           08/22/97   DOL Equity in SESA Real Property              1                  542,465
                                    06-97-054-03-325
      ETA/SESA           09/30/97   DOL Equity in SESA Real Property              7                           0
                                    06-97-056-03-325
      ETA/JTPA           02/20/97   Comparative Analysis of JTPA                  2                           0
                                    02-96-258-03-340




                                                                                  Semiannual Report to the Congress
134                                                                                 April 1, 1999-September 30, 1999
Appendix                                                        Unresolved Audits Over Six Months Old



                           Date                     Name of Audit                  Number of          Questioned
        Agency/Program    Issued                    Report Number               Recommendations         Costs

      ETA/JTPA           02/26/96   City of Chicago JTPA                               3                  679,773
                                    05-96-001-03-340
      ETA/JTPA           09/25/98   Cherokee Nation                                   9                   529,272
                                    06-98-009-03-340
      ETA/JTPA           03/19/99   Colorado Springs JTPA Program                     16                           0
                                    06-99-006-03-340
      ETA/DINAP          09/30/98   California Indian Manpower (Single Audit)          1                   22,244
                                    12-98-503-03-355
      ETA/DOWP           09/30/98   Audit of NAPCA                                     5                  157,872
                                    09-98-201-03-360
      ETA/DSFP           10/13/98   Idaho Migrant Council                              4                   54,170
                                    18-99-002-03-365
      ETA/OJC            02/19/99   Advantage Resource Group                           1                   23,036
                                    18-99-008-03-370
      ETA/STW            09/28/98   STW Opportunities Program in Iowa                  2                           0
                                    05-98-006-03-385




                                                                                       Semiannual Report to the Congress
135                                                                                      April 1, 1999-September 30, 1999
Appendix                                                             Unresolved Audits Over Six Months Old



                              Date                      Name of Audit                Number of          Questioned
        Agency/Program       Issued                     Report Number             Recommendations         Costs

      ESA/ADMIN            08/18/94     ESA Salaries & Expenses                          2                           0
                                        03-94-008-04-001
      ESA/FECA             03/31/98     FECA Deceased Claimant ID                        2                  439,086
                                        03-98-003-04-431
      ETA/DOWP             02/03/99     National Council of Senior Citizens             11                5,837,548
                                        18-99-007-07-735
      Congressional Action Required to Resolve:
      ETA/FLC              03/31/98     H-2A Program Could Be Better                     2                           0
                                        04-98-004-03-321
      Total Non-monetary Recommendations
      and Questioned Costs:                                                            387               29,704,874




                                                                                         Semiannual Report to the Congress
136                                                                                        April 1, 1999-September 30, 1999
Appendix                                                              Unresolved Audits Over Six Months Old



                               Date                      Name of Audit                Number of          Questioned
        Agency/Program        Issued                     Report Number             Recommendations         Costs

      Total Funds Recommended for Better Use:
      Management Decision Not Yet Issued by Agency:
      ETA/WTW               02/08/99     Atlanta Private Industry Council                 1                3,500,000
                                         04-99-002-03-386
      ETA/WTW               03/24/99     Policy and Technical Assistance to               1                  800,000
                                         Improve WtW
                                         05-99-008-03-386
      ETA/DOWP              02/03/99     National Council of Senior Citizens              3                1,130,000
                                         18-99-007-07-735
      Total Funds Recommended for Better Use:                                             5                5,430,000
      Total Non-Monetary Recommendations, Questioned Costs and Funds
      Recommended for Better Use:                                                       392               35,134,874




                                                                                          Semiannual Report to the Congress
137                                                                                         April 1, 1999-September 30, 1999
       Appendix                                                             Final Audit Reports Issued by the OIG
 DOL Strategic Goal


 Program Name                                        Date          Report           Number of     Questioned       Funds Put to         Other
     Name of Report                                 Issued         Number         Non-Monetary      Costs           Better Use        Monetary
                                                                                 Recommedations                                        Impact


 Goal 1 - A Prepared Workforce

 National Skill Standards

      National Skill Standards Board                9/24/99   18-99-012-01-300         0              60,861             56,466              0

 United States Employment Service

      Rhode Island’s One Stop Readiness under WIA   9/15/99   02-99-209-03-320         5                       0                  0          0

 Job Training Partnership Act

      Northern Rhode Island PIC                     8/3/99    02-99-211-03-340         0                       0     4,300,000               0

      Atlanta PIC PY 1996 JTPA Contracts            9/7/99    04-99-007-03-340         2            543,117                       0          0

      New Mexico Service Delivery Area              9/22/99   06-99-008-03-340         5            360,106                       0          0

      JTPA Title IIA’s AFDC Participant Earnings    9/24/99   06-99-011-03-340         0                       0                  0          0

 Indian and Native American Programs

      Phoenix Indian Center                         9/24/99   09-99-008-03-355        10            183,709                       0          0




                                                                                                     Semiannual Report to the Congress
138                                                                                                    April 1, 1999-September 30, 1999
       Appendix                                                                     Final Audit Reports Issued by the OIG
 DOL Strategic Goal


 Program Name                                                Date          Report           Number of     Questioned       Funds Put to         Other
     Name of Report                                         Issued         Number         Non-Monetary      Costs           Better Use        Monetary
                                                                                         Recommedations                                        Impact


 Older Workers Program

      AARP Insurance Policy                                 8/12/99   18-99-010-03-360         2          1,257,013                       0          0

      National Council of Senior Citizens/National Senior   9/24/99   18-99-011-03-360         4          2,778,260            900,000               0
      Citizens Education & Research Center

 Job Corps Program

      Job Corps Loans & Advances                            4/7/99    03-99-009-03-370         2                       0       686,827               0

      Keystone Job Corps Center                             7/23/99   04-99-006-03-370         1               1,611                      0          0

      Talking Leaves Job Corps Center                       9/22/99   06-99-010-03-370         9          1,052,574                       0          0

      Brero Construction Company                            6/2/99    18-99-009-03-370         0          1,418,410                       0          0

 School-to-Work Program

      School-to-Work Sustainability Roll-up                 5/14/99   05-99-012-03-385         2                       0                  0          0




                                                                                                             Semiannual Report to the Congress
139                                                                                                            April 1, 1999-September 30, 1999
       Appendix                                                                  Final Audit Reports Issued by the OIG
 DOL Strategic Goal


 Program Name                                             Date          Report           Number of     Questioned       Funds Put to         Other
     Name of Report                                      Issued         Number         Non-Monetary      Costs           Better Use        Monetary
                                                                                      Recommedations                                        Impact


 Welfare-to-Work Program

      Pinellas WDB                                       4/5/99    03-99-011-03-386         0                       0                  0          0

      SE Community College Grant                         4/1/99    03-99-012-03-386         0                       0                  0          0

      Richmond Private Industry Council                  5/17/99   03-99-013-03-386         0                       0                  0          0

      Alexandria RHA Grant                               5/5/99    03-99-014-03-386         0                       0                  0          0

      District 1199c Training & Upgrade                  5/10/99   03-99-015-03-386         0                       0                  0          0

      Welfare-to-Work Competitive Grant Implementation   9/27/99   03-99-017-03-386         0                       0                  0          0

      Welfare-to-Work Formula Grant Implementation       9/20/99   03-99-018-03-386         7                       0                  0          0

      Chicago Housing Authority                          7/22/99   05-99-010-03-386         0                       0                  0          0

      Columbus Urban League                              7/15/99   05-99-011-03-386         0                       0                  0          0

      CEDA of Cook County                                7/27/99   05-99-013-03-386         0                       0                  0          0

      City of Gary-DHHS                                  7/27/99   05-99-014-03-386         0                       0                  0          0

      Full Employment Council                            7/28/99   05-99-015-03-386         0                       0                  0          0

      Action for Boston Community                        8/5/99    05-99-016-03-386         0                       0                  0          0




                                                                                                          Semiannual Report to the Congress
140                                                                                                         April 1, 1999-September 30, 1999
       Appendix                                                                 Final Audit Reports Issued by the OIG
 DOL Strategic Goal


 Program Name                                            Date          Report           Number of     Questioned       Funds Put to         Other
     Name of Report                                     Issued         Number         Non-Monetary      Costs           Better Use        Monetary
                                                                                     Recommedations                                        Impact


      Bennett College                                   8/3/99    05-99-017-03-386         0                       0                  0          0

      Wildcat Service Corporation                       8/13/99   05-99-018-03-386         0                       0                  0          0

      San Diego Workforce                               8/5/99    05-99-019-03-386         0                       0                  0          0

      Second Round Welfare-to-Work Survey Results       9/20/99   05-99-020-03-386        10                       0       474,698               0

      Welfare-to-Work Implementation - Limited Survey   5/10/99   06-99-007-03-386         0                       0                  0          0

 Workforce Investment Act

      Impact of WIA Administrative Cost Limitations     9/24/99   20-99-006-03-390         0                       0                  0          0

 Single Audit

      Hawaii Department of Education                    9/23/99   18-99-501-03-385         0              50,000                      0          0

      South Texas Workforce Development Board           9/23/99   18-99-503-03-340         0              19,811                      0          0

      Lancaster County School District #001             9/23/99   18-99-505-03-385         0              11,884                      0          0

      Eastern Kentucky CEP                              9/23/99   18-99-504-03-340         0              51,397                      0          0




                                                                                                         Semiannual Report to the Congress
141                                                                                                        April 1, 1999-September 30, 1999
       Appendix                                                                      Final Audit Reports Issued by the OIG
 DOL Strategic Goal


 Program Name                                                 Date          Report           Number of     Questioned       Funds Put to         Other
     Name of Report                                          Issued         Number         Non-Monetary      Costs           Better Use        Monetary
                                                                                          Recommedations                                        Impact


 Bureau of Labor Statistics

      BLS’ Employment Cost Index System: Year 2000           5/27/99   17-99-009-11-001         0                       0                  0          0
      Quality Assurance Review

      BLS’ International Price System: Year 2000             9/20/99   17-99-012-11-001         0                       0                  0          0
      Quality Assurance Review

      BLS Economic Data Security                             7/20/99   09-99-007-11-001        41                       0                  0          0

                                                             Goal             40               100          7,788,753         6,417,991               0
                                                             Totals


 Goal 2 - A Secure Workforce: Income Security

 Unemployment Insurance Service

      Improving State UI Field Audits                        8/3/99    03-99-008-03-315         1                       0                  0          0

      Department of Treasury Administrative Charges to the   9/21/99   06-99-012-03-315         3          47,880,572                      0          0
      Unemployment Trust Fund




                                                                                                              Semiannual Report to the Congress
142                                                                                                             April 1, 1999-September 30, 1999
       Appendix                                                                  Final Audit Reports Issued by the OIG
 DOL Strategic Goal


 Program Name                                             Date          Report           Number of     Questioned       Funds Put to         Other
     Name of Report                                      Issued         Number         Non-Monetary      Costs           Better Use        Monetary
                                                                                      Recommedations                                        Impact


 Longshore and Harbor Workers Compensation

      DOL LHWCA Special Fund Audit                       9/14/99   12-99-007-04-432         0                       0                  0          0

      DOL DCCA Special Fund Audit                        9/14/99   12-99-008-04-432         0                       0                  0          0

 Coal Mine Workers Compensation (Black Lung)

      Black Lung and Social Security Memorandum of       4/8/99    17-99-008-04-433         1                       0                  0          0
      Understanding

                                                         Goal             5                 5          47,880,572                      0          0
                                                         Totals


 Maintaining a Departmental Strategic Management Focus

 OIG Management

      Confidential Funds                                 5/18/99   12-99-003-09-001         5                       0                  0          0

 CFO Management

      FY 1998 Management Advisory Comments               9/2/99    12-99-009-13-001        38                   30                     0          0

      DOLAR$ Year 2000 Testing                           7/26/99   17-99-010-13-001         0                       0                  0          0




                                                                                                          Semiannual Report to the Congress
143                                                                                                         April 1, 1999-September 30, 1999
       Appendix                                                         Final Audit Reports Issued by the OIG
 DOL Strategic Goal


 Program Name                                    Date          Report           Number of     Questioned    Funds Put to         Other
     Name of Report                             Issued         Number         Non-Monetary      Costs        Better Use        Monetary
                                                                             Recommedations                                     Impact


 All Department of Labor Agencies

      Milwaukee Area American Indian Manpower   9/16/99   05-99-009-50-598         4            352,693                    0          0

      SER Corporation of Kansas                 9/20/99   05-99-021-50-598         2               3,783                   0          0

                                                Goal             5                49            356,506                    0          0
                                                Totals

                                                Totals           50               154         56,025,831      6,417,991               0




                                                                                                 Semiannual Report to the Congress
144                                                                                                April 1, 1999-September 30, 1999
      Appendix                                                                  Final Evaluation Reports Issued by the OIG

 DOL Strategic Goal


 Program Name                                                   Date         Report          Number of      Questioned   Funds Put      Other
     Name of Report                                            Issued        Number         Non-Monetary      Costs       to Better   Monetary
                                                                                          Recommendations                    Use       Impact

 Goal 2 - A Secure Workforce

      Review of Medical Reimbursements and Authorization of    5/17/99   2E-04-430-0001         1               0          N/A         N/A
      Surgical Requests for the Office of Workers’
      Compensation Programs



      Review of Federal Employees’ Compensation                5/17/99   2E-04-431-0002         6               0          N/A         N/A
      Program Customer Service Surveys for the Employment
      Standards Administration



      Review of Non-Chargeable Claimants Under the Federal     9/24/99   2E-04-431-0001         1               0          N/A         N/A
      Employees’ Compensation
      Act (FECA)



 Goal 3 - Quality Workplaces

      Review of the Mine Safety and Health Administration’s    9/30/99   2E-06-001-0005         3               0          N/A         N/A
      Technical Expertise in Approving and Certifying Mining
      Equipment




                                                                                                                 Semiannual Report to the Congress
145                                                                                                                April 1, 1999-September 30, 1999
      Appendix                                    Investigations
                                                  Detail of Accomplishments




                                                   Division
                                                   Totals           Totals
Cases Opened:
     Program Fraud                                   176
     Labor Racketeering                               62               238

Cases Closed:
     Program Fraud                                   197
     Labor Racketeering                               39               236

Cases Referred for Prosecution:
     Program Fraud                                    88
     Labor Racketeering                               41               129

Cases Referred for Administrative/Civil Action:
     Program Fraud                                    23
     Labor Racketeering                                0                23

Indictments:
      Program Fraud                                   76
      Labor Racketeering                              36               112

Convictions:
     Program Fraud                                   102
     Labor Racketeering                               42               144

Debarments:
     Program Fraud                                     2
     Labor Racketeering                               37                39

Recoveries, Cost Efficiencies,
Restitutions, Fines/Penalties,
Forfeitures, and Civil Monetary Actions:
      Program Fraud                          $12,977,502
      Labor Racketeering                      $5,636,841      $18,614,343



                                                                Semiannual Report to the Congress
146                                                              April 1, 1999–September 30, 1999
                         Investigations                         Appendix
            Financial Accomplishments




Categories                                                       Amount
Recoveries:                                                      $1,636,491
     (The dollar amount/value of an agency’s action
     to recover or reprogram funds or to make other
     adjustments in response to OIG investigations.)

Cost Efficiencies:                                               $4,599,593
      (The one-time or per annum dollar amount/value of
      management’s commitment, in response to OIG
      investigations, to more efficiently utilize the
      government’s resources.)

Restitutions:                                                    $8,607,936
      (The dollar amount/value of restitutions resulting
       from OIG criminal investigations.)

Fines/Penalties:                                                  $463,773
      (The dollar amount/value of fines, assessments,
      seizures, investigative/court costs, or other penalties
      resulting from OIG criminal investigations.

Civil/Monetary Actions:                                          $3,306,550
       (The dollar amount/value of forfeitures settlements,
       damages, judgements, court costs, or other penalties
       resulting from OIG civil investigations.)


Total:                                                          $18,614,343




Semiannual Report to the Congress
April 1, 1999–September 30, 1999                                              147
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced     Monetary

Employee Misconduct

Burnside, Michael C.                                       X             X                            $0
College of West Virginia                                                                        $250,000
London, Cheryl Renee                                                     X            X              $75
London, Thurman                                                          X                            $0
McFadden, Jacqueline                                       X             X            X             $600
McGlothlin, Danny                                          X             X            X           $2,684
Morgan, Ronald                                             X                                          $0
Willard, Lewis                                             X                                          $0
   Total                                                   5             5            3         $253,359

ESA-Black Lung

Adkins, Paul                                                             X            X        $1,628,232
Angulo, Dorothy G.                                         X             X            X           $18,821
Cool, Willa Jean                                                         X            X           $32,012
Independent Home Medical                                                              X        $1,028,833
McConnell, Doris J.                                                                   X              $100
McConnell, Marsha L.                                                                  X              $100
Milam, Peggy                                                                          X           $12,571
Vernado, Edna                                                            X            X           $24,058
   Total                                                   1             4            8        $2,744,727

ESA-FECA

Barnett, Richard L.                                                                             $200,000
Baros, Nicanor                                             X             X            X           $8,501
Billings, Charles W.                                       X                                          $0
Blehr, Rochel                                                                         X          $31,025
Campos, Lucy                                                             X                            $0
Chao, Aileen                                                                          X          $21,187
Critchell, Charles E.                                      X                                          $0
Degrado, Catherine                                                       X            X               $0
Degrado, Vincent                                                                                $205,598
Dockery, Herbert Donald                                    X                                          $0
Earnest, Barbara S.                                        X             X                            $0
Emerson, Shirley A.                                        X                                          $0
Evans, David L                                             X             X                            $0
Glick-Scroggins, Beth Ann                                  X                                          $0
Gonzales, Gilbert R.                                       X                                          $0
Granger, Eva                                               X             X                            $0




Semiannual Report to the Congress April 1, 1999-September 30, 1999
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced     Monetary


Groth, Patricia                                            X             X                             $0
Guilford, Mark L.                                          X             X            X            $9,669
Gyergyo, John A.                                                                      X           $14,524
Hardenbrook, Wendy A.                                      X             X            X               $50
Helton, Larry G.                                                                      X           $82,852
Hoss, John L.                                                            X                             $0
Johnson, Louis                                                                        X           $40,100
Kelley, Kathleen L.                                        X             X                             $0
Keyes, Larry                                                                                      $33,000
Kramer, John Yurick                                        X                                           $0
Krol, Wayne                                                X                                           $0
Marin, Philip                                              X                                           $0
Marmer, Jeffrey                                                                       X            $3,650
McKinney, Janet                                                                                    $1,080
McQueen, Calvin L.                                         X             X            X           $91,623
Mills, Flora                                                                          X           $29,193
Minnelli, Patricia A.                                      X                                           $0
Nessman, Lawrence                                          X             X                             $0
Pascucci, Nicholas                                                                    X          $325,309
Pena, Donney                                                             X            X           $12,000
Pilger, Merle A.                                           X             X            X           $21,361
Pouncey, Thaddis                                           X             X                             $0
Reed, Sr., Robert E.                                                                  X               $25
Reyes, Patricia Yvonne                                                   X                             $0
Richardson, Donald                                         X             X                             $0
Rogers, Jerry Rodney                                                     X            X            $8,350
Romero, Maria Concepcion                                                 X            X          $101,601
Schneider, John T.                                         X                                           $0
Sforza, Alfred                                                                        X           $19,289
Sheehan, Robert D.                                         X             X                             $0
Standridge, J.                                             X             X                             $0
Struzzieri, Anthony                                                      X            X           $66,910
Sullivan, Adam                                             X                                           $0
Vendetti, Vincent                                                                     X                $0
Wagner, Connie                                             X             X            X            $8,025
Walker, Doretha                                            X                                           $0
Weiss, Kathleen                                                                       X            $3,025
Wells, Carolyn H.                                                        X            X           $64,188
   Total                                                  30             25           24       $1,402,135




Semiannual Report to the Congress April 1, 1999-September 30, 1999
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced   Monetary

ESA-Long Shore

Blake, Jewel Delanders                                                   X            X        $115,682
Chehovich, Edward M.                                                                  X          $9,194
Slater, Michael E.                                         X                                         $0
   Total                                                   1             1            2        $124,876

ESA-Wage and Hour

***Sealed ***                                                            X                           $0
Canale, Alfred                                                           X            X          $2,100
Lokesh, Bommegowda                                                       X            X          $2,025
***Sealed ***                                                            X                           $0
***Sealed ***                                                            X                           $0
S. J. Thomas Co. Inc.                                                                           $28,000
Sayer, Sr., Robert L.                                                                            $8,884
Schon, Bella                                                             X                           $0
Schwartz, Harry                                                          X                           $0
Sharp Construction Co.                                                   X            X         $25,100
***Sealed ***                                                            X                           $0
Taub, Abraham                                                            X                           $0
Thomas, Edmond                                                           X            X        $101,433
Woldiger, Abraham                                                        X                           $0
   Total                                                   0             12           4        $167,542

ESA-Other

Lansing, Steven R.                                         X                                         $0
Vahoviak, William J.                                                     X            X         $17,813
   Total                                                   1             1            1         $17,813

ETA-Job Corps

Maynard, James                                                                        X          $5,000
   Total                                                   0             0            1          $5,000




Semiannual Report to the Congress April 1, 1999-September 30, 1999
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced     Monetary

ETA-JTPA

Amsel, Elliot                                                                         X          $725,000
Barkley, Gordon L.                                                       X            X              $110
Cantave, Gina                                                                                      $6,000
Chernick, Paul                                                                        X           $48,000
Demaio, Michael                                                                                    $3,000
Eck, Vicki E.                                              X             X                             $0
Madden, Donna                                                            X            X           $36,268
Morris, Eugene                                                                                     $4,000
Naiman, Elimelech                                                                     X           $25,000
Skime, Kevin                                               X             X                             $0
Smart, James                                                             X            X           $36,318
Upchurch, Robin Annette                                                                            $8,000
Williams, Crystal                                                                     X          $150,050
   Total                                                   2             5            7        $1,041,746

ETA-Unemployment Insurance/SESA

***Sealed ***                                              X                                          $0
Allison, Lawrence                                                                     X           $3,247
Andrejco, David A.                                                       X            X          $10,975
Astacio, Samuel                                                          X            X           $4,540
Baker, James R.                                            X                                          $0
Barbaro, Anthony J.                                                                   X          $15,425
Barry, Clark L.                                                          X            X           $4,550
Barzer, Karen                                                                         X           $3,936
Bibb-Nichols, Charlene A                                                 X            X           $1,900
Biddiscombe, Dawn M.                                       X                                          $0
Blount, George                                             X             X            X           $3,142
Brock, Terrie D.                                                         X            X           $3,991
Bruno, Diane T.                                            X                                          $0
Brunson, Sr., Winnon                                                     X            X           $3,276
Campbell, Sydney L.                                                      X            X           $3,600
Coats, Michael                                             X                                          $0
Cooper, Jr., George                                                      X            X           $3,641
Cravotta, Jon                                              X             X                            $0
Crawford, Anthony                                                        X                            $0
Davenport, Michael                                                       X            X           $2,937
Diamond, Perry J.                                                                     X           $3,056
Dinkins, Celesia T.                                                      X            X           $2,025
Donovan, James M.                                          X             X                            $0




Semiannual Report to the Congress April 1, 1999-September 30, 1999
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced   Monetary

Ellison, Rickie C.                                                       X                          $0
Ewell, Kendra                                              X             X                          $0
Fenner, Anthony                                                                       X        $14,501
Frith, Albert                                                            X                          $0
Fusilier, Carl                                             X             X            X         $4,925
Gallemore, Willie                                                        X            X         $5,544
Garnett, Jeffrey                                                                      X         $3,725
Gibson, Arthur                                             X             X            X         $3,753
Ginnetti, Derek T.                                         X                                        $0
Goodrich, Dale                                                                        X         $3,840
Graham, Frank S.                                           X                                        $0
Guy, David A.                                              X                                        $0
Hardy, Sandra                                                            X            X         $3,850
Harris, Granville                                                                     X         $4,474
Heard, Mark C.                                                           X                          $0
Helem, Sheila                                                                         X         $3,981
Hill, Jerry                                                                           X         $3,292
Holdaway, Diane N.                                         X                                        $0
Holdaway, Melissa J.                                       X                                        $0
Holdaway, Tobiann                                          X                                        $0
Isom, Elease                                                                          X         $4,036
Jefferson, Janet M.                                        X                                        $0
Jenkins, Artis                                             X             X            X        $13,279
Jew, Tara C.                                                             X            X         $3,688
King-Elliott, Trudy                                        X                                        $0
Lasater, William                                                                      X         $5,395
Lawrence, Delaine                                          X             X                          $0
Lawrence, Malcolm                                          X             X                          $0
Malkin, Ira                                                X                                        $0
Matheny, Marilyn D.                                        X                                        $0
McClain, Alphonso                                          X                                        $0
McNeil, Ernest L.                                                        X            X         $3,295
Mitchell, Rosalyn                                                        X            X         $4,546
Montgomery, Michael                                                                   X         $4,747
Morrison, Leslie A.                                        X                                        $0
Nelson, Timothy V.                                         X             X            X         $3,447
Parisio, William C.                                                      X            X         $1,025
Petry, Michelle                                                          X            X         $3,719
Pinson, Dion T.                                                          X            X         $4,400
Porter, Keith W.                                                                               $22,392
Prater, Mary A.                                                          X            X         $2,725
Riley, Joshua R.                                           X                                        $0




Semiannual Report to the Congress April 1, 1999-September 30, 1999
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced     Monetary

Rochester, Melvin                                                        X            X            $4,746
Rogers, Kenneth                                                                       X            $3,767
Roy, Jr., Antoine                                                                     X            $3,151
Russell, Bill                                                                         X            $3,782
Salas, Christine M.                                        X                                           $0
Sammons, Bonnie C.                                                       X            X            $5,286
Sanders, Gale                                                                         X            $3,833
Saxena, Sanjay                                                                        X          $816,616
Seaborn, Robert D.                                         X             X            X           $11,190
Shawler, Karen E.                                                                     X            $2,252
Smiley, Lamar                                              X             X            X            $4,529
Smith, Udell                                                                          X            $3,827
Stawicki, Thomas J.                                        X             X            X            $4,200
Stoler, Bruce K.                                           X                                           $0
Talbot, Louis                                                                         X            $3,888
Talley, Wavy                                                             X            X            $3,667
Taylor, Renaldo W.                                         X             X                             $0
Thomas, Deborah                                                          X            X            $3,835
Vieyra, Louis                                                                         X            $6,147
Vitagliano, Mary R.                                        X                                           $0
Ward, Ralph                                                                           X            $7,300
Warren, Garry W.                                                                      X            $3,027
White, Mark                                                                           X            $3,791
Whitthorne, Joseph R.                                                    X            X            $2,208
Wierzbicki, Norman                                                       X            X            $4,618
Wilhelm, William F.                                        X                                           $0
Williams, Jr., Leon                                                      X            X            $4,649
Wilson, Kevin                                                            X            X            $4,399
Wood, Johnnie                                                                         X            $4,361
Worth, Timothy                                                                        X            $2,804
   Total                                                  36             45           62       $1,120,693

OSHA

Beshears, Cheryl Renee                                                   X            X           $1,100
Beshears, Gary Lynn                                                      X            X           $1,100
Brown, Gary Curtis                                                       X            X           $1,100
Noller, Sr., William Oscar                                               X            X           $2,100
   Total                                                   0             4            4           $5,400




Semiannual Report to the Congress April 1, 1999-September 30, 1999
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced     Monetary

Benefit Plan

Baker, Joan                                                X             X            X               $25
Barron, Concepcion                                                                    X          $100,000
Bear Stearns and Company                                                                       $1,035,819
***Sealed ***                                              X                                           $0
Bucci, Anthony R.                                          X             X                             $0
Buonopane, Paul T.                                         X                                           $0
Buonopane, Robert A.                                       X                                           $0
Cambra, George Edward                                                    X                             $0
Carione, Angelo                                                                       X                $0
Carione, Joseph                                                                       X                $0
Carlow, Joseph                                                                        X                $0
Ciepiela, William                                                                     X           $46,735
Compagnie Detudes et de Participat                                                             $1,000,000
Del Val, Tomasa Nancy                                                    X                             $0
Dipalma, James                                                           X                             $0
***Sealed ***                                              X                                           $0
Edward Esbin and Sons                                                    X                             $0
Esbin, Barry                                                             X                             $0
Esbin, Richard                                                           X                             $0
Fernandez, Omar                                                                       X            $7,500
Frankola, Marino                                                                      X          $120,000
Freda, Paul                                                X             X                             $0
Guerrero, Marta                                                          X            X           $50,050
Hernandez, Elsa                                                                       X           $45,000
Hickey, Dennis C.                                                                     X          $599,279
Hickey, Dennis E.                                                                     X                $0
Hickey, Maria                                                                         X                $0
***Sealed ***                                                                         X          $300,050
***Sealed ***                                                            X                             $0
Impulse Plumbing                                                         X                             $0
Jodzio, Kimberly                                                                      X           $54,019
Laforgia, Nicholas                                         X             X                             $0
Lair, James J                                              X             X            X            $5,000
Maguire, John R.                                                                      X            $3,150
Maguire, Raymond                                           X                                           $0
Mirkov, Gabriel                                                                       X               $50
Paladino, Jr., Michael                                     X             X                             $0
Perrucci, Angela                                           X             X            X                $0
Punales, Jesus                                                           X                             $0




Semiannual Report to the Congress April 1, 1999-September 30, 1999
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced     Monetary

Rodriguez, Betty                                                                      X                $0
Ruidiaz, Sori                                                            X            X               $50
Russo, Andrew                                                                         X                $0
Salles, Stuart                                                                                   $180,000
Skuraton, Gregory S.                                       X             X                             $0
Smokrovic, Jere                                                                       X            $5,000
Socarras, Jose                                                                        X          $115,000
Tavares, Joseph Patrick                                                  X                             $0
Taylor, Leonard Keith                                      X                                           $0
Valera, Felicia                                                          X            X           $20,050
Villota, Clara                                                           X            X           $50,050
Wilson, George L. J.                                                     X                             $0
Woods, Pam                                                X              X            X           $94,824
   Total                                                  15             25           27       $3,831,651

Internal Union

Abate, Joseph P.                                                                      X           $1,000
Aetna Life Insurance Company                                                                     $28,430
Anderson, James S.                                                                    X          $14,397
Anderson, Kevin                                                                       X             $324
Anderson, Mark                                                                        X          $28,948
***Sealed ***                                              X                                          $0
***Sealed ***                                              X                                          $0
***Sealed ***                                              X                                          $0
Continental Insurance Company                                                                    $25,000
Cucuro, Emanuele                                                                                  $3,000
Elliot, Steven                                                                                  $137,500
Ford, Fred                                                 X                                          $0
***Sealed ***                                              X                                          $0
Gochis, Mike                                                                          X           $3,956
Humphreys, George                                                                     X               $0
Lynch Planning,                                                                                  $40,000
National Plan Administrators                                                                     $25,000
***Sealed ***                                              X                                          $0
Sandoval, Meyer                                                          X                            $0
***Sealed ***                                              X                                          $0
Spencer, Robert Lee                                        X                                          $0
Stubbolo, Dennis                                                                                 $20,000
***Sealed ***                                              X                                          $0
Williams, Warner                                                                      X           $3,700
   Total                                                   9             1            7         $331,255




Semiannual Report to the Congress April 1, 1999-September 30, 1999
Investigations Case List


Defendant                                            Indictments     Convictions   Sentenced     Monetary

Labor-Management

Allender, Donald                                           X                                           $0
Ameri, Paul                                                              X            X            $5,400
Arteca, Robert                                                                        X              $100
Barila, Vincent                                                          X            X           $52,687
Boring, Joette Marie                                                                  X            $7,200
Busillo, Maria                                             X                                           $0
Carenas Guaman, Ruth                                                     X            X                $0
Cataldo, Gilbert                                           X                                           $0
Dileo, Stephen A.                                          X             X                             $0
Diversified Laborers, Inc.                                 X             X            X          $100,200
Gatto, Joseph                                                                         X            $5,000
Gatto, Louis                                                                          X              $100
Girlando, Joseph                                                                      X          $100,100
Goldberg, Leonard                                                        X            X              $900
Guidice, Anthony                                                                      X              $100
Kaplan, Benjamin                                                         X                             $0
Kuriakose, Aleyamma                                                      X            X                $0
McAlister, Sherrie Siegeli                                               X            X          $480,050
McPherson, James W.                                                      X            X          $480,025
Miranda Aguirre, Gloria                                                  X            X                $0
Nicholson, Harry                                           X             X                             $0
Pancle Mejia, Ester                                                      X            X                $0
Ponce, Armando C.                                                                     X          $100,100
Pottackal, Kuriakose Kizhakke                                            X            X                $0
Rizzo, Dan                                                                            X              $100
Serpico, John                                              X                                           $0
   Total                                                   7             14           19       $1,332,062

Other - Labor Racketeering

***Sealed ***                                              X                                          $0
***Sealed ***                                              X                                          $0
***Sealed ***                                              X                                          $0
Spoleta Construction Co., Inc.                             X             X                            $0
Spoleta, Michael                                           X             X                            $0
   Total                                                   5             2            0               $0




Semiannual Report to the Congress April 1, 1999-September 30, 1999
            Office of Analysis, Complaints,         Appendix
       and Evaluations: Complaint Activity




Allegation Reports by Source:

Hotline Operations - Calls, Letters, and Walk-ins
  from Individuals or Organizations                     182

Letters from Congress                                    12

Letters from DOL Agencies                                 3

Incident Reports from DOL Agencies                        4

Letters from Non-DOL Government Agencies                  6

Government Accounting Office (GAO)                       3


  Total                                                 210


Allegation Reports by Referral:

Referred to Office of Audit                               2

Referred to Office of Investigations
  Regional/Field Offices                                 24

Referred to DOL Program Management                      143

Referred to Other Agencies                               18

No Further Action Required                               23


   Total                                                210



Semiannual Report to the Congress
April 1, 1999–September 30, 1999                               157
United States Department of Labor
    Office of Inspector General




           The OIG Hotline
        Call: 202-219-5227 or 1-800-347-3756

         Written complaints may be sent to:

                      OIG Hotline
               U.S. Department of Labor
              Office of Inspector General
                     Room S-5506
             200 Constitution Avenue, N.W.
                Washington, D.C. 20210



   The OIG Hotline is open to the public and to Federal
   employees 24 hours a day, 7 days a week to receive
   allegations of fraud, waste, and abuse. An operator
   is on duty during normal business hours. At all other
   times, a message can be recorded.
